<html>
<title> - THE ROLE OF YAH LIN ``CHARLIE'' TRIE IN ILLEGAL POLITICAL FUNDRAISING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 THE ROLE OF YAH LIN ``CHARLIE'' TRIE IN ILLEGAL POLITICAL FUNDRAISING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2000

                               __________

                           Serial No. 106-172

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
           David A. Kass, Deputy Counsel and Parliamentarian
                         Jim Schumann, Counsel
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2000....................................     1
Testimony of:
    Trie, Yah Lin ``Charlie''....................................    37
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Exhibit 52...............................................   126
        Exhibit 56...............................................   130
        Exhibit 58...............................................   133
        Exhibit 59...............................................   136
        Exhibit 314..............................................   235
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit 54...............................................     6
        Exhibit 55...............................................     8
        Exhibit 269..............................................    39
        Exhibit 270..............................................    41
        Exhibit 271..............................................    44
        Exhibit 272..............................................    46
        Exhibits 273 and 274.....................................    48
        Exhibit 275..............................................    51
        Exhibit 276..............................................    53
        Exhibit 277..............................................    56
        Exhibit 278..............................................    58
        Exhibit 280..............................................    85
        Exhibit 282..............................................    88
        Exhibit 283..............................................    90
        FBI 302 of Mr. Trie......................................   582
        Letter from the Federal Election Commission..............    15
        Transcribed interview of Mr. Trie........................   256
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Exhibit 249..............................................   241
        Exhibit 250..............................................   244
    Hutchinson, Hon. Asa, a Representative in Congress from the 
      State of Arkansas:
        Exhibit 140..............................................   182
        Exhibit 144..............................................   188
        Exhibit 145..............................................   180
        Exhibit 154..............................................   193
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio:
        Exhibit 251..............................................   202
        Exhibit 252..............................................   212
        Exhibit 253..............................................   216
        Exhibit 255..............................................   218
        Exhibit 258..............................................   198
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Exhibit 14...............................................   107
        Exhibits 15 and 16.......................................   109
        Exhibit 60...............................................   247
        Exhibit 62...............................................   251
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Exhibit 233..............................................   156
        Exhibit 235..............................................   163
        Exhibit 236..............................................   171
    Trie, Yah Lin ``Charlie'', prepared statement of.............    25

 
 THE ROLE OF YAH LIN ``CHARLIE'' TRIE IN ILLEGAL POLITICAL FUNDRAISING

                              ----------                              


                        WEDNESDAY, MARCH 1, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Shays, Ros-Lehtinen, 
McHugh, Horn, Mica, Souder, Scarborough, LaTourette, Barr, 
Hutchinson, Terry, Waxman, Owens, Mink, Norton, Cummings, and 
Kucinich.
    Also present: Kevin Binger, staff director; Daniel R. Moll, 
deputy staff director; James Wilson, chief counsel; David Kass, 
deputy counsel and parliamentarian; Kristi Remington, senior 
counsel; M. Scott Billingsley, Kimberly A. Reed, and James J. 
Schumann, counsels; Maria Tamburri, assistant to chief counsel; 
Mark Corallo, director of communications; Nicole Petrosino and 
Caroline Katzin, professional staff member; Lisa Smith Arafune, 
chief clerk; Robert A. Briggs, clerk; Robin Butler, office 
manager; Michael Canty, staff assistant; Corinne Zaccagnini, 
chief information officer; Leneal Scott, computer systems 
manager; Phil Schiliro, minority staff director; Phil Barnett, 
minority chief counsel; Kenneth Ballen, minority chief 
investigative counsel; Kristin Amerling, minority deputy chief 
counsel; Paul Weinberger, minority counsel; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order.
    Before the distinguished ranking member and I deliver our 
opening statements, the committee must first address a number 
of procedural issues.
    First, the committee will enact a rule regarding the usage 
of the new camera system that was installed at the end of last 
year. The majority and minority staff have worked together and 
have arrived at a rule that is agreeable to both sides and that 
will help ensure that the system is used in a fair and balanced 
way.
    I will now ask unanimous consent to amend Committee Rule 17 
with the amendment that has been distributed to the members, 
and without objection, so ordered----
    Mr. Waxman. Reserving the right to object.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. And I will not object, but I want to use this 
opportunity to enter into a colloquy with you that our staffs 
have worked out so that we have very precisely in the record 
what the rules will be.
    I am pleased that we are able to reach agreement on new 
Committee Rule 17, which has been modified to address Internet 
broadcast of committee hearings and meetings. And before we 
approve the new rule, I have a few comments and questions 
regarding the rule.
    First, I understand that clause 2 of the proposed new 
Committee Rule 17 requires that Internet coverage of committee 
or subcommittee hearings and meetings shall conform with the 
provisions of House Rule XI, clause 4. One of the provisions of 
that House Rule XI, clause 4, provision (b), prohibits the use 
of radio and television tapes and television film of committee 
hearings or meetings from being used or made available for use 
as partisan political campaign material or to promote an 
individual's candidacy for elective office. Provision (b) does 
not specifically mention Internet coverage, and I want to 
clarify that provision (b) of House Rule XI, clause 4, would 
apply to Internet coverage under the new Committee Rule 17, 
clause 1.
    Mr. Chairman, is this your understanding as well?
    Mr. Burton. That is our understanding.
    Mr. Waxman. Second, our goal regarding the operation of the 
committee's own Internet broadcast system is to have 
independent personnel run the system. The majority and minority 
have requested that the House leadership consider providing for 
such personnel. I understand that in the meantime the majority 
is currently exploring the costs of such personnel, and that 
unless the costs of such service are prohibitively expensive or 
such services are unavailable, the committee will hire 
independent personnel to run the system for full committee 
hearings and meetings. Majority and minority staff will run the 
committee broadcast system for subcommittee hearings and 
meetings.
    Mr. Chairman, is this your understanding as well?
    Mr. Burton. Yes, that is our understanding, and we have 
agreed for the time being to have the majority and minority 
staff work together until we get that worked out.
    Mr. Waxman. Third, clause 3 of the new proposed Committee 
Rule 17 requires that personnel providing coverage of committee 
and subcommittee hearings and meetings through Internet 
broadcast other than through the committee's own broadcast 
system must be accredited. The intention behind the new 
proposed Committee Rule 17, clause 3, is that its accreditation 
requirements shall be applied consistent with the accreditation 
requirements for radio and television media coverage in House 
Rule XI, clause 4(f)(10).
    Mr. Chairman, is this your understanding?
    Mr. Burton. That is our understanding.
    Mr. Waxman. I thank you very much for the chance to clarify 
these points, and I want to thank you personally for our 
staffs' working together and reaching a consensus and 
understanding of these rules, and I think it will help all the 
members of the committee on both sides of the aisle.
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. Waxman. I withdraw my objection to your unanimous 
consent request.
    Mr. Burton. The gentleman withdraws his objection. Without 
objection, the rule is amended.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record, and 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record, and without objection, so ordered.
    I ask unanimous consent that the questioning in the matter 
under consideration proceed under clause 2(j)(2) of House Rule 
XI and Committee Rule 14, in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning not to exceed 60 minutes 
divided equally between the majority and minority, and without 
objection, so ordered.
    I also ask unanimous consent that questioning in this 
matter proceed under clause 2(j)(2) of House Rule XI and 
Committee Rule 14, in which the chairman and ranking minority 
member allocate time to members of the committee as they deem 
appropriate for extended questioning not to exceed 60 minutes 
equally divided between the majority and minority, and without 
objection, so ordered.
    Today's hearing is going to involve hearing testimony from 
Yah Lin Trie, or Charlie Trie, as he is more commonly known. 
Mr. Trie asserted his fifth amendment rights earlier with the 
committee. He was 1 of the 122 people who either took the fifth 
amendment or fled the country. Today he will testify under a 
grant of immunity. It has taken a lot of perseverance, but 
finally the American people will hear from Mr. Trie directly.
    This will be the third time in the last few months that one 
of the central figures in our investigation has testified. 
Johnny Chung testified last May, John Huang testified last 
December, and we learned a lot in those hearings.
    Mr. Chung testified that a Chinese general, the head of 
their military intelligence agency of the People's Liberation 
Army, gave him $300,000 to help the President's campaign. 
General Ji said, ``We really like your President. We hope he'll 
be re-elected. I'll give you US$300,000. You can give it to 
your President and the Democrat Party.''
    Mr. Chung testified that he received the money through Liu 
Chao-Ying, a colonel in the People's Liberation Army, the 
daughter of a very powerful general. He testified that Mrs. Liu 
told him they were also working with other people. She referred 
specifically to Mark Middleton receiving $500,000. He was at 
one time a senior White House aide. He took the fifth amendment 
several times before this committee last year.
    Mr. Chung said he was told by another person in China that 
Charlie Trie had asked the Chinese Government for $1 million. 
This was one of the issues we will ask Mr. Trie about today.
    General Ji had a lot of problems since our last hearing--
has had a lot of problems. Less than 2 months after Johnny 
Chung testified, General Ji, head of the Chinese military 
intelligence agency, was demoted. Now there are news reports 
coming out of China that he has been caught up in a corruption 
scandal. He may be prosecuted for accepting bribes. It looks to 
me like they are trying to make him the scapegoat. I think 
China is trying to make it look like General Ji was a lone 
operator.
    Given the absolute lack of cooperation we received from the 
Chinese Government in this investigation, I find it hard to 
believe that General Ji was acting alone. They threatened to 
arrest our committee staff if they traveled to China to 
interview anybody. They wouldn't let us have any bank records 
from Hong Kong or Beijing. I don't think General Ji and Liu 
Chao-Ying were lone wolves.
    John Huang testified in December. Again, we learned a lot. 
Mr. Huang testified that his boss, James Riady, flew in from 
Indonesia in August 1992. He took a limousine ride with Bill 
Clinton and offered him $1 million for his campaign. Mr. Huang 
said that he and Mr. Riady then set out to funnel $700,000 or 
$800,000 through Lippo Bank employees and companies. The money 
went to the DNC and other Democrat campaigns in 1992, 1993, and 
1994. It all came from Indonesia.
    He also testified that he continued to receive money from 
the Riady family while he was under investigation. He wasn't 
alone. They paid Webb Hubbell $100,000 while he was under 
investigation in 1994. Antonio Pan was indicted along with 
Charlie Trie. He fled the country. We now have learned that the 
Riady family has put him on the payroll.
    Former Governor Jim Guy Tucker of Arkansas and his wife 
signed a lucrative deal with the Riadys shortly after he was 
indicted by Independent Counsel Ken Starr in 1996.
    That is quite a pattern. It seems like everybody that is 
indicted or gets in trouble is getting help from the Riadys and 
the Lippo Group.
    There is one final point that we learned during the John 
Huang hearings, and it is a very important one. We learned that 
the Justice Department during two interviews with President 
Clinton and three interviews with Vice President Gore never 
asked a single question, not one, about foreign contributions. 
They didn't ask about James Riady or John Huang or Johnny Chung 
or Charlie Trie or the Hsi Lai Temple. Again, we need to ask 
the Justice Department about that. I don't understand.
    Today we will hear from Charlie Trie. Last fall the Justice 
Department lifted its objection to the committee immunizing Mr. 
Trie. We voted to grant him immunity in November, and I 
appreciate my Democrat colleagues' working with us toward that 
end.
    Charlie Trie was a friend of the President's from Little 
Rock. He had wide-ranging access to the White House and 
Presidential advisers. Beginning in 1994, he donated about 
$230,000 to the President's campaign and other Democratic 
campaigns. Most of the money came from foreign sources. In 
addition, he arranged several hundred thousand dollars in 
conduit contributions through straw donors. Again, most of the 
money came from Asia.
    In a few short years, Mr. Trie went from being the owner of 
a Chinese restaurant in Little Rock to a mover and shaker in 
Washington, DC. He was well-known at the White House. He sat at 
the head table at DNC fundraisers. He was appointed by the 
President to a commission on trade.
    Before 1994, Charlie Trie had never made a contribution to 
the DNC in his life. Then he turned around and gave $100,000 in 
1994. It seems to me that this should have raised red flags 
with somebody.
    The President knew Charlie Trie. The President must have 
known that he didn't have that kind of money himself. If the 
President didn't suspect that anything was wrong with that 
contribution, he must have been tipped off when Mr. Trie 
brought a shopping bag filled with hundreds of thousands of 
dollars in checks and money orders to the President's legal 
defense fund. The White House has said time and time again that 
they had no way of knowing that any of this was illegal. Well, 
if the President didn't know, he should have.
    Mr. Trie was intimately involved in some of the most 
memorable events of the campaign fundraising scandal. He 
escorted Wang Jun to the White House fundraising coffee in 
February 1996. Wang Jun is the head of China's 
Polytechnologies. They were caught trying to smuggle automatic 
weapons into the United States. They were smuggling $4 million 
worth of automatic weapons to street gangs in Los Angeles.
    He escorted Yogesh Gandhi to a DNC fundraiser in May 1996. 
Yogesh Gandhi gave $325,000 to the DNC. In exchange, he got to 
give the President a bust of Mahatma Gandhi. The problem is the 
money wasn't his. He served as a conduit. It came from a 
wealthy Japanese industrialist.
    He delivered close to $700,000 in sequentially numbered 
money orders and checks to the President's legal defense fund. 
The money was tied to a Buddhist organization in Taiwan.
    Mr. Trie asked a colonel in the People's Liberation Army, 
Lin Ruo Qing, to contribute $10,000 to the DNC. The DNC 
actively participated in this solicitation. I want to show 
everyone a couple of documents. Would you please put exhibit 54 
up on the screen?
    [Exhibit 54 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.001
    
    Mr. Burton. This is a letter from Fran Wakam of the DNC to 
Lin Ruo Qing. It is addressed to her in Beijing, and here is 
what it says: ``Thank you for your interest in the Business 
Leadership Forum. I would like to make you aware of two 
upcoming dates for lunch and dinner with the President and Vice 
President Gore.''
    Now, who writes to someone in Beijing and asks them to 
become a fundraiser?
    But that is not all. Now please put up exhibit 55 on the 
screen.
    [Exhibit 55 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.105
    
    [GRAPHIC] [TIFF OMITTED] T8344.106
    
    Mr. Burton. This is a memo back to Fran Wakem from Charlie 
Trie's assistant. She appreciates the letter for Colonel Lin, 
but she wants them to add an extra sentence to it, and here is 
what she says: ``Ms. Lin is currently working for a Chinese 
Government-owned organization. Therefore, it's difficult for 
her to apply for a business visa. Your letter to her is a great 
help; however, I'm wondering if you'll add one more sentence.'' 
And the DNC did it. They added the extra sentence and sent her 
the letter again. It is really tough when your big contributors 
can't even get a visa to come into the United States.
    The purpose of this hearing is not just to have Charlie 
recite all of his sins. It is important to get a complete 
account from him. But this is bigger than that. The DNC has 
said time and time again that they had no way of knowing that 
they were getting foreign money. They say they were victimized 
by Charlie Trie and John Huang and Johnny Chung. But time and 
time again we see examples like the letters we have just shown 
you. They may not like to admit it, but they knew.
    Mr. Trie had two foreign nationals who were his primary 
financial backers. Both have ties to the Chinese Government. 
The first is Ng Lap Seng--Mr. Wu. Ng Lap Seng is a wealthy 
developer from Macau. He was born in China. He is a member of a 
Communist Party organization there, the Chinese Peoples 
Political Consultive Congress. He wired Charlie Trie more than 
$1 million from Macau and Hong Kong. Over $130,000 of that 
money was funneled to the DNC.
    He went on several fundraisers with Charlie Trie. He was 
listed as an ``event benefactor'' for the President's birthday 
party fundraiser in 1994, even though he wasn't eligible to 
contribute.
    Ng Lap Seng brought almost $350,000 in cash into the 
country. On at least four occasions, Ng Lap Seng came into the 
country with large amounts of cash and went directly to 
meetings in the White House with Mr. Trie and Mark Middleton, 
who took the fifth amendment before this committee several 
times.
    Mr. Trie's other foreign benefactor was Tomy Winata of 
Indonesia. Mr. Winata is a billionaire with close ties to the 
Indonesian military. He is also reported to have connections 
with the Communist Chinese Government. Even more amazing, he 
had a business relationship with Liu Chao-Ying, the China 
aerospace executive, the daughter of one of China's most senior 
generals who used to be the head of the People's Liberation 
Army, who helped funnel the $300,000 to Johnny Chung, which 
later in part got to the President's Re-election Committee.
    In 1996, Mr. Winata sent $200,000 in traveler's checks to 
Mr. Trie from Indonesia. At least $50,000 of that money was 
used for conduit contributions. Two of Mr. Winata's aides went 
to a fundraiser and had their pictures taken with the 
President. Like Ng Lap Seng, Mr. Winata also brought large 
amounts of cash into the country, over $370,000. He also wired 
Mr. Trie $120,000. All told, that is almost $700,000.
    One of the things we will be asking Mr. Trie is what all 
this cash was for. What Charlie Trie doesn't say today may be 
even more important than what he does say. The Justice 
Department has asked us not to question Mr. Trie about two 
individuals: Mark Middleton, who took the fifth amendment 
several times before this committee, and Ernie Green. He had 
extensive dealings with both of these men. Both of these men 
appear to be under active investigation by the Justice 
Department. We have agreed to that request.
    Mark Middleton was a special assistant to the President. 
Then he went into business for himself. He was close to Charlie 
Trie. He was also close to James Riady and John Huang. He had 
frequent meetings with all three of these people at the White 
House and had lunch with them several times in the White House 
mess.
    Ernie Green is a close friend of the President. He was a 
major fundraiser for the DNC. Almost a year ago, I sent a 
criminal referral to the Justice Department on Mr. Green. I 
asked him to investigate false statements Mr. Green made during 
depositions with this committee.
    Obviously, these are areas we would like to go into today. 
They are very important. However, we have told the Justice 
Department we would work around them, and we will stick to that 
agreement. I only hope that the Justice Department follows up 
thoroughly.
    There are a lot of things we want to question Mr. Trie 
about. I want to get to the questioning so I won't talk too 
much longer here. There are just a couple of things I want to 
mention.
    As we have pursued this investigation, we have been 
watching how the Justice Department has done its job. That is 
part of our oversight responsibility. They have not done their 
job well. I don't think the problem is with line prosecutors or 
the FBI agents working on this case. I think the problem stems 
from the top, the Attorney General and her staff. We will be 
detailing all of these problems in a report later this year, 
but I want to mention just a few of the major shortcomings that 
we have observed.
    The Attorney General has refused to appoint an independent 
counsel. The Director of the FBI advised her she needed to. So 
did the top prosecutor on the task force, Charles LaBella. Mr. 
LaBella told the Attorney General, ``The contortions that the 
Department has gone through to avoid investigating these 
allegations are apparent.''
    James Riady has never been indicted. John Huang's testimony 
was pretty clear. Mr. Riady orchestrated a scheme to funnel 
large amounts of foreign money into the President's campaign. 
Why hasn't he been indicted?
    The Justice Department never even brought up the subject of 
foreign money when they interviewed the President and Vice 
President during five separate interviews. Not one single 
question. How is that possible?
    A search warrant for Charlie Trie's home in Arkansas was 
quashed by the Justice Department and the Attorney General 
lawyers at the last minute. Documents were being destroyed, and 
they would not let the FBI go in and search and save those 
documents. And they had to wait 3 months before they finally 
got in there, and a lot of documents were destroyed in the 
interim.
    When Democrats do get convicted--and this is very 
important--they get very light sentences. When Republicans get 
convicted by the Justice Department for the same conduct, they 
are given massive fines. Simon Fireman, a Republican 
fundraiser, admitted to funneling $120,000 through straw 
donors. He got a $6 million fine. John Huang admitted to 
funneling--working with James Riady and funneling more than 
$700,000 in illegal money to the Democrat Party. He got a 
$10,000 fine.
    Now, compare that. One person contributed $120,000 
illegally and got a $6 million fine because he was a 
Republican. Another funneled $700,000 in illegal money through 
conduits and only got a $10,000 fine. That doesn't sound 
consistent.
    Empire Sanitary Landfill pled guilty to arranging $129,000 
in conduit contributions, and they were fined $8 million. The 
Justice Department wanted to give Charlie Trie probation with 
no fine. The judge was so upset about it that he himself 
initiated and fined Charlie Trie $5,000; $5,000 for all of that 
compared to $8 million for lesser contributions.
    Something is wrong here. The Justice Department needs to 
answer for all this. I won't take any more time with it today, 
but I want to assure my colleagues that we are going to return 
to that subject.
    Finally, I just want to say a few words about the process 
today. This hearing will be very similar to the hearings we 
have held with John Huang in December. Yesterday, for the first 
time, we got an opportunity to interview Mr. Trie for the first 
time in 3 years. I want to thank Mr. Trie and his attorneys for 
arranging that. I also want to thank the Justice Department for 
their role in making that possible.
    However, there is a large volume of material for us to go 
through. I expect this process to take 2 days, possibly 3. I 
reserved a third day on Friday. I hope we won't need to go into 
that. We have talked to Mr. Trie's attorney, and we may be able 
to accommodate him by shortening some of the questioning, if 
that is possible, and we are allowed to question Mr. Trie at 
length after the hearing is completed.
    We will begin today with extended questioning. I will ask 
questions for half an hour, and then Mr. Waxman will ask 
questions for half an hour. Then we will go to the 5-minute 
rule, and, Mr. Trie, the members on our side will have specific 
areas they will be questioning you about. They will have to do 
that in their 5-minute increments. Hopefully others will yield 
to them to extend their questioning, if necessary. That is part 
of our rules, so they will be returning to those areas their 
next time around.
    We will try to move this process along so it doesn't become 
too cumbersome, but we also want to be sure that we are 
thorough because we have got a lot of ground to cover.
    That is a brief description of how we will proceed. I will 
now yield to Mr. Waxman for his opening statement. Then we will 
ask Mr. Trie to make a statement if he wishes, and then we will 
get on with the questioning.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    As the investigation into campaign finance violations of 
the 1996 election unfolded, three central figures emerged: 
Johnny Chung, John Huang, and Charlie Trie. By the end of this 
week, we will have completed over 50 hours of questioning of 
all three.
    Johnny Chung had no information that in any way implicated 
the President, the Vice President, the First Lady, any Member 
of Congress, or any Democratic Party official in any illegal or 
improper activity. And the committee has no credible evidence 
that would suggest that Mr. Chung was a Chinese spy or 
intentionally endangered our national security.
    John Huang had no information that in any way implicated 
the President, the Vice President, the First Lady, any Member 
of Congress, or any Democratic Party official in any illegal or 
improper activity. And the committee has no credible evidence 
that would suggest that Mr. Huang was an agent of the Chinese 
Government or took any action that endangered our national 
security.
    It now appears that Charlie Trie has no information that in 
any way implicates the President, the Vice President, the First 
Lady, any Member of Congress, or any Democratic Party official 
in any illegal or improper activity. And the committee has no 
credible evidence that would suggest that Mr. Trie was an agent 
of the Chinese Government or took any action that endangered 
our national security.
    We do know, however, that Mr. Chung, Mr. Huang, and Mr. 
Trie broke the law by engaging in conduit campaign schemes. All 
the members of this committee, Democratic and Republican, 
should condemn those illegal acts and recognize that it is 
important that we focus attention on them. But conduit schemes, 
no matter how wrong, are not in themselves treasonous. They 
don't automatically threaten our national security. And absent 
additional evidence, they don't indicate misconduct by the 
President or other officials that had no knowledge of these 
conduit schemes.
    There are only two instances of conduit contributions that 
do point to possible misconduct by an elected official or an 
official of one of the major political parties.
    The first involves Peter Cloeren, a Texas businessman and a 
conservative Republican. He has pled guilty to participating in 
a conduit scheme, and he has alleged this scheme was 
orchestrated by House Republican Whip Tom DeLay. Chairman 
Burton, however, has refused to investigate that matter and 
call Mr. Cloeren in for a hearing.
    The second instance involves Haley Barbour, the former head 
of the Republican National Committee. It is clear foreign 
contributions were funneled into the National Policy Forum and 
used in the 1996 campaign, and evidence suggests that Mr. 
Barbour was personally involved in that effort. But the 
Republican members of the Federal Election Commission have 
blocked any FEC action on that matter, and Chairman Burton has 
refused to hold a hearing on this conduit scheme.
    Regrettably, instead of following the evidence where it 
leads, this committee's investigation has focused exclusively 
on one party and, as a result, has been mired in partisanship.
    At our first campaign finance hearing, 2\1/2\ years ago, we 
heard from Charlie Trie's sister, Manlin Foung. She told us 
that her brother had made illegal conduit contributions, but 
that he was not a Chinese spy or part of a Chinese conspiracy. 
Today, 2\1/2\ years later, we will hear finally from Mr. Trie 
himself.
    Investigations can be like drilling for oil. Sometimes you 
strike it rich by discovering new evidence of wrongdoing or 
inappropriate conduct. And sometimes you dig a dry hole.
    Since Manlin Foung testified in October 1997, we have 
poured millions of dollars into investigating Mr. Trie, Mr. 
Huang, and Mr. Chung. Today we will learn whether we have found 
oil or dug one of Congress' most expensive dry holes.
    I look forward to hearing Mr. Trie's testimony, and I have 
had a chance already to review it. And as the chairman 
indicated, our staffs met with Mr. Trie and questioned him at 
length about everything that he could possibly tell us. Today 
in this open forum we will hear from him directly, and if we 
can get some new evidence today, then we ought to take it and 
move forward with it. But if we get the same statements that we 
have heard from the other two and which are in Mr. Trie's 
statement so far, we have no evidence other than a lot of 
surrounding circumstances and innuendo, but no evidence that 
leads to some of the outlandish claims that have been made on 
behalf of this investigation.
    But the evidence is what we ought to see and follow, and 
the statements of the three principals before our committee 
indicate, as I mentioned, no information implicating the 
President, the Vice President, or anyone else in illegal or 
improper activities.
    I look forward, Mr. Chairman, to hearing from Mr. Trie.
    Mr. Burton. Thank you, Mr. Waxman.
    I ask unanimous consent to enter into the record a letter 
from the Federal Election Commission regarding Mr. DeLay which 
clears him of any improprieties, and if you have not seen the 
letter, I will be happy to let you see it.
    Mr. Waxman. I have no objection to entering the letter, but 
I want to take exception to the characterization that it 
``clears'' him of any improprieties. But I have no objection to 
the letter being----
    Mr. Burton. We will enter it into the record, and the 
record will speak for itself.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.002
    
    [GRAPHIC] [TIFF OMITTED] T8344.003
    
    [GRAPHIC] [TIFF OMITTED] T8344.004
    
    [GRAPHIC] [TIFF OMITTED] T8344.005
    
    [GRAPHIC] [TIFF OMITTED] T8344.006
    
    [GRAPHIC] [TIFF OMITTED] T8344.007
    
    [GRAPHIC] [TIFF OMITTED] T8344.008
    
    [GRAPHIC] [TIFF OMITTED] T8344.009
    
    [GRAPHIC] [TIFF OMITTED] T8344.010
    
    Mr. Burton. Mr. Trie, would you rise, please?
    [Witness sworn.]
    Mr. Burton. Be seated. Mr. Trie, do you have an opening 
statement you would like to make?
    Mr. Weingarten. Mr. Chairman----
    Mr. Burton. Excuse me, counsel. The rules of the House are 
that only the person being questioned can speak, so we have to 
adhere to that. You can confer with your client and have him 
speak.
    Mr. Weingarten. I was simply going to waive--Mr. Trie is 
self-conscious about his English, and I was simply going to 
announce that he would waive the reading of the opening 
statement so long as it is part of the record and all the 
Members have it. That was all I was going to say.
    Mr. Burton. We will put his opening statement into the 
record, and if Mr. Trie desires, we will go ahead with 
questioning immediately.
    Mr. Weingarten. That is his desire.
    [The prepared statement of Mr. Trie follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.011
    
    [GRAPHIC] [TIFF OMITTED] T8344.012
    
    [GRAPHIC] [TIFF OMITTED] T8344.013
    
    [GRAPHIC] [TIFF OMITTED] T8344.014
    
    [GRAPHIC] [TIFF OMITTED] T8344.015
    
    [GRAPHIC] [TIFF OMITTED] T8344.016
    
    [GRAPHIC] [TIFF OMITTED] T8344.017
    
    [GRAPHIC] [TIFF OMITTED] T8344.018
    
    [GRAPHIC] [TIFF OMITTED] T8344.019
    
    [GRAPHIC] [TIFF OMITTED] T8344.020
    
    [GRAPHIC] [TIFF OMITTED] T8344.021
    
    [GRAPHIC] [TIFF OMITTED] T8344.022
    
    Mr. Burton. Mr. Trie, you do understand English?

             TESTIMONY OF YAH LIN ``CHARLIE'' TRIE

    Mr. Trie. Yes.
    Mr. Burton. OK. Mr. Trie, when did you first meet Tomy 
Winata?
    Mr. Trie. 1994.
    Mr. Burton. After you met him, Winata suggested that you go 
to work for him, didn't he?
    Mr. Trie. Late--early 1995.
    Mr. Burton. And when he asked you to go to work for him, 
did he indicate that he was willing to pay you $50 million?
    Mr. Trie. Yes.
    Mr. Burton. Why didn't you take the $50 million job offer?
    Mr. Trie. I don't think I deserve.
    Mr. Burton. You didn't think you deserved it?
    Mr. Trie. Yes.
    Mr. Burton. Mr. Winata owns a number of companies in 
Indonesia, including a satellite company and a bank. In fact, 
Mr. Winata has close ties to the Indonesian military, doesn't 
he?
    Mr. Trie. I don't know that.
    Mr. Burton. You don't know whether he has close ties with 
the Indonesian military?
    Mr. Trie. I wasn't with him all the time.
    Mr. Burton. Did you ever see any Indonesian Army officers 
at his home?
    Mr. Trie. Yes.
    Mr. Burton. Pretty high-ranking officers?
    Mr. Trie. I don't know their ranking.
    Mr. Burton. But you knew they were military officers from 
the Indonesian military.
    Mr. Trie. Yes.
    Mr. Burton. What does Mr. Winata have to do with the 
Suharto family?
    Mr. Trie. They're friends.
    Mr. Burton. Do they have any business connections?
    Mr. Trie. I cannot say it.
    Mr. Burton. You don't know?
    Mr. Trie. I don't know.
    Mr. Burton. What does Mr. Winata have to do with the Riady 
family?
    Mr. Trie. I think they're friends.
    Mr. Burton. Are they business partners?
    Mr. Trie. No, not I--not that I recall.
    Mr. Burton. You don't recall whether----
    Mr. Trie. Or that I know.
    Mr. Burton. You don't know whether he is a business partner 
in any way with the Riadys?
    Mr. Trie. No.
    Mr. Burton. What does Mr. Winata have to do with the 
People's Republic--the Government of Communist China, PRC?
    Mr. Trie. I don't think he has anything to do with PRC.
    Mr. Burton. He doesn't have any contact or connections with 
the PRC?
    Mr. Trie. Only I know they have the business deal, was 
trying to have business deals with Ms. Liu. That was 1997.
    Mr. Burton. Liu Chao-Ying?
    Mr. Trie. Yes.
    Mr. Burton. The aerospace industry.
    Mr. Trie. I don't know what she do.
    Mr. Burton. You don't know what she does?
    Mr. Trie. No.
    Mr. Burton. Exhibit 269 is a wire transfer of $70,000 from 
Winata to your bank account dated February 14, 1995. Do you 
know why he sent that money to you?
    [Exhibit 269 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.023
    
    Mr. Trie. Just a second.
    Mr. Burton. It is exhibit 269.
    Mr. Trie. I couldn't recall this wire transfer.
    Mr. Burton. You don't----
    Mr. Trie. I believe I loan money from him.
    Mr. Burton. You don't recall this $70,000 wire transfer?
    Mr. Trie. No.
    Mr. Burton. Did the Justice Department ask you about this 
wire transfer?
    Mr. Trie. I don't recall.
    Mr. Burton. You don't recall?
    Mr. Trie. Yeah. They ask a lot of bank record. I couldn't 
recall this one.
    Mr. Burton. Yesterday, my counsel tells me that you told me 
the Justice Department did not ask you about this. You met----
    Mr. Trie. I told them yes.
    Mr. Burton. You told them yesterday that the Justice 
Department did not ask you about that $70,000.
    Mr. Trie. Because I don't recall.
    Mr. Burton. Now you don't recall?
    Mr. Trie. Because on that day, yesterday I don't recall.
    Mr. Burton. You said yesterday you don't recall?
    Mr. Trie. What's your question?
    Mr. Burton. My question is: Did the Justice Department ask 
you about the $70,000 wire transfer from Mr. Winata?
    Mr. Trie. I don't recall they ask this question or not.
    Mr. Burton. Well, that is different than what you told our 
staff yesterday, because yesterday you told our staff that the 
Justice Department did not ask you that question.
    Mr. Trie. Is that--I thought that's the same thing, which I 
don't recall.
    Mr. Burton. OK. Exhibit 270 is a translation of a note that 
was written in Chinese, a copy of which was found in your 
office by the FBI when it executed its search warrant. The note 
is dated May 9, 1995, and the note thanks Winata for 
introducing you to people in Taipei. The note also states that 
you talked this over with Mark, and he asked you to come to 
this country in the last 10 days of May.
    Were you talking about Mark Middleton?
    [Exhibit 270 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.024
    
    [GRAPHIC] [TIFF OMITTED] T8344.025
    
    Mr. Trie. Yes.
    Mr. Burton. You were talking about Mark Middleton?
    Mr. Trie. Yes.
    Mr. Burton. Who did Winata introduce you to in Taipei?
    Mr. Trie. His business associate.
    Mr. Burton. And who was that?
    Mr. Trie. I couldn't recall.
    Mr. Burton. You don't recall?
    Mr. Trie. Many people, many people.
    Mr. Burton. Many associates?
    Mr. Trie. Yes.
    Mr. Burton. How many times did Winata come to the United 
States in the period of time that you dealt with him?
    Mr. Trie. Four to five time, I think.
    Mr. Burton. Four to five times?
    Mr. Trie. Yes.
    Mr. Burton. In the times that Winata came to the United 
States, did you travel with him?
    Mr. Trie. Sometime.
    Mr. Burton. Did Winata give you money when he came to the 
United States?
    Mr. Trie. Yes, he do--he does.
    Mr. Burton. How much?
    Mr. Trie. Sometime $10,000 sometime $20,000.
    Mr. Burton. More than $20,000?
    Mr. Trie. No, no; $10,000 or $20,000.
    Mr. Burton. $10,000 or $20,000?
    Mr. Trie. Yeah.
    Mr. Burton. Did you always report all this money on your 
income taxes?
    Mr. Trie. I did not.
    Mr. Burton. You did not?
    Mr. Trie. Yes.
    Mr. Burton. Did the Justice Department ask you about that 
at all?
    Mr. Trie. No.
    Mr. Burton. What did you do to try to set up a meeting 
between the President and Winata? Did you speak to anyone at 
the White House?
    Mr. Trie. I think I speak to Mark.
    Mr. Burton. Mark Middleton?
    Mr. Trie. Yes.
    Mr. Burton. Did you speak to anybody at the Democrat 
National Committee?
    Mr. Trie. I don't think so.
    Mr. Burton. Were you successful in trying to set up a 
meeting between the President and Winata?
    Mr. Trie. No.
    Mr. Burton. Mr. Winata visited the United States in 
December 1995, and exhibit 271 is a letter from Winata to you 
dated December 29, 1995. Winata thanks you for your hospitality 
during his recent trip to the United States. Where did you go 
with the Winatas during the December 1995 trip?
    [Exhibit 271 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.026
    
    Mr. Trie. I think he came to Washington, DC.
    Mr. Burton. So you did bring him to Washington?
    Mr. Trie. I didn't bring him. He just came to Washington.
    Mr. Burton. But you were with him?
    Mr. Trie. I was in Washington, DC, yes.
    Mr. Burton. Did you take him any place in particular, to 
the White House or anywhere?
    Mr. Trie. Can I look at the document?
    Mr. Burton. Beg your pardon?
    [Pause.]
    Mr. Trie. I don't remember the date. I did take him--I 
don't think him, but his wife and family.
    Mr. Burton. To the White House?
    Mr. Trie. Yes.
    Mr. Burton. Exhibit 272 is a Treasury record indicating 
that Winata brought $35,000 in cash with him when he came on 
that trip. Do you know what he did with that money? And did he 
give you any?
    [Exhibit 272 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.027
    
    Mr. Trie. I couldn't recall, but maybe $10,000, what 
normally he do. I couldn't recall.
    Mr. Burton. He maybe gave you $10,000, but you don't recall 
how much?
    Mr. Trie. I don't recall.
    Mr. Burton. Did he bring any other money with him that you 
know of?
    Mr. Trie. I don't. Maybe his family bring some, but I don't 
know. I didn't ask.
    Mr. Burton. During any of Winata's travels to the United 
States, did you ever introduce him to any Government officials?
    Mr. Trie. I think Mark Middleton, maybe Jude Kearney.
    Mr. Burton. Mark Middleton and who else, sir?
    Mr. Trie. Jude Kearney.
    Mr. Burton. Jude Kearney?
    Mr. Trie. From Commerce.
    Mr. Burton. Commerce Department.
    Mr. Trie. And I couldn't recall anybody else.
    Mr. Burton. Exhibits 273 and 274 are pages from the 
telephone directory of Jude Kearney, and the directory 
indicates that he met Mr. Winata, and you did introduce him to 
Mr. Winata. That is what you just said, right?
    [Exhibits 273 and 274 follow:]

    [GRAPHIC] [TIFF OMITTED] T8344.028
    
    [GRAPHIC] [TIFF OMITTED] T8344.029
    
    Mr. Trie. Yes.
    Mr. Burton. Why did you introduce him to Mr. Winata?
    Mr. Trie. That's the person I know in Commerce.
    Mr. Burton. Was there any business that Mr. Winata wanted 
to do and that is why he wanted to meet with Mr. Kearney?
    Mr. Trie. I think that Winata really did a lot of business 
within the United States. I'm just his friend.
    Mr. Burton. Did you ever travel with Winata in Asia?
    Mr. Trie. Yes.
    Mr. Burton. Did you ever introduce Winata to any Chinese 
officials or Taiwan officials?
    Mr. Trie. He's a very rich man. I don't think he need me to 
introduce him over there, but in the United States I think I 
did.
    Mr. Burton. So he already knew a lot of people in----
    Mr. Trie. Yes.
    Mr. Burton [continuing]. China and Taiwan?
    Mr. Trie. Yes.
    Mr. Burton. Did you ever travel with him? Did you travel 
with him?
    Mr. Trie. Normally we didn't travel together, but, you 
know, sometime when he go somewhere, he call me. If I have the 
time, I go there.
    Mr. Burton. Did he ever introduce you to any officials of 
foreign governments?
    Mr. Trie. Everybody he introduced me is just shake hand. I 
don't know their--I don't try to recall their names because 
they do business with him.
    Mr. Burton. Exhibit 275 is a memo from Susan Levine to 
Nancy Hernreich dated December 7, 1995. In the memo, Levine 
states that you would like to meet with the President between 
December 11th and 15th and would like to introduce a friend of 
yours from Indonesia to the President. Was she referring to 
Winata?
    [Exhibit 275 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.030
    
    Mr. Trie. I think so.
    Mr. Burton. Did you bring Winata to the White House?
    Mr. Trie. I don't recall.
    Mr. Burton. You don't recall?
    Mr. Trie. It never--I don't think he went to White House.
    Mr. Burton. Did you take him to the White House to meet 
with Middleton or anybody else?
    Mr. Trie. I don't think so.
    Mr. Burton. You don't think so? You don't remember?
    Mr. Trie. I don't remember.
    Mr. Burton. Exhibit 276 is a Treasury record indicating 
that Winata entered the United States in January, January 21, 
1996. Did you see him on that trip?
    [Exhibit 276 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.031
    
    Mr. Trie. I think so.
    Mr. Burton. The same exhibit shows that Winata carried with 
him $78,260 in cash. Do you know what he did with that money? 
And did he give you any?
    Mr. Trie. I don't know what he do with the money, but I 
couldn't recall that time.
    Mr. Burton. Did he give you any of that money?
    Mr. Trie. I can't recall right--1996? No, I couldn't recall 
that one.
    Mr. Burton. Well, you said when he came to the country he 
gave you between $10,000 and $20,000 on several occasions, and 
you say you don't remember whether he gave you any? I mean, if 
somebody gave me $10,000, I think I would remember it.
    Mr. Trie. I don't recall this time he did or not.
    Mr. Burton. You don't recall.
    Did you invite Winata to the February 1996 fundraiser at 
the Hay-Adams that you and Huang were organizing?
    Mr. Trie. I did.
    Mr. Burton. Why did you invite him to that?
    Mr. Trie. He's a friend of mine.
    Mr. Burton. Was it because he was a contributor, because he 
was giving you money to give to the President or the DNC?
    Mr. Trie. Can you give me the question again?
    Mr. Burton. The question is: Did you invite him to the Hay-
Adams fundraiser because he had given you money to give to the 
President's Re-election Committee or the DNC?
    Mr. Trie. No. Because he's my friend.
    Mr. Burton. Because he was your friend?
    Mr. Trie. Yes.
    Mr. Burton. Did you tell Winata that he could sit next to 
the President at the head table?
    Mr. Trie. Yes.
    Mr. Burton. You told him he could sit next to the 
President----
    Mr. Trie. If he want to.
    Mr. Burton. If he wanted to.
    Mr. Trie. Yes.
    Mr. Burton. That was in lieu of the meeting that he wanted 
to have with the President privately? That was in place of the 
meeting that he wanted to have with the President privately?
    Mr. Trie. I think so.
    Mr. Burton. Why didn't Winata accept the offer to sit next 
to the President and come to the fundraiser?
    Mr. Trie. You said why----
    Mr. Burton. Why did he not go to the fundraiser and sit 
next to the President?
    Mr. Trie. He doesn't want to.
    Mr. Burton. He didn't want to?
    Mr. Trie. Yes.
    Mr. Burton. Did Winata send anybody else to the fundraiser?
    Mr. Trie. Yes, two of his associates.
    Mr. Burton. Did you ask Winata to give money for the 
fundraiser?
    Mr. Trie. Did I ask----
    Mr. Burton. Did you ask Mr. Winata to give money or to help 
out with the fundraiser?
    [Pause.]
    Mr. Trie. Your question is did I ask Tomy Winata for 
contribute the money to----
    Mr. Burton. Did you ask Mr. Winata to help out or give 
money for the fundraiser?
    Mr. Trie. I will tell him to--I told him to help out.
    Mr. Burton. What did that mean?
    Mr. Trie. My personal friend has problem.
    Mr. Burton. To give some money?
    Mr. Trie. Yes.
    Mr. Burton. OK. Did Winata send money with the people he 
sent?
    Mr. Trie. Yes.
    Mr. Burton. How much?
    Mr. Trie. $200,000.
    Mr. Burton. $200,000?
    Mr. Trie. Yes.
    Mr. Burton. So he did help out quite a bit?
    Mr. Trie. Yes.
    Mr. Burton. Why did Winata send $200,000? Why did he send 
$200,000?
    Mr. Trie. That's what I asked.
    Mr. Burton. I know, but people don't just give $200,000 
because they like you. Why did he send $200,000?
    Mr. Trie. If he offer me $5 million, which mean he trust 
me, he like me. So he give me the $200,000.
    Mr. Burton. He sent the $200,000 because he liked you?
    Mr. Trie. I think so.
    Mr. Burton. It wasn't because he wanted some influence with 
the administration or anything?
    Mr. Trie. I only tell him I need help.
    Mr. Burton. Was there an understanding between you and 
Winata that you would have to use some of the money that he was 
giving to you to purchase tickets for his employees and others?
    Mr. Trie. Yes.
    Mr. Burton. How did you use these traveler's checks? You 
might put that exhibit up on the screen there. That is exhibit 
277. How did you use the traveler's checks?
    [Exhibit 277 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.032
    
    Mr. Trie. Yes, this is Jack Ho, Gem International, $25,000 
to DNC.
    Mr. Burton. That is $25,000 you gave to the DNC that was 
given to you by Winata?
    Mr. Trie. Yes.
    Mr. Burton. Exhibit 278 is a set of 25 $1,000 traveler's 
checks that you gave to Jack Ho as reimbursement for a $25,000 
contribution that he made to the DNC. Why did you use Winata's 
traveler's checks to reimburse Mr. Ho's contribution? Why did 
you use Mr. Winata's money to reimburse Mr. Ho?
    [Exhibit 278 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.033
    
    [GRAPHIC] [TIFF OMITTED] T8344.034
    
    [GRAPHIC] [TIFF OMITTED] T8344.035
    
    [GRAPHIC] [TIFF OMITTED] T8344.036
    
    [GRAPHIC] [TIFF OMITTED] T8344.037
    
    [GRAPHIC] [TIFF OMITTED] T8344.038
    
    [GRAPHIC] [TIFF OMITTED] T8344.039
    
    [GRAPHIC] [TIFF OMITTED] T8344.040
    
    [GRAPHIC] [TIFF OMITTED] T8344.041
    
    [GRAPHIC] [TIFF OMITTED] T8344.042
    
    [GRAPHIC] [TIFF OMITTED] T8344.043
    
    [GRAPHIC] [TIFF OMITTED] T8344.044
    
    [GRAPHIC] [TIFF OMITTED] T8344.045
    
    [GRAPHIC] [TIFF OMITTED] T8344.046
    
    [GRAPHIC] [TIFF OMITTED] T8344.047
    
    [GRAPHIC] [TIFF OMITTED] T8344.048
    
    [GRAPHIC] [TIFF OMITTED] T8344.049
    
    [GRAPHIC] [TIFF OMITTED] T8344.050
    
    [GRAPHIC] [TIFF OMITTED] T8344.051
    
    [GRAPHIC] [TIFF OMITTED] T8344.052
    
    [GRAPHIC] [TIFF OMITTED] T8344.053
    
    [GRAPHIC] [TIFF OMITTED] T8344.054
    
    [GRAPHIC] [TIFF OMITTED] T8344.055
    
    [GRAPHIC] [TIFF OMITTED] T8344.056
    
    [GRAPHIC] [TIFF OMITTED] T8344.057
    
    Mr. Trie. OK. So his man can go into the event.
    Mr. Burton. So you were using Mr. Winata's money, 
laundering it through Mr. Ho?
    Mr. Trie. Can you give me the question again?
    Mr. Burton. You were using the money that was being 
laundered or funneled through Mr. Ho for Mr. Winata?
    Mr. Trie. I don't understand a few words.
    Mr. Burton. Well, I apologize. Maybe I haven't made myself 
clear. It was Winata's money.
    Mr. Trie. Right.
    Mr. Burton. And you were giving it through Mr. Ho.
    Mr. Trie. Yes.
    Mr. Burton. So that nobody would know that it was Winata's 
money and it was going to the DNC as a contribution.
    Mr. Trie. I thought Winata give me the money, it's my money 
to give to Mr. Ho.
    Mr. Burton. So Winata gave you the money, and now you 
considered it your money, and then you were giving it to Mr. 
Ho?
    Mr. Trie. Correct. So purchase the two ticket.
    Mr. Burton. Did you use any other part of the $200,000 for 
political contributions?
    Mr. Trie. Can I look at the record?
    Mr. Burton. Sure.
    Mr. Trie. Yeah, Manlin Foung and Mr. Landon, $25,000 to the 
DNC.
    Mr. Burton. So you gave $25,000 to Manlin Foung and Joseph 
Landon to give to the DNC?
    Mr. Trie. Yes.
    Mr. Burton. What about the rest of the $150,000 that was 
left over? It was $200,000 that you got. What did you do with 
the other money?
    Mr. Trie. Oh, I couldn't recall every one of them, but 
there's some document over here.
    Mr. Burton. Did you use all of the $200,000 for 
contributions to the President's campaign?
    Mr. Trie. No, no, no.
    Mr. Burton. What did you do with it?
    Mr. Trie. I think I spent it.
    Mr. Burton. You spent it?
    Mr. Trie. Yeah.
    Mr. Burton. Did you report it on your income tax?
    Mr. Trie. No.
    Mr. Burton. You also used at least $8,000 of these 
traveler's checks to funnel money to the President's legal 
expense fund, didn't you?
    Mr. Trie. Yes.
    Mr. Burton. You just did that to help the President with 
his legal expenses?
    Mr. Trie. Yes.
    Mr. Burton. In June 1996, a group of Mr. Winata's friends 
and family visited the United States. You have informed us that 
they were visiting to see one of Winata's satellites get 
launched from Cape Canaveral. On the way to Florida, they 
stopped in Washington and got a White House tour. Did you set 
that up for them?
    Mr. Trie. I think so.
    Mr. Burton. How did you set that up? Through Mark 
Middleton?
    Mr. Trie. I couldn't remember. They must have a record. But 
I couldn't remember that day. I don't think even I went on the 
tour.
    Mr. Burton. I am sorry?
    Mr. Trie. I don't even think I went to the tour.
    Mr. Burton. But you did set it up?
    Mr. Trie. Yes.
    Mr. Burton. Exhibit 280 is a wire transfer from Winata to 
you dated September 5, 1996, for $50,000. Why was he giving you 
this money? Exhibit 280.
    [Exhibit 280 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.058
    
    Mr. Trie. I think I just want to get a loan from him.
    Mr. Burton. You just wanted some money and he gave it to 
you?
    Mr. Trie. Yes.
    Mr. Burton. Did you use it for political reasons?
    Mr. Trie. That's September 5th, which is the campaign 
finance already broke off.
    Mr. Burton. Did you use any of the money----
    Mr. Trie. No, no, no.
    Mr. Burton. You don't remember?
    Mr. Trie. I don't think so.
    Mr. Burton. You don't think so?
    Mr. Trie. Yeah.
    Mr. Burton. So you kept it yourself?
    Mr. Trie. Yes.
    Mr. Burton. Did you pay taxes on that?
    Mr. Trie. No.
    Mr. Burton. Did the Justice Department ask you about this 
wire transfer?
    Mr. Trie. I couldn't recall this one.
    Mr. Burton. You don't recall?
    Mr. Trie. Yes.
    Mr. Burton. According to the Justice Department records and 
what you've told us, they did not ask you about that. Is that 
correct?
    Mr. Trie. You mean yesterday?
    Mr. Burton. No, not yesterday. Did the Justice Department 
ask you about this wire transfer? In previous testimony you 
said no. I think that was the FBI, wasn't it?
    Mr. Trie. You mean yesterday, right?
    Mr. Burton. The FBI. When the FBI interviewed you, they 
asked you if the Justice Department--they asked you about this. 
You don't know if the Justice Department asked you about that?
    Mr. Trie. You mean----
    Mr. Burton. The $50,000 wire----
    Mr. Trie. You mean the FBI interview, right?
    Mr. Burton. Yes.
    Mr. Trie. I don't recall this one. I don't recall this at 
all. I don't think they----
    Mr. Burton. You don't think they asked you a question about 
that.
    Mr. Trie. Not this one, because we have 16 or 17 time. I 
couldn't recall this one.
    Mr. Burton. You don't recall?
    Mr. Trie. Lots of documents they ask.
    Mr. Burton. In September 1996, you traveled with your 
colleagues on the Bingaman Commission to Asia, including 
Jakarta. Did the Bingaman Commission delegation meet with Tomy 
Winata?
    Mr. Trie. Yes, they do.
    Mr. Burton. They did?
    Mr. Trie. Part of them. I think two of them.
    Mr. Burton. Did you arrange for Winata to meet with the 
commission members? Did you arrange----
    Mr. Trie. Not arrange it, because Tomy Winata have a party 
at their house, so I brought the two of them, my colleagues, 
into----
    Mr. Burton. So you arranged for them to come to the party?
    Mr. Trie. Yes. Correct.
    Mr. Burton. Exhibit 282 is a copy of an itinerary for 
Winata in December 1996 that was taken from your office by the 
FBI when it executed its search warrant. The itinerary reflects 
the fact that Winata was scheduled to travel to San Francisco, 
Atlanta, and Los Angeles in December 1996. Did he travel to the 
United States during that timeframe?
    [Exhibit 282 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.059
    
    Mr. Trie. The date, let me look at the date. December. Yes, 
I believe he was.
    Mr. Burton. And did you arrange any meetings for him while 
he was here?
    Mr. Trie. Yes, yes.
    Mr. Burton. You did. Did he meet with anybody in 
Washington, at the White House or anyplace?
    Mr. Trie. No. It's just some--one of my friend own a bank, 
try to start a bank, introduce him to Tomy Winata. I try to 
tell Tomy Winata invest his bank.
    Mr. Burton. Investing in a bank?
    Mr. Trie. Yeah.
    Mr. Burton. What bank? You don't recall?
    Mr. Trie. The bank is in L.A.
    Mr. Burton. Well, we'll get the name possibly later, then, 
from you or your legal counsel if you don't recall.
    Mr. Trie. I know the person. His name is Yeh. Mr. Yeh.
    Mr. Burton. Mr. Yeh?
    Mr. Trie. Yes.
    Mr. Burton. OK. Exhibit 283 is a Treasury record indicating 
that Winata was carrying $58,000 in cash when he came to the 
United States on that trip. Did he give you any of that 
$58,000?
    [Exhibit 283 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.107
    
    Mr. Trie. I think $10,000.
    Mr. Burton. He gave you $10,000?
    Mr. Trie. Yes.
    Mr. Burton. Did you pay taxes on that?
    Mr. Trie. No.
    Mr. Burton. By the time that Winata was making this trip, 
there was press coverage of your involvement in the campaign 
fundraising scandal. Did you talk about any of the problems 
that you were having with Mr. Winata at that time?
    Mr. Trie. Yeah, we did talk about that. In that time it was 
President defense fund. That's the only news that broke out 
of--if I realize, of my side. That's the date--that's the time.
    Mr. Burton. Now, when you left the United States and went 
to China when the investigation started in 1996, did you have 
contacts with Mr. Winata? Did you meet with him after you went 
to China, fled the United States and went to China and Taiwan?
    Mr. Trie. Yes, I went to Indonesia to see him.
    Mr. Burton. You went to Indonesia and saw him?
    Mr. Trie. Yes.
    Mr. Burton. Has he given you any money since the campaign 
finance scandal started?
    Mr. Trie. Yes, I--I think so.
    Mr. Burton. How much?
    Mr. Trie. I remember one time in Taiwan--this was in 1998--
I believe he gave me $10,000.
    Mr. Burton. Did you get a total over that period of time of 
maybe $40,000 to $50,000?
    Mr. Trie. I guess.
    Mr. Burton. Did you attend a dinner arranged by Winata in 
Hong Kong in May 1997?
    Mr. Trie. I couldn't recall the time. Yes, it is in 1997.
    Mr. Burton. Do you know who all was there, who was invited?
    Mr. Trie. I think Mr. William Bai and Ms. Liu Chao-Ying and 
her associate. That's the people I could remember.
    Mr. Burton. So Liu Chao-Ying was at the dinner?
    Mr. Trie. Yes.
    Mr. Burton. What was the relationship between Ms. Liu Chao-
Ying and Mr. Winata?
    Mr. Trie. Mr. Winata have a fishing company, and they need 
a boat, and China have many of the fishing boat, so Mr. 
Winata's company tried to arrange it with Ms. Liu Chao-Ying to 
help on the boat. That's what I----
    Mr. Burton. So that was a business that they were trying to 
enter into?
    Mr. Trie. Yes.
    Mr. Burton. Do you know of any other business connections 
between Liu Chao-Ying and Mr. Winata?
    Mr. Trie. Not I know.
    Mr. Burton. Did you know at that time that she was a 
colonel in the People's Liberation Army?
    Mr. Trie. No.
    Mr. Burton. You didn't know that she was in the aerospace 
industry in the People's Liberation Army? You didn't know her 
father----
    Mr. Trie. I know her father is a military man, high-ranking 
military, I think the highest.
    Mr. Burton. Last question, and then I will yield to Mr. 
Waxman. Did you know about her role in funneling money to the 
DNC through Johnny Chung?
    Mr. Trie. That's what she told me.
    Mr. Burton. She told you that General Ji----
    Mr. Trie. No, no, no. I don't know the whole detail. Only 
she say she was investigated by the House investigator.
    Mr. Burton. And that she was instrumental in getting money 
to the DNC?
    Mr. Trie. Yeah.
    Mr. Burton. Through Johnny Chung?
    Mr. Trie. I think so, yes, through Johnny Chung.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Trie, it is clear that English is not your first 
language. What is your----
    Mr. Trie. Chinese.
    Mr. Waxman. Chinese.
    Mr. Trie. Yes, sir.
    Mr. Waxman. And how long have you lived in the United 
States?
    Mr. Trie. Twenty-three years.
    Mr. Waxman. Are you a citizen of the United States?
    Mr. Trie. Yes.
    Mr. Waxman. How long have you been a citizen?
    Mr. Trie. Since 1984.
    Mr. Waxman. 1984. And just as a point of clarification, 
were you questioned by the Justice Department or the FBI with 
somebody from the Justice Department present?
    Mr. Trie. FBI, also people from Justice Department.
    Mr. Waxman. At different times or at the same time?
    Mr. Trie. I think at different times.
    Mr. Waxman. Different times. So at some time you were 
questioned by people from the Justice Department, and another 
time you were questioned by people from the FBI?
    Mr. Trie. But FBI, the people's almost there.
    Mr. Waxman. FBI people were present----
    Mr. Trie. Yeah. Every time the U.S. FBI agent was there.
    Mr. Waxman. Your testimony indicates that you violated 
Federal campaign finance laws. You have admitted that during 
the 1996 election cycle you used other people's money to make 
and solicit illegal conduit contributions. Most if not all of 
this money was foreign money, and in total it appears that you 
were responsible for hundreds of thousands of dollars in 
illegal campaign contributions. These are very serious 
offenses. In fact, they are felonies, and you have pled guilty 
to a felony violation of the campaign finance laws for making 
these conduit contributions. And no one should minimize or 
tolerate these violations. They are very serious and they 
deserve punishment.
    Do you agree with that?
    Mr. Trie. Yes.
    Mr. Waxman. You----
    Mr. Trie. Please slow down.
    Mr. Waxman. I should slow down. All right. Well, you have 
acknowledged that you have given money that was not yours but 
came from foreign nationals and transferred it illegally to 
campaigns. Is that right?
    Mr. Trie. Yes.
    Mr. Waxman. And you know now that it was wrong?
    Mr. Trie. Yes.
    Mr. Waxman. And did you know then it was wrong?
    Mr. Trie. No.
    Mr. Waxman. But you know now?
    Mr. Trie. Yes.
    Mr. Waxman. I have had the opportunity to read your full 
statement, and you indicate in your written statement some 
regret. Are you sorry you did what you did?
    Mr. Trie. Yes.
    Mr. Waxman. But as bad as these actions were, you weren't a 
central figure in the allegations of campaign finance abuse 
during the 1996 elections just because of these conduit 
contributions. We looked in the Internet, and there is a site 
called LEXIS/NEXIS, and we did a search of all the articles 
where your name was mentioned. And since October 1996, there 
have been over 4,000 articles that mention your name in 
newspapers around the country. And the reason you have been the 
center of so much attention is that Republicans in the Congress 
and others have said that you were part of a Chinese plot to 
influence our elections, that you were a Chinese spy, and that 
you were part of a conspiracy involving President Clinton and 
the Democratic Party to knowingly solicit illegal 
contributions.
    These are very serious allegations, and I want to ask you 
about these allegations that have been made about you.
    One of them is that you were part of a conspiracy. Do you 
understand what a conspiracy is?
    Mr. Trie. Yes.
    Mr. Waxman. A conspiracy involving John Huang and Johnny 
Chung to funnel illegal campaign contributions from the Chinese 
Government to the Democratic National Committee for use in the 
President's election campaign.
    Mr. Trie. Can I address this question?
    Mr. Waxman. I want to ask you about it and ask you your 
comments on it. Were you part of a conspiracy to raise campaign 
contributions from the Chinese Government?
    Mr. Trie. Can I address this question?
    Mr. Waxman. Please do.
    Mr. Trie. I don't want to use the words, but it is the--
everybody involved in the campaign finance, which is Johnny 
Chung, John Huang, or me, we all born in Taiwan. Maybe John 
Huang is not, but, you know, we both raised in Taiwan, and 
everybody know Taiwan and China is against each other. When we 
was a kid, all we know is that China is our enemy. So I think 
this is--the whole thing is the biggest joke because we raised 
in Taiwan, and we come to the United States. We go back to 
China and the Chinese Government will invite us to be spy? They 
might looking for somebody else born in China. It never will be 
us. They will never give--I don't know Johnny Chung, but I just 
don't believe they will think, you know, we give you money, you 
go to--also, influence the President of the United States, 
maybe the money we receive is not even--it's a joke. I'm sorry 
for that.
    Mr. Waxman. Well, let me ask you very specifically so we 
can just have it on the record. Did you have any knowledge 
about efforts by the Chinese Government to make illegal 
campaign contributions to President Clinton?
    Mr. Trie. No.
    Mr. Waxman. And were you part of a conspiracy to raise 
campaign contributions from the Chinese Government?
    Mr. Trie. No.
    Mr. Waxman. Were you part of a fundraising conspiracy 
involving John Huang, Johnny Chung, and James Riady, as has 
been alleged by many people? One allegation was that you all 
had strong ties to China and with the President's knowledge you 
were raising Chinese-tainted cash for the Clinton campaign. Is 
that accurate?
    Mr. Trie. Total false.
    Mr. Waxman. Another major allegation is that you were a 
Chinese spy. During a hearing of the Senate Governmental 
Affairs Committee in 1997, for example, Senator Robert Bennett 
said that, ``Mr. Trie's activities are classic activities on 
the part of an Asian who comes out of that culture and who 
embarks on an activity relating to intelligence gathering.''
    Are you now or have you ever been a Chinese spy?
    Mr. Trie. No.
    Mr. Waxman. Have you at any time ever given any classified 
information, directly or indirectly, to the Chinese Government?
    Mr. Trie. I don't any--I don't know any classified 
information.
    Mr. Waxman. Did anyone ever ask you to pass classified 
information or any other information to the Chinese Government?
    Mr. Trie. I don't look that smart, sir.
    Mr. Waxman. Pardon?
    Mr. Trie. No. No.
    Mr. Waxman. You were helping the President. How did you 
know President Clinton?
    Mr. Trie. I know President Clinton since the late 1970's 
when he was Governor of Arkansas, and I have a--I own a 
restaurant which is one block from the State Capitol. He came 
to my restaurant, I think, all the time. And I know him.
    Mr. Waxman. So you knew him because he was a customer at 
your restaurant?
    Mr. Trie. Yes, sir.
    Mr. Waxman. And how did you get involved in campaign 
fundraising?
    Mr. Trie. In 1980, he lost the election of Governor, and he 
come to my restaurant all the time. And in 1982, when he tried 
to run for Governor again, his campaign staff come to my 
restaurant to tell me to help. I said sure. So I do some 
donation money. I also use my restaurant for the campaign 
fundraise place, to furnish the food and the drink, and I also 
do the Clinton for Governor sign around my restaurant. That's 
all I do.
    Mr. Waxman. And then later, when he ran for President, did 
you get more involved in getting money to his campaign?
    Mr. Trie. No, not in 1992. Oh, I think I send a check for 
$1,000. I have to see the record. But what your question again, 
1990 when he run for President?
    Mr. Waxman. When he ran for President, you say the first 
time you just sent him money. Did you raise money for him?
    Mr. Trie. No.
    Mr. Waxman. How about when he ran for re-election?
    Mr. Trie. Re-election?
    Mr. Waxman. Yes.
    Mr. Trie. 1996, right?
    Mr. Waxman. Yes.
    Mr. Trie. Yes, I tried to help.
    Mr. Waxman. And you tried to help by raising money from a 
lot of different people?
    Mr. Trie. Yes.
    Mr. Waxman. Many for whom it was illegal to give a campaign 
contribution because they were foreign nationals. Is that----
    Mr. Trie. I'm sorry. Can you----
    Mr. Waxman. You raised money from people who could not 
legally give money to the President because they were foreign 
nationals?
    Mr. Trie. Yes.
    Mr. Waxman. Another allegation that I want to get your 
answer to on the record, some people have said that the 
President and the Vice President and the First Lady and the 
Democratic Party were all involved with you in your efforts to 
make illegal campaign contributions. In effect, Chairman Burton 
and other Republicans have said that the President, the Vice 
President, and the First Lady were knowing conspirators or co-
conspirators.
    Was the President aware that you were making illegal 
campaign contributions?
    Mr. Trie. Not at all.
    Mr. Waxman. Did you ever talk to the President about the 
source of the money you were using?
    Mr. Trie. Never.
    Mr. Waxman. Did he ever ask you to raise money that was 
illegal?
    Mr. Trie. Never.
    Mr. Waxman. Was the Vice President aware you were making 
illegal campaign contributions?
    Mr. Trie. No.
    Mr. Waxman. Did you ever talk with the Vice President and 
tell him the source of the money you were using to make 
campaign contributions?
    Mr. Trie. I'm sorry?
    Mr. Waxman. Did you ever tell the Vice President?
    Mr. Trie. No.
    Mr. Waxman. The source of the money.
    Mr. Trie. No.
    Mr. Waxman. OK. Did the Vice President ever ask you to 
raise illegal campaign contributions?
    Mr. Trie. No.
    Mr. Waxman. Was the First Lady aware, did she know that you 
were making illegal campaign contributions?
    Mr. Trie. No.
    Mr. Waxman. Did you ever talk to her and tell her about the 
source of the money that you were using to make the 
contributions?
    Mr. Trie. No.
    Mr. Waxman. Did the First Lady ever ask you to raise 
illegal campaign money?
    Mr. Trie. No.
    Mr. Waxman. What about officials at the Democratic Party, 
the Democratic National Committee? Did you ever tell them about 
the source of your campaign money?
    Mr. Trie. No.
    Mr. Waxman. Did anyone at the Democratic National Committee 
ever ask you to raise illegal campaign contributions?
    Mr. Trie. No.
    Mr. Waxman. In fact, if I read your testimony right--the 
written statement--you actually took steps to stop the 
Democratic National Committee from knowing about or questioning 
the source of your money. According to your testimony, you 
started using others to make conduit contributions ``in order 
to prevent the DNC from questioning my contributions.'' Is that 
right?
    Mr. Trie. Yes.
    Mr. Waxman. Did you hide the illegal source of your 
contributions from the DNC by asking others to make the 
contributions for you?
    Mr. Trie. Can you recall--I didn't get it.
    Mr. Waxman. Did you hide the illegal source of the 
contributions to the Democratic Party by asking other people to 
make the contributions to the Democratic Party?
    Mr. Trie. Yes.
    Mr. Waxman. Mr. Trie, your testimony today refutes most of 
the allegations that have been made about you. Before I end my 
questioning, I want to ask you to think very carefully about 
what you have just said. You have been given immunity by this 
committee, which means you cannot be prosecuted for what you 
tell this committee. There is only one crime that you can be 
prosecuted for, and that is perjury, if you lied to us. If you 
are telling the truth, nothing can happen to you no matter what 
you may say or who you may implicate. But if you are not 
telling the truth, you could be subject to perjury charges, and 
perjury is a very serious crime.
    I want you to think back about what you have said today. 
You have testified you were not part of a Chinese conspiracy.
    Mr. Trie. Correct.
    Mr. Waxman. That you were not a Chinese spy or agent.
    Mr. Trie. Correct.
    Mr. Waxman. And that President Clinton, the Vice President, 
the First Lady, and the Democratic National Committee did not 
know about the source of your contributions. Knowing that you 
are under oath and that you can be prosecuted only if you 
didn't tell the truth, do you stand by those statements?
    Mr. Trie. Yes.
    Mr. Waxman. In other words, your testimony is the truth, 
the whole truth, and nothing but the truth?
    Mr. Trie. Yes.
    Mr. Waxman. Well, Mr. Chairman, I want to yield some of my 
time to Mrs. Mink to pursue questioning.
    Mrs. Mink. Thank you for yielding, Mr. Waxman.
    The formal testimony, Mr. Trie, that you presented has a 
couple of paragraphs and sentences in which you express your 
grave regret that all Asian Americans in this country have 
somehow been smeared and tainted with all the accusations that 
have been leveled against you, and for that you asked for their 
forgiveness.
    Mr. Trie. Forgiveness.
    Mrs. Mink. Is that correct?
    Mr. Trie. Yes, ma'am.
    Mrs. Mink. In some of the questions and allegations that 
have been made against you, they suggest that because of your 
Asian culture you got wrapped up into this business of being a 
facilitator or a promoter of political campaign contributions. 
Is that correct?
    Mr. Trie. I'm sorry.
    Mrs. Mink. I will rephrase that. People have alluded that 
it is because of your Asian culture that you did all of these 
things that they allege you have done.
    Mr. Trie. Yes.
    Mrs. Mink. And do you consider that an appropriate 
explanation of the things that you admit you did wrong?
    Mr. Trie. No, just I make a mistake.
    Mrs. Mink. So that as I read your testimony, you are saying 
that it is absolutely wrong to incriminate a whole culture, a 
whole group of Asians, for the mistakes that you made in this 
particular incident. Is that correct?
    Mr. Trie. Correct.
    Mrs. Mink. Because I believe that that is really one of the 
most egregious wrongs that has come out of all of this 
investigation about you and the others in the campaign 
contribution situations, that all Asian Americans have somehow 
been tainted. In fact, the hysteria went so far that the 
Democratic and Republican parties would not accept 
contributions if the names of the people on the checks looked 
suspicious. We went that far in this hysteria, and I think that 
that is really one of the terrible things that has come as a 
consequence of the charges that have been brought against you. 
And all this spy, China spy allegations make it even more 
harmful because not only is the campaign contribution 
facilitator syndrome, which is now attached to all Asians 
because of a culture, that somehow Asian-Americans who are 
loyal to this country and want to be part of the electoral 
process might be incriminated because they made large 
contributions and were, therefore, linked up to some wider 
conspiracy.
    And so I think that the statement that you have made is 
most helpful, and I just wanted to commend you for clearing up 
that point and in answering the questions that Mr. Waxman has 
put to you.
    Now, the issue that has been repeatedly stated is that you 
are part of a big conspiracy to try to promote the heinous 
policies of Mainland China. Are you a part, do you consider 
yourself a part of such a conspiracy?
    Mr. Trie. No, ma'am.
    Mrs. Mink. Did you ever consider yourself being pulled into 
a conspiracy unwittingly or unknowingly, a pawn to some sort of 
conspiracy, even though you are not? Did you ever think you 
were part of a conspiracy?
    Mr. Trie. No, ma'am.
    Mrs. Mink. Now, in looking at all of the funding that you 
received, which you have testified to both here and before the 
FBI and the Justice Department, could you give us a wrap-up 
total of the total dollars that are part of this discussion 
with regard to campaign contributions that came through you or 
that you solicited or that somehow are now involved in this 
investigation? Is there a total figure that you can give this 
committee?
    Mr. Trie. I can give you the figure if we--after we take a 
break. You know, we can add it together.
    Mrs. Mink. All right. I will ask that that figure be 
provided at this point in the record so that we can see what 
the total amount was. Now, of the total amount that you will be 
giving to the committee, how much did you actually transmit, 
through conduits or false names or whatever, to the Democratic 
National Committee or any of those political committees? How 
much of it actually went to the committees? Because you 
testified earlier----
    Mr. Trie. You mean DNC----
    Mrs. Mink [continuing]. That much of it you kept. You 
testified earlier in response to the chairman's questions that 
much of it you kept for your own personal use, for expenses, et 
cetera. So what I am trying to find out is how much actually 
was sent to the various committees?
    Mr. Trie. I give you when the break--this is only one of 
the persons wire money to me, so I don't--I don't--if you--DNC, 
right?
    Mrs. Mink. All right. If we could get that response.
    Mr. Waxman. Mrs. Mink, I wanted to yield some time to----
    Mrs. Mink. All right. Fine. Thank you very much, Mr. 
Chairman.
    Mr. Waxman [continuing]. Our colleague, Mr. Cummings. I 
yield 5 minutes.
    Mr. Cummings. I want to thank the chairman and ranking 
member for yielding.
    Mr. Trie, thank you, and I would like to ask you a few 
questions about Liu Chao-Ying. Are you familiar?
    Mr. Trie. Yes.
    Mr. Cummings. Let me ask you this--let me just give you a 
little background. Ms. Liu is an executive with the Hong Kong-
based subsidiary of the China Aerospace Corp., which is owned 
by the Chinese Government. She is also an officer in the 
Chinese military or PLA. When Johnny Chung testified before 
this committee last year, he claimed that in August 1996, Ms. 
Liu routed $300,000 to him from the head of the PLA's military 
intelligence.
    It appears that Mr. Chung used most of the $300,000 for 
purposes unrelated to campaign contributions. He did, however, 
make a $35,000 contribution to the DNC in September 1996 from 
the same account in which he had deposited this money.
    You have indicated that you met Ms. Liu twice. These 
meetings took place in 1997 after the campaign finance stories 
had started appearing. You also testified that Ms. Liu had a 
business relationship with Mr. Winata, an Indonesian 
businessman who was a source of some of your contributions. 
Apparently, Mr. Winata and Ms. Liu were involved in a fishing 
venture in the waters of Indonesia, which ultimately failed.
    Now, I have just a few questions for you. First of all, 
when Mr. Winata gave you money for contributions, do you think 
he was acting as an agent of the Chinese Government or Ms. Liu?
    Mr. Trie. No.
    Mr. Cummings. Did Ms. Liu give you any money to make 
campaign contributions?
    Mr. Trie. No.
    Mr. Cummings. When you made campaign contributions, were 
you acting as an agent for Ms. Liu? I'm sorry. I didn't hear 
you.
    Mr. Trie. Ms. Liu? No.
    Mr. Cummings. In fact, I understand that you first met Ms. 
Liu in 1997 after the election and after you had stopped making 
contributions. Is that correct?
    Mr. Trie. Correct.
    Mr. Cummings. Do you have any reason to think that Mr. 
Winata knew about Ms. Liu giving Johnny Chung money?
    Mr. Trie. No.
    Mr. Cummings. Ms. Liu has been linked to the Chinese 
Government. When you met her, did you have any reason to 
believe that she was an agent of the Chinese Government?
    Mr. Trie. No.
    Mr. Cummings. Thank you very much, and I yield back.
    Mr. Waxman. I want to, before my time is over, ask you a 
couple more questions.
    Mr. Trie, I am sure you are aware the press has focused a 
great deal of attention on the Hsi Lai Temple event and whether 
Vice President Gore was aware of any illegal fundraising. I 
would like to ask you about your knowledge of this subject.
    In your opening statement, you explain that you suggested 
to John Huang that the Democratic National Committee organize a 
fundraising event at the temple, but that after making the 
initial suggestion, you had little involvement in organizing 
the event. Is that correct?
    Mr. Trie. Yes.
    Mr. Waxman. In fact, as you understood it, the event was 
primarily organized by John Huang and Maria Hsia. Isn't that 
correct?
    Mr. Trie. Yes.
    Mr. Waxman. You didn't even attend that event at the Hsi 
Lai Temple, did you?
    Mr. Trie. I didn't attend.
    Mr. Waxman. You note in your written statement you never 
spoke to the Vice President about the temple event. Is that 
correct?
    Mr. Trie. Correct.
    Mr. Waxman. In fact, you have never spoken to the Vice 
President about any aspect of fundraising. Isn't that correct?
    Mr. Trie. Correct.
    Mr. Waxman. So I take it that you have no knowledge about 
whether the Vice President thought the temple event was a 
fundraiser or a community outreach event. Isn't that correct?
    Mr. Trie. Correct. I never talked to him.
    Mr. Waxman. You never talked to him and you don't know what 
his----
    Mr. Trie. On this one, yeah.
    Mr. Waxman. Did you observe or learn of any evidence that 
would suggest that the Vice President's actions relating to the 
temple event violated the law?
    Mr. Trie. After the campaign finance broke off, 
investigation broke off.
    Mr. Waxman. What did you learn? Did you learn later----
    Mr. Trie. Yes.
    Mr. Waxman [continuing]. That there was some evidence that 
Vice President Gore knew about the law being violated?
    Mr. Trie. No, I don't--that's not my--all I say on the 
event, I don't even--I didn't even attend. But I didn't get 
your----
    Mr. Waxman. Did you find out later that--do you know now--I 
am trying not to confuse you. Your firsthand knowledge, what 
you yourself know, is that you didn't tell the Vice President 
anything about this event and he didn't talk to you about it, 
so you don't know yourself whether he knew whether it was 
illegal or not?
    Mr. Trie. Yes. Correct.
    Mr. Waxman. But do you know of any evidence that would 
suggest that even though you didn't know yourself, that maybe 
he did know it was illegal?
    Mr. Trie. He didn't know illegal. We never think it was 
illegal.
    Mr. Waxman. Given what you have told us today, do you know 
anything more about this Hsi Lai event than what has already 
been reported about in the press? Do you know anything that we 
don't know about the event that you----
    Mr. Trie. No.
    Mr. Waxman [continuing]. Want to tell us about?
    Mr. Trie. No, no.
    Mr. Waxman. There is nothing more to tell?
    Mr. Trie. No. Everything is in my written statement. 
Written statement.
    Mr. Waxman. You stand by your written statement?
    Mr. Trie. Yes.
    Mr. Waxman. OK. And you answered truthfully the questions I 
asked you?
    Mr. Trie. Yes, sir.
    Mr. Waxman. OK. I thank you very much for responding to the 
questions, and what will happen is on the Republican side they 
will have 5 minutes to ask questions. Then we will come back to 
this side for 5 minutes, and members will want to pursue 
different issues with you.
    Mr. Trie. OK.
    Mr. Waxman. Thank you for your responses.
    Mr. Horn [presiding]. I thank the gentleman and now 
recognize the gentleman from Connecticut, Mr. Shays, for 5 
minutes of questioning.
    Mr. Shays. Thank you.
    Mr. Trie, we are only given 5 minutes, so it is going to go 
back and forth, and I would just suggest to you that you be as 
clear as possible, and if I speak too quickly, you can ask me 
to wait. But, I don't want to keep coming over the same issue, 
and it is going to be a little confusing because we will be 
going back and forth with only 5 minutes.
    I am asking you this question as an American citizen, and I 
am asking you these questions, as an American citizen, and that 
is where it begins and ends. You are an American citizen, I am 
one, and that is how I am asking the questions. It has nothing 
to do with race, culture, or anything else.
    Now, you are before me as a convicted felon. Isn't that 
correct?
    Mr. Trie. Yes.
    Mr. Shays. Who was part of the conspiracy to disguise 
hundreds of thousands of dollars of illegal contributions. You 
conspired to conceal illegal contributions. Isn't that correct?
    Mr. Trie. I plead guilty the way--I plead guilty the fact 
what I plead guilty for. I didn't get the other words you say.
    Mr. Shays. Isn't it true that you conspired with others to 
conceal illegal contributions? We are going to have a long day 
here if we can't even get the basic facts out.
    Mr. Weingarten. May I address Mr.----
    Mr. Shays. No. I am asking the gentleman the question.
    Mr. Horn. The gentleman must proceed through the witness.
    Mr. Trie. There may be other people with election 
contribution, but everything, I did it. I'm the one did it.
    Mr. Shays. I know you did it, but you conspired with others 
to do it. You helped conceal the contributions that other 
people made.
    I mean, let's talk some basic--I want an answer yes or no.
    Mr. Trie. I want to be simple question----
    Mr. Shays. I want a yes or no. Did you conspire with others 
to conceal campaign contributions? It's a basic, simple 
question. The answer can be yes or no.
    Mr. Trie. I didn't understand this question coming from.
    Mr. Horn. The clock will stop when the attorney is giving 
guidance.
    Mr. Shays. I did not say if you conspired with the 
President or the Vice President or anyone else. I just asked if 
you conspired with others to conceal campaign contributions. 
And I know it is an obvious answer, and the fact that you are 
not giving me an obvious answer makes me question your 
credibility. I start with the easy questions, and then I go to 
ones that are harder. That is not a difficult question.
    I still put it on the table. If your counsel can't even 
give you the advice on how to answer a simple question, we are 
going to have a very long few days.
    I will come back to this question. I will not leave it. I 
will come back to it.
    Mr. Trie. OK.
    Mr. Shays. Did you accept through wire transmissions from 
Tomy Winata $120,000 in wire contribution--did he wire you 
$120,000?
    Mr. Trie. You mean the two separate wire, right?
    Mr. Shays. Did they add up to $120,000?
    Mr. Trie. Yeah.
    Mr. Shays. OK. The answer is yes.
    Mr. Trie. Yes.
    Mr. Shays. He did. Did you report that as income?
    Mr. Trie. No.
    Mr. Shays. OK. So besides being a convicted felon who 
conspired with others, but has refused to answer that question, 
you are also someone who has not reported income that all 
American citizens have to make. It has nothing to do with your 
race or religion or anything else, but as an American citizen, 
are you not required to report income?
    Mr. Trie. Is this a question?
    Mr. Shays. Yes.
    Mr. Trie. Yeah, I required to report income tax.
    Mr. Shays. And you did not. When you had the $200,000 in 
traveler's checks, did you report that as income?
    Mr. Trie. No.
    Mr. Shays. When you had the $40,000 in cash, did you report 
that as income?
    Mr. Trie. No.
    Mr. Shays. When you had the $50,000 in cash, did you report 
that as income? After the scandal. There was before the scandal 
and after.
    Mr. Trie. OK.
    Mr. Shays. Is it still going to be your testimony that you 
did not know that when you were giving all this money--and we 
will come back to it--to the Democratic National Committee and 
the President's Legal Expense Trust, you did not know these 
were illegal contributions? Is that going to be your testimony 
before this committee, that when you did it you did not know 
they were illegal?
    That is what you said to Mr. Waxman. Did you know they were 
illegal contributions when you made these contributions?
    Mr. Trie. No.
    Mr. Shays. Your testimony is that you did not know they 
were illegal contributions? Is that the answer to the question? 
I thank Mr. Waxman for at least letting me know what the answer 
to the question is. What is the answer to the question? You 
have had it explained to you now in Chinese, in English. Did 
you know if these were illegal contributions when you made all 
these contributions to the Democratic National Committee and 
the President's legal expense trust fund?
    Mr. Trie. I don't know the election law, and I did not know 
the President' defense fund.
    Mr. Shays. Is your testimony that you did not know that 
these were illegal? I am asking whether you knew that these 
were illegal contributions?
    Mr. Trie. The money I received?
    Mr. Shays. The money that was given to the Democrat 
National Committee and the Presidential Legal Expense Trust. 
You made contributions there. Did you know that they were 
illegal at the time you made them?
    Mr. Trie. I don't think so.
    Mr. Shays. You don't think so or you didn't? What is the 
answer? Either yes or no.
    Mr. Trie. At the time I did a contribution, I don't know 
I'm violating election law.
    Mr. Shays. OK. And I am going to just throw on the table--I 
realize my time is up. I want to know why you devised these 
absurd conspiracies with others to disguise the contributions 
if you didn't know they were illegal. And I will come back to 
it.
    Mr. Horn. I thank the gentleman, and now the gentlewoman 
from Hawaii, Mrs. Mink, for 5 minutes.
    Mrs. Mink. There was--I am not sure whose paper I just 
read, but there was a suggestion that at one point you received 
a large sum of money and that in order to comply with the 
requirement that no one should give more than $1,000, it would 
have meant finding 500 people to list for a contribution of 
$1,000, and, therefore, you declined to take that money. Is 
that a correct----
    Mr. Trie. Yes.
    Mrs. Mink [continuing]. Paraphrase of----
    Mr. Trie. Yes, yes.
    Mrs. Mink [continuing]. What I just read?
    Mr. Trie. Yes.
    Mrs. Mink. So that money was returned.
    Mr. Trie. Yes.
    Mrs. Mink. So at that point, whatever the date was, you 
knew that the contributions had to be in the sum of no greater 
than $1,000?
    Mr. Trie. Yes.
    Mrs. Mink. And so is it safe to assume, then, that the 
primary illegality was when you received the money in looking 
for conduits to transmit it and coming up with, say, 25 names 
or 50 names. That was the major offense that you committed. Is 
that correct?
    Mr. Trie. On the President's legal defense fund, right.
    Mrs. Mink. No. We are talking about campaign contributions.
    Mr. Trie. OK. Can you give me the question again?
    Mrs. Mink. I am talking about the Federal election laws, 
not the contributions to the legal defense fund.
    Mr. Trie. OK.
    Mrs. Mink. Apparently you knew that there was a $1,000 
limit.
    Mr. Trie. That's the--that's the defense funds, $1,000 
limit.
    Mrs. Mink. That is the defense fund you are talking about?
    Mr. Trie. Yes, ma'am.
    Mrs. Mink. Not the----
    Mr. Trie. No.
    Mrs. Mink [continuing]. Political contributions.
    Mr. Trie. No. No.
    Mrs. Mink. So then when you received the moneys and 
testified earlier that you did not transmit the entire sums 
that you received and that you kept some, what was the reason 
you kept some of these moneys that were given to you and you 
never turned it over to either the campaign committee or the 
legal defense fund?
    Mr. Trie. On the wire--you're talking about on the traveler 
check, right?
    Mrs. Mink. Any of the funds. It seems you kept some in your 
own business account and did not turn----
    Mr. Trie. Yes.
    Mrs. Mink [continuing]. It all over----
    Mr. Trie. Yes.
    Mrs. Mink [continuing]. To the DNC or the legal defense 
fund, but you felt they were gifts to you?
    Mr. Trie. Yeah.
    Mrs. Mink. They were gifts to you?
    Mr. Trie. Yes.
    Mrs. Mink. For the services that you rendered or just plain 
gifts?
    Mr. Trie. Just friendship.
    Mrs. Mink. Because of friendship?
    Mr. Trie. Yes.
    Mrs. Mink. Was this told to you explicitly or it is just an 
assumption you made?
    Mr. Trie. Yes, these are the words.
    Mrs. Mink. It was an explicit----
    Mr. Trie. My understanding, yes. Yeah, every time it is 
only because I need help, I ask them. We are talking about Tomy 
Winata, right?
    Mrs. Mink. We are talking about what?
    Mr. Trie. Tomy Winata.
    Mrs. Mink. Oh, yes.
    Mr. Trie. Yes.
    Mrs. Mink. So in that case where you did not receive the 
contribution and immediately turn the full amount over----
    Mr. Trie. Yes.
    Mrs. Mink [continuing]. To either the National Committee or 
to the legal defense fund, the moneys that you kept you assumed 
were gifts?
    Mr. Trie. Yes.
    Mrs. Mink. To you?
    Mr. Trie. Yes.
    Mrs. Mink. And is that the reason you never reported it as 
part of your income?
    Mr. Trie. I believe they're saying that most of the money 
come in 1996, and you should report tax in 1997. But in 1997, 
because the press and the newspaper, I was in Asia. And at that 
time all the FBI broke in--I mean, having search warrant, take 
all my document, and my accountant didn't want to even work 
anymore. So--and I came back in 1998. I was under 
investigation. I didn't do anything.
    Mrs. Mink. So most of the funds that you are testifying 
today came in 1996, and by the time taxes were due on it, you 
were gone. Is that what you are saying?
    Mr. Trie. If you look at the record, I think the first--I 
think $70,000 was earlier, but rest is somewhere after 1996. I 
can--I will look at the record.
    Mrs. Mink. Now, I understand that you are fully aware that 
what you did was wrong----
    Mr. Trie. Yes.
    Mrs. Mink [continuing]. And as a result you have pleaded 
guilty to a number of these charges that have been made against 
you. Is that correct?
    Mr. Burton. The gentle lady's time has expired.
    Mrs. Mink. We will come back.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Mr. Chairman, I yield the 5 minutes to my 
colleague from Connecticut, Mr. Shays.
    Mr. Shays. I thank the gentleman for yielding.
    Mr. Trie, I am going to give you a chance to re-answer this 
question because then I am going to talk specifics, and I don't 
think the specifics back up your answer. I may be wrong. I am 
going to ask you that any time when you were making 
contributions to the Democratic National Committee or the 
Presidential legal expense trust fund or any other fund for the 
President or the Democratic Party, did you know you were making 
illegal contributions?
    Mr. Trie. I plead guilty on the campaign financing--I plead 
guilty under campaign election--the charge. But I didn't--at 
the time I do it, I didn't know the election law.
    Mr. Shays. I know you didn't know election laws, but I 
think you knew you were breaking the election law. I am not 
asking you if you were an expert on the election law. I want to 
know if you knew you were breaking the election law. And we are 
going to get to why I would think you would have known. So I 
want the answer to that question. Did you know you were 
breaking election laws?
    Mr. Trie. I feel the conduit is not right. Otherwise, I 
never think I was breaking the election law.
    Mr. Shays. OK. Well, then, let's get into it.
    You gave a contribution of $60,000 to the Democratic 
National Committee in soft money. Whose money was that?
    Mr. Trie. What year?
    Mr. Shays. 1994.
    Mr. Trie. Can I look at the record?
    Mr. Shays. Sure. Can the clock stop?
    Mr. Burton. Right.
    [Pause.]
    Mr. Trie. Yes, that's--in that time it was Mr. Wu giving 
money, but, you know, we are partner. I think----
    Mr. Shays. Did you give it in Mr. Wu's name or did you give 
it in your name?
    Mr. Trie. My name.
    Mr. Shays. Your name?
    Mr. Trie. Yes.
    Mr. Shays. His money?
    Mr. Trie. Yes.
    Mr. Shays. And you didn't think that was illegal? Why 
didn't Mr. Wu give it in his name? Why did they use you as a 
conduit for his money?
    Mr. Trie. No. That's not what I think.
    Mr. Shays. What do you think?
    Mr. Trie. He give me money. I was----
    Mr. Shays. So was this your money that you were giving?
    Mr. Trie. We are partner. He--I can use any money of the 
company. It's supposed to be both of us. So that's what I was 
telling my counsel.
    Mr. Shays. So are you treating this as your personal 
income?
    Mr. Trie. That's company income--company--what you call, 
investment, investment into the company joint account in the 
19--you are talking about 1994.
    Mr. Shays. And you are an officer of the company?
    Mr. Trie. Yes.
    Mr. Shays. What was your position?
    Mr. Trie. Which company you talk about?
    Mr. Shays. The company you are talking about.
    Mr. Trie. I think I'm--I think I'm the president of--I 
couldn't remember now. I don't have----
    Mr. Shays. No, no. You know--you can't remember certain 
things and not remember other things. You have just testified 
before this committee under oath that you were an officer of 
this company. I want to know what your position was.
    Mr. Trie. Can I look at record?
    Mr. Shays. Sure. Could the clock stop?
    Mr. Burton. Right.
    Mr. Trie. We don't have the record here. We need to go get 
it.
    Mr. Shays. Look at exhibit 14. That is a corporate check?
    [Exhibit 14 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.060
    
    Mr. Trie. Yes.
    Mr. Shays. Or a personal check?
    Mr. Trie. Personal check.
    Mr. Shays. Personal check.
    Mr. Trie. Yes.
    Mr. Shays. So it is your personal money?
    Mr. Trie. Yes.
    Mr. Shays. It is not the company's money?
    Mr. Trie. Yes.
    Mr. Shays. Did you report it as income?
    Mr. Trie. I have to see the--my income taxes. I don't know 
now.
    Mr. Shays. Why is the address crossed out? OK. That was 
done by us.
    Mr. Trie. I don't know.
    Mr. Shays. So your testimony is that this $60,000 was your 
personal check?
    Mr. Trie. Yeah, this check is my personal check, yes.
    Mr. Shays. OK. You gave $20,000, as well as your wife, in 
hard money contributions as well. That is exhibits 15 and 16.
    [Exhibits 15 and 16 follow:]

    [GRAPHIC] [TIFF OMITTED] T8344.061
    
    [GRAPHIC] [TIFF OMITTED] T8344.062
    
    Mr. Trie. Yeah, I see it.
    Mr. Shays. First 15, and so it was your wife--Wang Mei--who 
contributed $20,000 as well. No. 15 and No. 16. Was this your 
own personal money?
    Mr. Trie. Mister----
    Mr. Shays. Or had this been given to you by the company?
    Mr. Trie. No, they wire to my account.
    Mr. Shays. I don't want you to answer quickly on this 
because this is going to be very important to you. You are 
going to need to justify your answer to some other people, not 
us. I want to know if this $20,000 was the company's money, 
like you originally said the $60,000 was and then you denied 
it, said it was personal. I want to know if the $20,000 was 
personal or if it was the company's money.
    Mr. Trie. Personal.
    Mr. Shays. In both instances?
    Mr. Trie. All three check, right. Three check.
    Mr. Shays. Those three checks, all of it--all of this, it 
is your testimony it was personal?
    Mr. Trie. Yes.
    Mr. Shays. OK. You did not take it out of the corporate 
treasury money? There is no corporate treasury money there?
    Mr. Trie. No.
    Mr. Shays. OK. It was paid to you in income?
    Mr. Trie. Can I explain the relationship between me and Mr. 
Wu?
    Mr. Shays. Sure.
    Mr. Trie. OK. I met Mr. Wu in 1994, somewhere 19--I 
couldn't remember the date, but, you know, we met in Hong Kong 
and he took me to his Macau project. He have a project, and 
they were short of money, and they wanted help--wanted me to 
help raise money from the United States. He was told by people 
there's lots of people will be investing in Asia. So he think I 
can help him. So he say--even today if we can talk to him, he 
will say, you know, Charlie, yours is--mine and yours all the 
same.
    So what he tell me, he said you took everything in United 
States, whatever money you need, I provide, because he doesn't 
speak English and he never been in this country before--what I 
believe.
    So our agreement is at that time he say, you know, he will 
supply $20 million U.S. dollars to help me to get whatever I 
want to use.
    Mr. Shays. $20 million?
    Mr. Trie. Yes, sir.
    Mr. Shays. OK. That you have control over $20 million?
    Mr. Trie. Oh, yes, he said, you know, that's the way to do 
business with me. He said you can--you know. But he never sent 
the money. I was--I feel sorry for that, because if I have the 
money, I can write my check. So your question is, is this money 
his or mine, but under agreement between us, it's ours. I can 
use as much as I want.
    Mr. Shays. Yes, but it is his money. He is giving it to 
you, but it is his money.
    Mr. Trie. You know, if you join company, some people have 
to put money in, and some people have--do the job. Is that 
right? I think that's the way. He put assets for the company.
    Mr. Shays. You are bringing a smile to my face because I 
don't know if that is the way. But I will come back to another 
question.
    Mr. Burton. The gentleman's time has expired. I have 5 
minutes. Do you need some more time?
    Mr. Shays. No, I----
    Mr. Burton. OK. There is no one else. She has already has 5 
minutes.
    Mr. Trie. Mr. Chairman, can I----
    Mr. Shays. I would like the 5 minutes if I----
    Mr. Burton. Let me just make a couple comments and then I 
will yield to my colleague, and then we will go to Mr. Barr.
    You know, it is hard for us to understand that you received 
all of this money from different sources, and instead of those 
people who could not legally give money to the DNC or the 
President's Re-election Committee, you got these large sums of 
money, and then you wrote checks with their money that was 
given by you to the DNC and to the President's Re-election 
Committee and his legal defense fund. You brought in a whole 
raft of money orders for the President's legal defense fund 
that were sequentially numbered. They were numbered 1, 2, 3, 4, 
5. They all had the same handwriting, the same handwriting but 
with different names on them, and yet you continued to plead 
ignorance, like, hey, I didn't know that there was anything 
wrong with this. The same handwriting? Sequential numbers with 
different names on them? And the money was coming in to you, 
and it was from people that couldn't give money, and you were 
giving that money to the DNC.
    And then when all this came to light, instead of facing the 
music and talking to the American people and our authorities in 
this country, you fled to China, and you hid out in China for a 
long time and wouldn't come back.
    You know, all of this adds up to real questions by this 
committee and the American people. You continue to say, well, 
you know, they gave me the money, it was my money, and I gave 
it to them. You didn't report it on your income tax. I mean, I 
am telling you, the questions that have been raised in 
everybody's mind--and I presume the American people if they are 
watching this--are humongous. And you are an American citizen, 
and you don't know that this was illegal? If you didn't know it 
was illegal, why did you run to China? Why didn't you stay here 
and face the music?
    Mr. Shays.
    Mr. Trie. Can I go to the restroom----
    Mr. Shays. Let me get right to that point, Mr. Trie. Mr. Wu 
gave you money and you now have said it is a pot of $20 million 
that you had. Is that correct? You said $20 million.
    Mr. Trie. That's what--that's what he say. He never 
delivered that.
    Mr. Shays. He never delivered $20 million.
    Mr. Trie. Right.
    Mr. Shays. But, the bottom line, that is what your sphere 
of possibility was. You didn't have to use all the $20 million.
    Now, let me ask you this: When you gave--you have already 
testified that the $60,000 and the two $20,000 were from Mr. 
Wu, but you are calling it personal income, for some strange 
reason. And you have said you made those contributions. Now I 
want to get to the $12,500 contributions.
    You took money and gave it to other people to give as 
contributions. Why didn't you just make the contribution 
yourself? Why did you give it to other people? Why did you give 
Mr. Wu's money, which you also say is your money, why did you 
give it to other people to contribute if you didn't think it 
was illegal for you to contribute it?
    Mr. Trie. I already said in my statement, and I was 
uncomfortable after a while, every time we have the event, only 
a few Asian, which I was in there. And I was the one always 
brought people, because--and I think sometime I don't have 
enough income coming there, coming in Little Rock. I think 1 
day people will ask me question. So I think, you know----
    Mr. Shays. Well, wait a second. They will ask you 
questions. So what if they ask you questions? You didn't think 
you were doing anything illegal. Why would you care if people 
asked questions?
    Mr. Trie. I do care.
    Mr. Shays. Why? You believe that you weren't doing anything 
illegal. Why didn't you just give the President $1 million or 
the DNC $1 million or the Presidential legal expense trust 
fund? Why didn't you just write out a check for $1 million? It 
was----
    Mr. Trie. No, I----
    Mr. Shays [continuing]. Your money, anyway, as you say.
    Mr. Trie. No, I find out I should tell Mr. Wu either wire 
the $20 million or $2 million to my account. I can do the 
writing. At that time I just don't feel comfortable.
    Mr. Shays. Why?
    Mr. Trie. I don't have--I don't have money in my account. I 
don't want the check bounce. That's why I think I tell Mr. Wu 
you bring the cash in.
    Mr. Shays. Wait a second. Mr. Trie, you said you gave money 
to other people.
    Mr. Trie. That's in the early part.
    Mr. Shays. So what?
    Mr. Trie. It's different.
    Mr. Shays. You gave people $12,500.
    Mr. Trie. Uh-huh.
    Mr. Shays. And how many people did you give $12,500 to?
    Mr. Trie. I couldn't recall. I can add the number.
    Mr. Shays. You can't because there are so many, right?
    Mr. Trie. I will have to look; 10, 15, I don't know.
    Mr. Shays. Well, we will come back to it. We will go right 
through the list.
    Mr. Trie. OK.
    Mr. Shays. And we will tell you the number. But the point 
was there were a lot of people, there were a whole host of 
people you gave the $12,500 to. I don't understand, using 
logic, why you would go to the trouble of giving other people 
money and now making them part of your conspiracy----
    Mr. Trie. See, I----
    Mr. Shays. I don't understand, why you would do that?
    Mr. Trie. Can I address this question? Everybody I give 
money, nobody was--because the Chinese philosophy is give money 
never was a wrong thing to do. OK. So I give the people--to 
people to the money and tell them write a check, and nobody was 
questioning me. So I think that's OK. That's what--I feel 
comfortable for I only have----
    Mr. Shays. Is my time up?
    Mr. Burton. The gentleman's time has expired.
    Mr. Trie. Mr. Chairman, can I go to restroom?
    Mr. Burton. Go ahead and finish your answer. Go ahead.
    Mr. Trie. I want to go restroom. Can I?
    Mr. Burton. Beg your pardon?
    Mr. Trie. Can I go to restroom?
    Mr. Burton. Yes, if you like. We will take a 5-minute 
break--in fact, I will tell you what we can do. We thought we 
would take about a 25- or 30-minute break. Now, Mr. Barr hasn't 
had his questions yet. Would you like to do your questioning 
before we take our lunch break, Mr. Barr?
    Mr. Barr. I would hate to have the answers to my questions 
prejudiced by the witness' need to leave for a restroom break, 
so I----
    Mr. Burton. No, we could take the restroom break. But would 
you rather wait until after lunch for your first round of 
questioning?
    Mr. Barr. I am, as any prosecutor, always flexible and 
leave that up to the chairman.
    Mr. Burton. All right. Well, then, is it OK with you if we 
take the lunch break?
    We will come back, if it is all right with you, at quarter 
to 1. Would that be all right with everyone? Let's start at 
quarter to 1. We will stand in recess until quarter to 1.
    [Recess.]
    Mr. Burton. The committee will be called to order.
    The Chair recognizes Mr. Waxman for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    It seems to me that we have got a lot of confusion over 
different terms--of what a conspiracy is, whether money was 
taxable or not taxable, and related kinds of questions that are 
legal in nature. Mr. Chairman, in the past, we have had a 
policy of not allowing the attorneys to respond, but on 
occasion we have let attorneys respond. I wonder if we could 
let Mr. Trie's attorney address these questions that are legal 
in nature about conspiracy and what the money meant and get a 
statement from----
    Mr. Burton. Well, the problem we have, Mr. Waxman, is if we 
get into that, we are going to be doing that for other 
witnesses as well.
    Mr. Waxman. I have no objection to that. It seems to me the 
purpose of a hearing should be to clarify and cut through a lot 
of----
    Mr. Burton. Well, as long as this doesn't set a precedent, 
if you want to ask Mr. Trie's attorney a question on a legal 
issue, that is fine with me.
    Mr. Waxman. OK. Mr. Weingarten, a lot of Members have 
gotten very frustrated this morning over whether Mr. Trie was 
involved in a conspiracy, whether he had money that was 
taxable. Do you want to address those issues?
    Mr. Weingarten. Thank you, Mr. Waxman.
    There is no question but that as a matter of law--and Mr. 
Shays is correct--when there is a conduit contribution 
situation, there is, as a legal matter, a conspiracy. There is 
no question also that Mr. Trie bridled at that concept because 
he believes many of the people he was dealing with, family 
members and friends, were completely unwitting. He feels bad 
that they were involved in this enormous investigation, and in 
his heart, he does not believe that they were co-conspirators. 
So the issue with Mr. Shays and conspiracy was clearly a matter 
of nomenclature.
    We spent many hours with the staff yesterday in a good-
faith effort to clarify such issues, and we have absolutely no 
intention of trying to move away from legal responsibility.
    In terms of the question of whether or not Mr. Trie 
believed he was engaged in legal or illegal activity at the 
time, it should be obvious to the members of the committee--and 
I am sure it is--that this is a man with absolutely no legal 
sophistication and only the most rudimentary knowledge of the 
campaign laws. As Mr. Trie attempted to explain this morning, 
in 1994 and 1995, when he was receiving large sums from Mr. Wu, 
he believed that was partnership or corporate money that he was 
free to use as he saw fit consistent with Mr. Wu's interests 
and did not believe he was violating the law.
    It is also true, obviously, that Mr. Trie pled guilty to a 
felony in U.S. district court. An element of that felony is 
criminal intent. He has owned up to that criminal intent. In 
his statement to the committee, he admitted that he did wrong 
when he reimbursed a number of people. So there is no issue 
that when he made many of the reimbursements to friends and 
family members, he knew in his head that he was doing wrong and 
pled guilty, and that was obviously an element of the crime.
    Finally, in terms of the tax situation, from the time of 
this investigation, Mr. Trie has not filed an income tax 
return, primary reason, his records were not available to him 
for a number of years. We have advised the IRS of Mr. Trie's 
situation. There is no question that when all of this is over, 
Mr. Trie's tax situation will come out in the wash with the 
IRS. But at least from 1996 forward, Mr. Trie has not been able 
to come to terms with the IRS.
    It is also true that Mr. Trie is not an accountant, has no 
sophisticated understanding of what income is and what income 
is not, and from his perspective, many of the contributions 
that were made were business expenses between Mr. Wu and Mr. 
Trie in pursuit of their investment enterprises in the United 
States.
    Thank you, Mr. Waxman.
    Mr. Waxman. Well, I appreciate those clarifications, 
because I think when we are sitting up here, either because we 
have a legal background or we are dealing with laws, words mean 
something to us that may not mean the same thing to Mr. Trie. 
So I appreciate this clarification.
    And, Mr. Chairman, I want to thank you for allowing the 
attorney to respond because it seems to me that we cut through 
a lot of confusion, and I could see how someone like Mr. Shays 
could get very frustrated that he wasn't getting the answer 
that he wanted because Mr. Trie was thinking in different 
terms.
    Mr. Weingarten. Exactly.
    Mr. Waxman. Let me ask you, Mr. Trie, some other questions 
that I have, because I still have some time but not much. Mr. 
Trie, most of the money that you used to make campaign 
contributions came from Mr. Wu, and you used several hundred 
thousands dollars from Mr. Wu to make contributions yourself 
and then to reimburse other people to make these contributions.
    Most people hearing about these conduit contributions might 
wonder what was their purpose, and, in fact, there has been a 
lot of speculation about what Mr. Wu wanted in return for his 
conduit contributions. It has been suggested that perhaps Mr. 
Wu wanted to influence United States policies or that he was 
even an agent of the Chinese Government.
    In your opinion, what did Mr. Wu want in return for the 
money he put up?
    Mr. Trie. Mr. Wu is self-made businessman, and he depend on 
lots of people to support. So when he know me and he think he 
can have my help to get--to raise fund to finish is project, 
and that's all I know he do. I been with him for--from since 
1994. I still know--only thing I know, he was doing the real 
estate business, buy and sell. And he wanted me to help him to 
find--locate investor. He doesn't even speak English.
    Mr. Waxman. He wanted things from you. Did he want anything 
from the President?
    Mr. Trie. He don't even speak English. He cannot----
    Mr. Waxman. Thank you. My time is up.
    Mr. Burton. The gentleman's time has expired.
    Let me take 5 minutes while we are waiting on Mr. Barr. The 
first thing is--and I am not going to get into an argument or 
discussion with your counsel because we have already allowed 
him to talk. But, Mr. Trie, did you pay taxes on the money you 
got in 1994, 1995, 1996 from foreign sources?
    Mr. Trie. Most time I was out the country. I don't recall.
    Mr. Burton. The point is that you said earlier that the 
reason that you hadn't paid your taxes on this money was 
because all of your records were taken. But they weren't taken 
in 1995 or 1994 or 1996. So for you to hide behind that veil 
saying, you know, the reason I didn't pay taxes on this money 
that was coming in from somebody else is because my records 
were taken. They weren't take until 1997, as I recall. So the 
fact is you avoided income taxes on this money that you say was 
money to you in years when you should have and could have paid 
taxes.
    Now, let me get into one other issue, and I will let you 
respond in just a minute. We have here three pages, three full 
pages, single-spaced, of contributions that you had laundered 
through other people: Celia Chau, Charlie Chiang, Yue Chu, Tai 
An Lin, Terry Lin, William Lin, Chin Chen Heu, Keshi Zhan, Jean 
Chiang, Ernie Green, Jimswood International, Keshi Zhan, Manlin 
Foung, Joseph Landon, Yue Chu, Ming Chen, Ziping Wang, Charlie 
Chiang, Shu Lan Liu, $12,500.
    All of these people, you were giving them money and telling 
them to give it to the DNC or to the President's Re-election 
Committee under their names. You deliberately were giving them 
money saying, OK, here is money, you give it to the DNC under 
your name.
    Why were you doing that with all these different people if 
you didn't think that you had something--that it was something 
that shouldn't be done? You must have known this was illegal; 
otherwise, you would have just given it in your name. Why 
didn't you give it in your name instead of running it through 
all these people?
    Mr. Trie. You want me to answer this question?
    Mr. Burton. Yes, I do.
    Mr. Trie. OK. In 1994, I wrote a check. I wrote many, many 
check. In 1995 and 1996, I started to ask people for--help me 
to write a check. I give--reimburse the money. Only thing I was 
thinking in that time, I didn't have enough income in my bank 
account. So every time because I was in Washington, DC, or in 
Asia, my--the company--my own company, Daihutsu, is in Little 
Rock. And I hardly go back there.
    So very uncomfortable for myself. I already explained. 
Every time I go into the party event, only few Asian people. 
Every time, I was the only one everybody know.
    So more and more uncomfortable, so, you know, if I keep 
wrote this check and I didn't have--because I have been bounced 
once--one check for $50,000, 1995. That check was bounced for 
$50,000. So I was very uncomfortable this happen because I 
didn't have money coming in. So I start thinking--and I think 
it started--was--I think it was Celia Chau, we went to the 
party, and she want to have a chance to take a picture. So I 
say, OK, you wrote a check, I give the money. And she didn't 
think anything, so she wrote the check. That's what I feel. And 
every time I think DNC, they match the people, whoever give the 
check.
    Mr. Burton. Mr. Trie----
    Mr. Trie. Yeah?
    Mr. Burton. Here's $252,000 and here's $782,500 that you 
ran through, in large part, other people to give to the DNC and 
other candidates. You were taking money, giving it to them, to 
the tune of up to $1 million and having that money run through 
their accounts into the DNC.
    Mr. Trie. I don't--I have to see the record because I 
don't----
    Mr. Burton. Well, I have the records right here.
    Mr. Trie. Yeah, I know.
    Mr. Burton. This is it. And, you know----
    Mr. Trie. I don't believe that much money.
    Mr. Burton. Well, we have the records.
    Mr. Trie. Yes.
    Mr. Burton. And you can give him a copy of this.
    Mr. Trie. Can I look at?
    Mr. Burton. But the point is Ernie Green on February 6, 
1996, $50,000 to the DNC, Ernie Green alone. Now, we can't go 
into Ernie Green. I am sorry. That is one of the things we 
agreed to with the Justice Department, that and Mark Middleton, 
so I won't go into that.
    But the fact of the matter is it stretches credulity for 
you to say that you didn't know that there was an illegal act 
taking place and that you didn't know that this was something 
that you shouldn't be doing when you did this. It just doesn't 
make sense.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, I share your confusion and the confusion 
stated by Mr. Shays a little bit earlier with regard to what 
Mr. Trie knew and when did he know it.
    You did, Mr. Trie, enter a plea in Federal court in Little 
Rock on May 21st, 1999. Is that correct?
    Mr. Trie. Correct.
    Mr. Barr. OK. And at the time you entered that plea and 
appeared before the judge, you were placed under oath. Is that 
correct?
    Mr. Trie. I'm sorry. I didn't get the----
    Mr. Barr. Were you under oath when you entered your plea? 
Oath.
    Mr. Trie. Uh-huh.
    Mr. Barr. Were you under oath when you entered your plea?
    Mr. Trie. Yes. Yes.
    Mr. Barr. That means you swore to tell the truth. Is that 
correct?
    Mr. Trie. Correct.
    Mr. Barr. And you are under oath today, are you not?
    Mr. Trie. I am.
    Mr. Barr. You have sworn to tell the truth today. Correct?
    Mr. Trie. Yes.
    Mr. Barr. OK. At the time you entered your plea in court on 
May 21st of last year, you testified under oath that you 
knowingly and willfully caused another person to make 
materially false, fictitious, and fraudulent statements and 
representations to the treasurer for the DNC and that you 
caused that person to submit a false report to the FEC. 
Correct?
    Mr. Barr. OK. That means that you testified in court under 
oath that you knew what you were doing was against the law. 
Correct?
    I am not trying to play word games with you. I think you 
are trying to play word games with us. All I am trying to get 
at is you knew that you were breaking the law and that is why 
you entered the plea. Correct?
    Mr. Trie. I pleaded guilty because my counsel advised me to 
plead guilty. I didn't read the statement.
    Mr. Barr. Did your counsel advise you to plead guilty and 
state--will you pay attention here?
    Mr. Trie. Yeah, I knew I did something wrong in that time.
    Mr. Barr. OK. You testified under oath at the time you 
entered your plea that you knowingly and willfully broke the 
law. Is that correct? You knew that you had broken the law? 
Correct?
    Mr. Trie. I plead guilty in the court, which I did 
something wrong.
    Mr. Barr. Correct.
    Mr. Trie. Correct. But I didn't know the campaign finance 
law.
    Mr. Barr. Are you recanting today your testimony under oath 
on May 21st, 1999 that you did know that you were violating the 
law and that you willfully violated the law? Because that was 
your testimony under oath on May 21st, 1999. Are you recanting 
that testimony today?
    Mr. Trie. No.
    Mr. Barr. OK. So you did know that you violated the law and 
that you willfully violated the law pursuant to the terms of 
your plea. Is that correct?
    Mr. Trie. I plead guilty not because I know the campaign 
finance law, but I know I do something wrong.
    Mr. Barr. I really don't understand why we are going around 
and around on this.
    Mr. Trie. Can I address my opinion about what's happen?
    Mr. Barr. Well, you will have plenty of opportunity to 
provide us your opinion. All I am trying to get at is you knew 
that you violated the law and you willfully violated the law. 
Is that correct? Yes or no. Now, if your lawyers tell you to 
say no, that is fine. We know where we stand. That is all I am 
asking. Did you knowingly and willfully violate the law?
    Mr. Trie. I knowingly I do something wrong, but I don't 
know the law.
    Mr. Barr. Well, then, are you recanting your plea? Because 
in your plea you said under oath that you knowingly and 
willfully violated the law. The court didn't ask you if you 
knowingly did something wrong. That isn't what they asked you. 
Your lawyer was present with you in court on May 21st. Is that 
correct?
    Mr. Trie. My lawyer was in the court, correct.
    Mr. Barr. There with you?
    Mr. Trie. Yes.
    Mr. Barr. And the court gave you full opportunity to 
explain or ask any questions about your plea, did they not?
    Mr. Trie. Yes.
    Mr. Barr. OK.
    Mr. Trie. They tell me I--that the--following the--I made--
--
    Mr. Barr. Well, we have to go vote.
    Mr. Burton. Yes, we have a vote.
    Mr. Barr. We can continue this when we get back, Mr. 
Chairman.
    Mr. Burton. We will continue when we come back. We stand in 
recess until the vote is concluded. We will be back in about 10 
minutes.
    [Recess.]
    Mr. Shays [presiding]. I would like to call this hearing to 
order, and, Mr. Barr, had you finished your 5 minutes? Had the 
clock ran out? I think it had.
    Mr. Barr. I think we had concluded that 5-minute round. I 
would defer to counsel. Had we finished that 5-minute----
    Mr. Shays. So then we will--Mr. Burton is here, so if he 
has questions, I guess do we go with you or Mr. Waxman?
    Mr. Burton [presiding]. Mr. Waxman.
    Mr. Waxman. Thank you.
    Mr. Trie, I was asking earlier about Mr. Wu when you said 
Mr. Wu had a lot of money, and he was willing to give money to 
the President. And I am trying to understand why Mr. Wu would 
give so much money to the President's campaign. Was he 
interested in taking--was he interested in influencing the 
President, or was he interested in taking photos with the 
President? What was his reason for wanting to give so much 
money?
    Mr. Trie. He interesting to knowing more people in the 
event and then maybe take a picture--of course, take a picture 
is the most honor thing for him.
    Mr. Waxman. That was an important thing for him?
    Mr. Trie. Yes.
    Mr. Waxman. Why was it important?
    Mr. Trie. He feel good. He feel good.
    Mr. Waxman. He feels good taking a picture with the 
President?
    Mr. Trie. Yes.
    Mr. Waxman. Would it help him in his business?
    Mr. Trie. Oh, yeah, help him business-wise, too.
    Mr. Waxman. How would it help him?
    Mr. Trie. In Asia, if you put a picture on your office wall 
with the President of the United States, it is very--very good 
thing.
    Mr. Waxman. Did Mr. Wu have any contacts with the Chinese 
Government or did he have a relationship with the Chinese 
Government?
    Mr. Trie. Not that I know.
    Mr. Waxman. Not that you know. Do you have any reason to 
think that he was an agent of the Chinese Government?
    Mr. Trie. No.
    Mr. Waxman. You were asked about Tomy Winata, the 
Indonesian billionaire who provided you with a large sum of 
money, some of which was used for campaign contributions. Why 
did Mr. Winata give you the money?
    Mr. Trie. We are friend.
    Mr. Waxman. Did he want to take a photo with the President? 
Did he want to meet the President?
    Mr. Trie. He met the President before. I think he's in 
Seattle, APAC. I think he was a delegation from Indonesia. But 
I'm not sure. I saw the picture.
    Mr. Waxman. Did he have any interest in trying to influence 
U.S. policy?
    Mr. Trie. I don't believe so.
    Mr. Waxman. And how is it that he could give such a large 
sum of money?
    Mr. Trie. To who? To me?
    Mr. Waxman. Yes.
    Mr. Trie. I think I just asked him. He likes me a lot. 
That's why he offer me the job.
    Mr. Waxman. When he gave you money, was he giving on behalf 
of the Chinese Government?
    Mr. Trie. Not at all.
    Mr. Waxman. Do you have any reason to think he might have 
been a Chinese spy or agent?
    Mr. Trie. He hardly go to China. He doesn't believe he 
have--because he speak Indonesian. He speak Chinese, but he 
think Indonesia his base.
    Mr. Waxman. The chairman earlier when he questioned you, he 
said you fled the country. Did you flee the country?
    Mr. Trie. I think--I'm a U.S. citizen. I'm entitled to go 
anywhere I wanted to because it's never been charge. It--today 
I know I have--in that time I don't know I have the fifth 
amendment. If I'm in this country, I will use the fifth 
amendment. But in that time, I just go--I want--I have hard 
time because reporter keep calling me. They was in my house and 
bothers me, and I think in this country, even now I hardly even 
find a job. So I think, you know, I will be have hard time 
because I don't know why my name always in the newspaper. So I 
think--that's why I go to Asia where I still have some chance 
to do business.
    Mr. Waxman. Let me ask you about the President's legal 
defense fund, not the campaign but the legal defense fund.
    Mr. Trie. Yes.
    Mr. Waxman. Because it was reported that you played a role 
in raising over $500,000 for that, and it turned out that this 
money was from other people. Did anyone at the White House ask 
you to raise money for the legal defense fund?
    Mr. Trie. No, they didn't ask me, but I just knew.
    Mr. Waxman. You knew----
    Mr. Trie. I knew there is--because in the beginning, when 
I--I think I talked to Mark, and, you know, because I know he--
I knew he was doing the President library in Little Rock, 
raising the fund. And I find out there's another called 
President legal defense fund. And I know he--they--he owe--in 
that time I think it is $2 million. That's how I know.
    Mr. Waxman. So you knew they wanted to raise money, but 
they didn't ask you to raise or give money?
    Mr. Trie. Maybe Mark asked me and say if you have a chance, 
you know, help raise this money.
    Mr. Waxman. Did anyone at the Democratic National Committee 
ask you to raise money for this legal defense fund?
    Mr. Trie. No.
    Mr. Waxman. Did any friend or associate of the President or 
the First Lady ask you to raise money for----
    Mr. Trie. No.
    Mr. Waxman [continuing]. The legal defense fund? And as I 
understand it, the contributions came from a Taiwanese 
religious group. Is that right?
    Mr. Trie. Yes.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman. Could I just ask two questions? Then I will be 
through.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Just to finish these questions, and then I am 
going to let the Republicans go with several rounds.
    In your written statement, you said that the leader of this 
religious group, a Vietnamese woman name Suma Hai, wanted to 
help the President because she thought he was a good man who 
had been helpful to Vietnamese immigrants while he was the 
Governor of Arkansas.
    As far as you know, was she trying to change U.S. policy?
    Mr. Trie. Not at all. Let me talk about this because there 
is so much in here. I recall she say--I remember Arkansas has 
refugee camp called Fort Chaffee, and there's many of the 
Vietnamese people was staying there, and many of them even work 
for me. So I know she telling the truth, I mean, the way she 
tell me, she like--because if you can check the record, she 
even went to Hong Kong to tell the Hong Kong Government don't 
send the refugee back to Vietnam. So I know she was--loved her 
own people. That's how she wanted me, say, you know----
    Mr. Waxman. Let me ask you my last question. Were you 
trying to help the President because you wanted to influence 
U.S. policy?
    Mr. Trie. No.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Burton. To listen to you, Mr. Trie, when you went to 
China, you are saying you just went because you wanted to go 
over there and you wanted to avoid the press. The fact of the 
matter is you had to know that this committee, the Senate 
committee, the Justice Department, the FBI, all wanted to talk 
to you about the illegal campaign contributions. We were 
talking to a whole host of other people and subpoenaing people 
to come before these committees in the Senate and the House.
    For you to say that you just left because of press accounts 
doesn't make sense. And even if that were the case, you went 
over there and you stayed over there after you knew that this 
committee, the Senate committee, and the Justice Department and 
the FBI wanted to talk to you. You didn't come back. And there 
were press accounts where you made some comments about staying 
over there.
    And so, you know, I think it is hard for anybody who knows 
the facts to believe that you just went over there simply 
because you wanted to get away from the media. The fact is you 
were staying over there because you didn't want to be 
questioned by these committees and the Justice Department and 
the FBI because you were afraid that you might be indicted or 
convicted. Isn't that the case?
    Mr. Trie. Let me address this one. When they indict me, 
when the Justice Department, DOJ indict me, I come back right 
away. If I want to run away--but, you know, on the question--I 
know there's a fifth amendment. If I use the fifth amendment, 
even if I am in Washington, DC, if I know you want to talk to 
me, if I use the fifth amendment, doesn't matter--I mean, here 
or not. But I'm free to travel, is American citizen's right.
    Mr. Burton. You know, when Tom Brokaw interviewed you when 
you were over there, you said, ``I could stay here for 10 
years, and they would never find me.'' And you knew that people 
wanted to talk to you, and you did stay there. You did finally 
come back. That is good. You came back after you were indicted. 
That is good. But for you to make--to leave the impression that 
you weren't staying away because you were concerned just 
stretches----
    Mr. Trie. If I want to stay there----
    Mr. Burton [continuing]. Credulity.
    Mr. Trie [continuing]. I could have stayed there. Is that--
I make a statement was right, correct. If I want to stay there, 
I can stay 10 year. But I came back when----
    Mr. Burton. OK. Well----
    Mr. Trie [continuing]. DOJ indict me.
    Mr. Burton. OK. Well, let's talk about these people that 
were giving you money. You said that you didn't know Ng Lap 
Seng, better known as Mr. Wu, was connected to the Chinese 
Communist Government. He was. He was a member of the CPPCC, the 
Chinese People's Political Consultive Congress, which is a 
Communist Chinese political organization. He was connected to 
that. You were intimately involved with him. And I cannot for 
the life of me figure out how you would not know of his 
involvement, especially in view of the fact that he was giving 
you large amounts of money for business purposes or for conduit 
contributions to the President and the DNC.
    You know, it doesn't make sense. He had business deals with 
the Chinese state-owned companies like CITIC. You must have 
known that. He told the FBI that he believed Wu--you told the 
FBI that you believed Wu knew people in Chinese intelligence. 
So when you told the FBI that, you must have known he had 
connections with the Chinese Government. And today you are 
saying, well, you didn't know that. But you told the FBI that 
you believed----
    Mr. Trie. The question was this is high government 
official. I don't know what that means.
    Mr. Burton. OK. Let's go on.
    Mr. Trie. He is, in Chinese culture, he is called the name 
you mentioned. But the other one is just some--you know, you 
have to understand what the Chinese people. Also, every--not 
every, 98-some percent business are state-owned.
    Mr. Burton. Yes, I know.
    Mr. Trie. There's no question. So everybody who do 
business, even I do business, I have to do it with the Chinese 
Government.
    Mr. Burton. Liu Chao-Ying, who funneled $300,000 from 
General Ji through Johnny Chung, you knew Liu Chao-Ying. You 
knew she was an executive for the aerospace industry. You also 
knew her father was the head of the People's Liberation Army 
and a high government official.
    Mr. Trie. Yes.
    Mr. Burton. And you were dealing with her.
    Mr. Trie. I'm sorry. I didn't--wasn't related with Liu 
Chao-Ying.
    Mr. Burton. Well, but you----
    Mr. Trie. I just met her through my friend.
    Mr. Burton. Tomy Winata.
    Mr. Trie. Yes.
    Mr. Burton. He has business deals with several Chinese 
companies. He knew Liu Chao-Ying, and he was involved with Liu 
Chao-Ying in a business venture. You knew about that. He had 
connections to Chinese intelligence. You say you didn't know 
about that.
    These people were giving you large sums of money, hundreds 
of thousands of dollars. You were intimately involved with 
them, and you are saying you had no idea about this.
    Mr. Trie. I didn't say I didn't know about this.
    Mr. Burton. Well, tell----
    Mr. Trie. I knew her--OK. That was in 1997 after the 
campaign finance broke off.
    Mr. Burton. Tomy Winata and Ng Lap Seng were before 1996.
    Mr. Trie. Yes, but I don't know Tomy Winata do any business 
with Chinese company. But that was--Liu Chao-Ying was--let me 
say this: We are just--everybody do business that have to do 
something like--I have to worry about this kind of thing. 
Everybody is state-owned business.
    Mr. Burton. Let me----
    Mr. Trie. It wasn't meaning me to do business with state.
    Mr. Burton. Let me put it a different way. Ng Lap Seng, Mr. 
Wu, was involved and was a part of an arm of the Communist 
Chinese Government. He was giving you a lot of money. He was 
doing business with state-owned companies like CITIC, which is 
directly connected to the leadership of the Chinese Communist 
Government. They were giving you large sums of money that was 
funneled into the President's Re-election Committee, and you 
are saying you had no knowledge about that, it was just----
    Mr. Trie. That's what I believe his money.
    Mr. Burton. It was just a coincidence that you were getting 
the money and giving it to the DNC and the President's Re-
election----
    Mr. Trie. But I believe that's his own money. Who he do 
business, make money off, I don't know. He have so many 
business.
    Mr. Burton. So you just--all these people that were 
connected to the Chinese Government, you didn't know whether or 
not----
    Mr. Trie. He do--all he business, 99 percent was doing with 
the Chinese people, and he--I think he entitled to do business 
with the Chinese people.
    Mr. Burton. And Tomy Winata, who had connections to Chinese 
intelligence, wanted to have a private meeting with the 
President. He turned down sitting next to the President at a 
dinner because he wanted to have a private meeting with the 
President, and you didn't see any concern about that?
    Mr. Trie. Didn't work out. That's what I know.
    Mr. Burton. Mr. Barr. Excuse me. Mr. Shays.
    Mr. Shays. Thank you. I am happy to yield to Mr. Barr.
    Mr. Barr. I thank the chairman and I thank the gentleman 
from Connecticut.
    Mr. Trie. Excuse me. Can I answer your question before----
    Mr. Barr. No, you don't know what my question is yet.
    Mr. Trie. No, I mean the one before.
    Mr. Barr. Well, let me get at it this way. I think there 
probably is more than one way to skin a cat here.
    Do you reaffirm your testimony given in court on May 21st 
of last year at the time you entered your plea in all their 
particulars? Do you reaffirm all of that testimony here today 
under oath?
    Mr. Trie. At the time----
    Mr. Barr. Yes or no?
    Mr. Trie. Yes.
    Mr. Barr. OK. Thank you.
    Do you know a lady named Lin Ruo Qing?
    Mr. Trie. Yes.
    Mr. Barr. OK. Ms. Lin was a senior official with the rank 
of senior colonel in the General Logistics Department of the 
People's Liberation Army. Is that correct?
    Mr. Trie. Yes.
    Mr. Barr. You have provided previous statements to that 
effect. Is that correct?
    Mr. Trie. Yes.
    Mr. Barr. And at the time you dealt with her, you knew that 
she was a senior officer in the Logistics Department of the 
PLA. That is correct also, isn't it?
    Mr. Trie. Correct.
    Mr. Barr. OK. And there is no doubt about it, I mean, she 
is--was, that is, an official in the PLA.
    Mr. Shays. Could the gentleman just yield a second? You 
said ``incorrect.'' Did you mean ``correct''?
    Mr. Trie. Correct.
    Mr. Shays. He in the record says ``incorrect,'' so I want 
to just make sure.
    Mr. Barr. I thought he said ``correct,'' but we certainly 
don't want to leave anything to misinterpretation.
    She was an official with the PLA and you knew she was an 
official with the PLA. That is correct also, isn't it?
    Mr. Trie. I think so, yes.
    Mr. Barr. OK. In November 1994, you invited Ms. Lin, 
Colonel Lin, to visit the United States. Is that correct?
    Mr. Trie. Yes.
    Mr. Barr. And, specifically, you sent her a letter--exhibit 
52, please--on November 7, 1994 inviting her to visit Arkansas. 
Is that correct?
    [Exhibit 52 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.063
    
    [GRAPHIC] [TIFF OMITTED] T8344.064
    
    Mr. Trie. Can I look at the record?
    Yes.
    Mr. Barr. OK. And there is a notation at the bottom of that 
letter, exhibit 52, in Chinese handwriting that says, in 
translation, ``This is the second stage.'' Is that correct.
    Mr. Trie. No. Second part.
    Mr. Barr. Second part?
    Mr. Trie. Yes.
    Mr. Barr. The second part of what?
    Mr. Trie. It was the--I don't know the first part. Let me 
look at it. It can translate as ``second stage'' or ``second 
part.''
    Mr. Barr. OK. The translation I have is, ``This is the 
second stage,'' so that would be----
    Mr. Trie. Should be second part.
    Mr. Barr [continuing]. A correct translation, right?
    Mr. Trie. Yes. It should be second part, if I understand.
    Mr. Barr. So it certainly would be a correct assumption 
that this was a continuing relationship. There were previous 
actions between the two of you.
    Mr. Trie. No, you have--I think you have to read the whole 
thing. I didn't pay attention because this is not my--I didn't 
write this letter. I believe maybe Jennifer Russell----
    Mr. Barr. OK, well, let's go back to basics. Is that your 
signature on the bottom of exhibit 52?
    Mr. Trie. I can't tell. I think it probably Dia Mapili, my 
secretary. She have a power of attorney to sign my letter.
    Mr. Barr. OK. Are you disavowing the signature on that 
letter?
    Mr. Trie. I cannot--it doesn't look like my--myself.
    Mr. Barr. OK. Is it a forgery?
    Mr. Trie. No. She have my power of attorney to sign my----
    Mr. Barr. OK. So this is either your signature or a 
signature placed on this letter with your express permission?
    Mr. Trie. Yes, yes.
    Mr. Barr. OK. So the notation at the bottom which 
translates to ``This is the second stage''----
    Mr. Trie. Or second part.
    Mr. Barr. Or the second part, we could legitimately 
conclude that there was a first part or a first stage.
    Mr. Trie. If you look at top on the right-hand corner, this 
says--that's my secretary in Beijing. I believe he--let me see. 
I didn't----
    Mr. Barr. Well, let's move on. We have established what it 
says, and I think----
    Mr. Trie. OK.
    Mr. Barr [continuing]. The reasonable conclusion.
    There was further communication between yourself and the 
Democrat National Party with regard to Colonel Lin. Is that 
correct?
    Mr. Trie. Yes, I believe so.
    Mr. Barr. OK. And you sought to have her join an 
organization which is a part of the Democrat National Committee 
called the Business Leadership Forum [BLF]. That is correct, 
isn't it?
    Mr. Trie. Correct.
    Mr. Barr. Pardon?
    Mr. Trie. Yes.
    Mr. Barr. Yes. OK. Thank you.
    And, for example, exhibit 56, which consists of a fax cover 
sheet from the Democrat National Committee, Finance Division, 
to your assistant, and which includes a letter signed by the 
Deputy Director of the Business Leadership Forum, clearly 
indicates that this was a letter sent to Colonel Lin in Beijing 
with regard to her interest in joining the Democrat National 
Committee Business Leadership Forum. Is that correct?
    [Exhibit 56 follows:]
    [GRAPHIC] [TIFF OMITTED] T8344.108
    
    [GRAPHIC] [TIFF OMITTED] T8344.109
    
    Mr. Trie. Correct.
    Mr. Barr. OK.
    Mr. Burton. The gentleman's time has expired.
    Mr. Barr. OK. Thank you, Mr. Chairman.
    Mr. Burton. I will yield to Mr. Barr now.
    Mr. Barr. Thank you, Mr. Chairman.
    There is also a letter dated November 16, 1994, which is 
exhibit No. 58, which is a two-page letter, and insofar as 
there may be some confusion, would you tell us if that is your 
signature on that letter?
    [Exhibit 58 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.065
    
    [GRAPHIC] [TIFF OMITTED] T8344.066
    
    Mr. Trie. No.
    Mr. Barr. That is not your signature?
    Mr. Trie. Should be Dia Mapili's signature.
    Mr. Barr. I am sorry?
    Mr. Trie. She sign for me, yes.
    Mr. Barr. So it is either your signature or a signature 
placed on that letter with your express permission?
    Mr. Trie. Yes.
    Mr. Barr. OK. And that letter then was followed by another 
letter, with a very poor copy found at exhibit No. 59, which is 
a letter from you to David Mercer.
    [Exhibit 59 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.103
    
    [GRAPHIC] [TIFF OMITTED] T8344.104
    
    Mr. Trie. Mm-hmm.
    Mr. Barr. Stating that a check in the amount of $10,000 is 
included on behalf of Colonel Lin for her to join the BLF. Is 
that correct?
    Mr. Trie. Correct.
    Mr. Barr. OK. Stating also in that letter that Colonel Lin 
is an ``avid supporter of President Clinton.''
    Mr. Trie. Correct.
    Mr. Barr. And is that an accurate characterization of 
Colonel Lin's view of Mr. Clinton?
    Mr. Trie. Because I like him, so she believe what I say.
    Mr. Barr. OK. So it is an accurate representation of her--
--
    Mr. Trie. Yes.
    Mr. Barr [continuing]. Feelings toward Mr. Clinton.
    Mr. Trie. Yes.
    Mr. Barr. OK. Colonel Lin has since been executed by the--
--
    Mr. Trie. I don't know that she has been. She has been 
sentenced. That's only I read on the news--newspaper.
    Mr. Barr. OK. And what newspaper was that?
    Mr. Trie. I think it's a Chinese newspaper.
    Mr. Barr. OK. And what did that story indicate, that she 
had been sentenced to death?
    Mr. Trie. I didn't pay real attention, because the name 
catch me, because--yeah, I think it is sentenced--death 
sentence. That's all I know.
    Mr. Barr. OK. Do you know whether or not she has, in fact, 
been executed?
    Mr. Trie. I don't know.
    Mr. Barr. OK. Do you presume that she has?
    Mr. Trie. I don't have no comment on this one. I don't 
know.
    Mr. Barr. OK. Isn't it standard procedure in Mainland China 
that when an article like that appears in the official 
newspaper that it is a fact that the person has been executed 
normally?
    Mr. Trie. I don't know.
    Mr. Barr. You're not familiar with that?
    Mr. Trie. I cannot tell you this on this kind of thing.
    Mr. Barr. OK. You have traveled extensively in Mainland 
China, have you not?
    Mr. Trie. Yes, yes.
    Mr. Barr. You are familiar with the general way the 
government there operates, are you not?
    Mr. Trie. I'm not.
    Mr. Barr. You're not? OK. Is it your testimony that you 
would have this committee believe that you are completely 
ignorant of the Government in China?
    Mr. Trie. What this mean?
    Mr. Barr. Is it your testimony to this committee and would 
you have this committee believe that you are completely 
ignorant of how the Government in China operates?
    Mr. Trie. Not on the death penalty. I never have face 
anybody have a death penalty.
    Mr. Barr. Well, I have no way of knowing. My question isn't 
whether or not you faced the death penalty. I presume that if 
you had, you wouldn't be here.
    Mr. Trie. But your question was the death penalty.
    Mr. Barr. No, just generally. You seem to be trying to 
indicate to us that you have no idea how the government in 
China operates.
    Mr. Trie. I do. I do.
    Mr. Barr. OK.
    Mr. Trie. But not on the death penalty, because you was 
asking the death penalty, she executed or not.
    Mr. Barr. You would certainly agree, I presume, that when 
the Government of China--Mainland China, that is--makes an 
official statement or causes a particular fact to appear in the 
State newspaper, that it probably reflects what has actually 
happened?
    Mr. Trie. The question you are asking me, I don't have no 
answer because I don't run the government. Especially on this 
kind of death penalty thing, I don't have no idea she still 
alive or not.
    Mr. Barr. OK. But you did see an article in the official 
paper of China that Colonel----
    Mr. Trie. No, no, no, no, no. Is in the United States. The 
newspaper is in the United States, Chinese newspaper, in the 
corner.
    Mr. Barr. OK. Not the Communist Chinese Government 
newspaper.
    Mr. Trie. No, no, no, no.
    Mr. Barr. OK. In the newspaper in the United States.
    Mr. Trie. Yes.
    Mr. Barr. OK.
    Mr. Trie. That's what I believe.
    Mr. Barr. So, therefore, we can presume that it was 
accurate.
    Mr. Trie. What that?
    Mr. Barr. Nothing. I am just saying, if it appeared in the 
newspaper in this country, can we presume that it was accurate?
    Mr. Trie. I don't know.
    Mr. Barr. I don't either.
    Mr. Trie. I just read the news.
    Mr. Barr. We agree on that.
    Mr. Chairman, I do have another line of questioning, but 
rather than begin that at this point, what I prefer to do is 
yield back, and then after we--do we have a vote on the floor?
    Mr. Burton. We do, and that will be the last vote of the 
day, and we won't be interrupted any further. So why don't we 
stand in recess for about 10 minutes? You can come right back, 
and then if you choose, Mr. Souder, you can yield to----
    Mr. Souder. Mr. Chairman, what I would like to do is yield 
my time to the discretion of the Chair so I can do a 5-minute 
on the floor, and then I will come back.
    Mr. Burton. That would be fine. You are yielding that time 
to Mr. Barr?
    Mr. Souder. Yes, or the discretion of the Chair.
    Mr. Burton. OK. Then when we come back, Mr. Barr, you will 
have 5 minutes and we will continue.
    We stand in recess at the fall of the gavel.
    [Recess.]
    Mr. Shays [presiding]. Thank you. I would like to call this 
hearing to order.
    Mr. Trie, I basically started out this thinking that I 
would learn some interesting facts and didn't think I would 
want to go through some of the information because it seems to 
me very straightforward.
    I don't quite understand why you would want to insist that 
you didn't know it was illegal to do all of this conduit 
funding. And I don't see kind of what you gain, so it is a real 
mystery to me, because you would have to be--the amount of 
money that you have filtered into both the Democratic National 
Committee, over $600,000, and to the President's legal expense 
trust, over $640,000, we are talking about $1.2 million. And 
you have so many people's names on money that wasn't their 
money, and it just would seem illogical to me--in fact, I will 
say to you and I mean no disrespect, but I just question your 
integrity on that issue. I don't think you are telling me the 
truth.
    And it fascinates me why--I want to understand why this 
is--why you would want to insist this, because it is not 
logical to me. But let me ask you this so there is no doubt: 
You have not reported over $300,000 of income. You do know that 
is illegal?
    Mr. Trie. Can you separate the----
    Mr. Shays. Yes, let's do it step by step. The $120,000 that 
you said was wired to you from--Winata?
    Mr. Trie. Winata?
    Mr. Shays. Winata, who owns Satelindo, that is one of his 
businesses. I know he has a conglomerate, but that is one of 
his businesses. So Tomy Winata.
    Mr. Trie. Correct.
    Mr. Shays. You got $120,000 that was wired to you by him?
    Mr. Trie. Yeah. One time was 70 and one time was--yeah, 
two.
    Mr. Shays. It added up to 120. There were two.
    Mr. Trie. Correct.
    Mr. Shays. Now, that was sent to you and you did not report 
it as income.
    Mr. Trie. Correct.
    Mr. Shays. And that is illegal, correct, because this was 
income to you?
    Mr. Trie. Yes, it's income.
    Mr. Shays. So you do know that----
    Mr. Trie. You know, he give me money.
    Mr. Shays. You do know that you broke the law. I mean, you 
are an American citizen and you are supposed to report income.
    Mr. Trie. I just said, probably you wasn't here last time, 
since 1976, this campaign finance law broke off. Since 1997 and 
1998 and 1999, I didn't file the income tax return, which we--
we have been--we talk to the--we talk to the IRS. After this 
investigation finish, I will do the tax--income tax return.
    Mr. Shays. But you were required to file an income tax.
    Mr. Trie. Because I don't have no more paperwork. 
Everything was being searched by the FBI.
    Mr. Shays. Is it your testimony before us that the $120,000 
total amount--and is that the total amount that he wired you? 
Was there more?
    Mr. Trie. One is 1976--1996, one is 19--I have to see the 
document. But it's two separate wire.
    Mr. Shays. So is it your testimony that you don't legally 
have to file an income tax statement with all this income?
    Mr. Trie. I didn't say I----
    Mr. Shays. I am just confused. I need to understand where 
your mind is, and then I can figure out how I can evaluate the 
responses to your questions. I mean, this is a gigantic mystery 
to me. You get income. As an American citizen, you have to pay 
taxes on it. And you are giving me some excuse as to why you 
didn't file your income tax? What is this excuse?
    Mr. Trie. I think that's the fact.
    Mr. Shays. What is the fact?
    Mr. Trie. All my paper was not there.
    Mr. Shays. When was the paperwork taken?
    Mr. Trie. Early in--or late in 1996.
    Mr. Shays. When did they take your paperwork?
    Mr. Trie. I don't know. I wasn't in this country.
    Mr. Shays. Don't say you don't know. You can't tell me one 
thing and then another. What year did the--who took your 
paperwork?
    Mr. Trie. FBI, 1997.
    Mr. Shays. OK, 1997. Did you file your 1995 tax returns?
    Mr. Trie. I don't recall. I wasn't in the country. Most 
time I wasn't in the country.
    Mr. Shays. I give myself another 5 minutes.
    Mr. Trie. I think my lawyer told me the tax return has been 
filed. The record has been produced.
    Mr. Shays. Did you file your tax return in 1990?
    Mr. Trie. 1990? I believe so.
    Mr. Shays. Did you do it in 1991?
    Mr. Trie. I believe so.
    Mr. Shays. 19--you believe so? It is really a yes or no. I 
mean, most Americans know if they filed their income tax.
    Mr. Trie. I don't--I don't remember.
    Mr. Shays. You don't remember. So it is possible you 
didn't?
    Mr. Trie. I think there's a record. I----
    Mr. Shays. Pardon me?
    Mr. Trie. There should be record. I don't know right now.
    Mr. Shays. Did you file your tax return in 1992?
    Mr. Trie. Yes, I do. I have accountant. Can I talk to my 
accountant?
    My tax return have been provided to the investigator.
    Mr. Shays. So? I just want to know if you filed them. Did 
you file your tax return in 1994?
    Mr. Trie. My lawyer thinks so.
    Mr. Shays. Did you file your tax return in 1995?
    Mr. Trie. I have accountant. I believe she will do her job.
    Mr. Shays. Let me say something to you. That is not a good 
enough answer, and if your lawyer is telling you to give those 
answers, that is just ridiculous. The bottom line is you are a 
witness before us. You have been given immunity, and you are 
very uncooperative. I had no interest whatsoever in getting 
into the income tax issue. But you are so cavalier about, well, 
I didn't know about the finance laws, and then we learn you 
didn't report money as income that any other American citizen 
would have to report. And so now I am going down this road, and 
I am going to stay down this road until I get some answers from 
you.
    Mr. Trie. OK.
    Mr. Shays. And it is going to get worse. It is not going to 
get better. If you are trying to be cute, it is not going to be 
to your advantage.
    So I want to know if you filed your income tax in 1995.
    Mr. Trie. I have to give--the answer is my lawyer thinks 
so, and they produced to the----
    Mr. Shays. Your lawyer thinks so? Why would you have time--
why would you have a hard--every American has to do it every 
year. So if you asked me, I would say yes, because I had to do 
it every year. That is the law.
    Mr. Trie. I know it's the law. I been file tax since 1976.
    Mr. Shays. Pardon me?
    Mr. Trie. I know it's the law. I been file the income tax 
since 1976.
    Mr. Shays. No, but that is what I want to know. You said 
you have been filing the--your income tax since 1976.
    Mr. Trie. Yes.
    Mr. Shays. And then when I ask you if you have done it, you 
say you don't know or ask your accountant to----
    Mr. Trie. Yeah, because she's the one doing the job.
    Mr. Shays. No, you are the one who has to--no, you can't 
get away with that.
    Mr. Trie. OK.
    Mr. Shays. You can't get away with blaming someone else for 
your responsibility. And it has nothing to do with whether you 
were a naturalized citizen or not. You are an American citizen. 
And the question is: Did you file an income tax? And now you 
are telling me your attorney--you do not know yourself if you 
filed an income----
    Mr. Trie. I really don't know. I really do not know.
    Mr. Shays. Why? Why don't you know?
    Mr. Trie. Because my wife is the one in charge all the 
account.
    Mr. Shays. And so it is possible you didn't file your 
income tax in 1994?
    Mr. Trie. I cannot tell you right now.
    Mr. Shays. Is it possible--so you don't know one way or the 
other? That is your testimony?
    Mr. Trie. Oh, by the way, I recently received a State 
income tax, call me, I owe 1994 tax, $2,800.
    Mr. Shays. I don't know why that is relevant. I don't know 
why--that State income tax isw relevant. I want to know as an 
American citizen whether you were filing----
    Mr. Trie. I don't even know that one I didn't pay, so I----
    Mr. Shays. Did you file your income tax statement in 1996?
    Mr. Trie. 1996? No. I informed the IRS. My lawyer informed 
the IRS.
    Mr. Shays. Have you informed the IRS that you may not have 
filed income tax statements in 1992, 1993, 1994, and 1995? Why 
would you--did you? Have you told them that you may not have 
done it in those years?
    Mr. Trie. I never talked to the IRS.
    Mr. Shays. You just told me you told the IRS and they----
    Mr. Trie. Lawyer.
    Mr. Shays. Did your lawyers tell--why did they tell--let me 
see----
    Mr. Trie. He represent me.
    Mr. Shays. No, let me slow down.
    Mr. Trie. Yeah.
    Mr. Shays. I want to know why did you tell them that you 
didn't file an income tax statement in 1996, 1997, and 1998--
and 1999 as well?
    Mr. Trie. Yes.
    Mr. Shays. Those years?
    Mr. Trie. Yes.
    Mr. Shays. 1996, 1997, 1998, and 1999?
    Mr. Trie. Yes.
    Mr. Shays. OK. And tell me why you told them that you 
didn't file an income tax statement then when you may not have 
also filed an income tax statement earlier? Why did you choose 
1996 on?
    Mr. Trie. I do not remember I file tax in 1991, 1992, 1993, 
or 1994. I cannot give you this answer.
    Mr. Shays. My time has run out. Mr. Barr, you have the 
floor.
    Mr. Barr. I yield to the gentleman from Connecticut.
    Mr. Shays. Thank you. Well, what I am trying to understand 
is why you would have told the IRS in 1996 on that you haven't 
filed income tax when you may not have filed it earlier, and I 
just need you to explain. Why did you pick 1996 on to tell 
them? Why didn't you pick earlier?
    Mr. Trie. For my understanding, if you don't file the tax, 
they will call you or something. I didn't receive any call, so 
I think I--and at that time I have accountant, so best my 
knowledge, it would be my wife and my accounting doing the 
whole thing.
    Mr. Shays. I know you are not a stupid man, sir, and I know 
that you know that every American has to pay income tax.
    Mr. Trie. I know. I know every American citizen----
    Mr. Shays. You know that it is not an excuse that someone 
didn't send you a form. That just doesn't wash.
    Now, why didn't you file your income tax statement in 1996, 
the one that you are willing to say you do know that you didn't 
file? Why didn't you file in 1996?
    Mr. Trie. Because the investigation. I don't have no more 
paper.
    Mr. Shays. OK.
    Mr. Trie. All the paper is gone.
    Mr. Shays. When did they--give me the exact time they took 
your papers.
    Mr. Trie. I don't know. I don't have----
    Mr. Shays. No, no. That is--give me the date when they came 
and took your papers. You can't keep saying ``I don't know.''
    Mr. Trie. I was out of the country. I don't know when they 
search my apartment and my house.
    Mr. Shays. OK. Do you know what year it was?
    Mr. Trie. 1997.
    Mr. Shays. When did you leave the country?
    Mr. Trie. 1996, end of 1996.
    Mr. Shays. You left in 1996, and you were gone. And where 
did you flee to?
    Mr. Trie. I never flee.
    Mr. Shays. Yes, you did. You left the country. You fled.
    Mr. Trie. I left the country. I'm American citizen. I 
entitled to go anywhere in the world I want.
    Mr. Shays. Oh, you can, right. And an American citizen also 
has to file your income tax statement.
    Mr. Trie. Yes.
    Mr. Shays. And you can't say, well, I wasn't sent a form. 
You are an American--you can't claim you are an American 
citizen and have knowledge of some things and not others when 
they are so all basic.
    Now, when you fled the country, where did you go?
    Mr. Trie. Asia.
    Mr. Shays. Where in Asia? Don't be cute. Where did you go 
in Asia?
    Mr. Trie. China, Taiwan, Indonesia, Hong Kong, Macau.
    Mr. Shays. You went to Hong Kong and where else?
    Mr. Trie. Macau, China, Taiwan, and Indonesia.
    Mr. Shays. How long were you in China?
    Mr. Trie. Probably--approximately 4 or 5 months.
    Mr. Shays. OK. When you were in China or one of the other 
Asian countries, your apartment was broken into. Is that right?
    Mr. Trie. Not broken into. They have a search warrant.
    Mr. Shays. They have a search warrant.
    Mr. Trie. Yes.
    Mr. Shays. They came in. And they took all your papers.
    Mr. Trie. I believe so.
    Mr. Shays. OK. When was that?
    Mr. Trie. I don't know.
    Mr. Shays. You don't know what month?
    Mr. Trie. No, I don't know.
    Mr. Shays. Why wouldn't you know what month? I don't 
understand. You mean----
    Mr. Trie. Nobody inform--nobody inform.
    Mr. Shays. There was no one in your house?
    Mr. Trie. No. My apartment normally is empty.
    Mr. Shays. So it was totally empty?
    Mr. Trie. I believe so.
    Mr. Shays. But it had all your papers?
    Mr. Trie. Yes, I believe so.
    Mr. Shays. Well, how can it be empty and have papers? Maybe 
I am confusing----
    Mr. Burton. If the gentleman would yield, I think down in 
his office in Little Rock he had a secretary. Maybe you are 
talking about that.
    Mr. Shays. Well, I am just trying to understand--I just 
want to know when your papers were taken.
    Mr. Trie. I think FBI have the record, because I don't know 
the date.
    Mr. Shays. Isn't it a fact that the search warrant was 
October 1997?
    Mr. Trie. I don't know.
    Mr. Shays. Well, it was. So your income tax statement for 
1996 was due when, Mr. Trie?
    Mr. Trie. I think April.
    Mr. Shays. April 15th, what year?
    Mr. Trie. 1997.
    Mr. Shays. Right. So you can't give as an excuse that the 
government had your papers because they didn't take it by the 
time you were required to file it. Isn't that true?
    Mr. Trie. Oh, in that case, yes, this would be true. If 
they come in October 1997----
    Mr. Shays. So I am asking you the question: Why didn't you 
file your 1996 tax statement?
    Mr. Trie. Because my tax statement, normally is my wife 
file.
    Mr. Shays. So it is not now--you are changing your story. 
It is not now that the IRS had your papers? When you start 
telling lies, you get caught. When you start inventing things, 
you get caught. And it just gets messy. You basically told me 
something that wasn't true. You told me you didn't file your 
statement because the IRS had your--the government had your 
papers. In actual fact, the 1996 statement was due in April, 
and they didn't have your papers then.
    Mr. Trie. In my knowledge, I don't know when the search 
warrant come to my house.
    Mr. Shays. I will come back.
    Mr. Chairman, I will give him a chance to answer other 
questions.
    Mr. Burton. Mr. Barr, did you have questions?
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, might I inquire, for the record, the various 
exhibits, including those that I have referred to during my 
previous round of questioning to Mr. Trie, exhibits 52 and 58, 
those will be in the record? I do not have to move their 
specific admission?
    Mr. Burton. Mr. Barr, do you only want to submit questions 
for the record at this point?
    Mr. Barr. No, the exhibits.
    Mr. Burton. Oh, the exhibits. Without objection.
    Mr. Barr. All of the exhibits that we refer to will be a 
part of the record? OK. Thank you, Mr. Chairman.
    Mr. Trie, are you familiar with a company called United 
Biotech?
    Mr. Trie. Yes, I do.
    Mr. Barr. This is, in fact, a corporation that you 
incorporated in 1992; is that correct?
    Mr. Trie. Correct.
    Mr. Barr. Is it also correct that you listed United 
Biotech's address at No. 6 Alice Court, a home that you owned 
in the Broadmoor area?
    Mr. Trie. I cannot recall where the address is. I don't 
recall the address.
    Mr. Barr. The address that you used also, though, as the 
incorporator for United Biotech was a false address; is that 
correct?
    Mr. Trie. I'm sorry. I didn't understand.
    Mr. Barr. OK.
    Mr. Trie. Can we know the number?
    Mr. Barr. Your address, which you listed as the 
incorporator, was 5602 West 12th Street.
    Mr. Trie. Can I look at the record. I couldn't remember 
that time. What is the exhibit number?
    Mr. Barr. Well, you can look at whatever records. I mean, 
all I am saying is the address, this is your corporation.
    Mr. Trie. Yes.
    Mr. Barr. The address that was listed, that you listed as 
the incorporator, was 5602 West 12th Street.
    Mr. Trie. Can I look at the paper? I mean, that's a long 
time ago.
    Mr. Barr. Well, the fact of the matter is that the address 
was listed as 5602 West 12th Street, which was an address that 
did not exist. The people that reside in that neighborhood have 
never heard of United Biotech.
    What was the business in which United Biotech was involved?
    Mr. Trie. Oh, which is one biotech company in China, 
Northern China, called Changchun City. I sold some equipment, 
fermenter--fermenter equipment to them. And the director of the 
institute wanted--he wanted me to buy, if I can buy some more 
for him. I remember the case was--by the medicine bottle, clear 
bottle. So we formed a corporation, joint venture, in Little 
Rock.
    Mr. Barr. To do what?
    Mr. Trie. To sell the medical--like in that time we was 
talking about buy the bottle, shot, you know, for the shots.
    Mr. Barr. Some of the equipment that United Biotech was 
formed to sell were what are called dual-use bio fermenters, 
correct?
    Mr. Trie. No. I believe that Daihatsu sell that.
    Mr. Barr. What?
    Mr. Trie. That's Daihatsu, my company, sell the fermenter.
    Mr. Barr. I do not understand what you are saying.
    Mr. Trie. This ways, after United Biotech is after I sold 
the fermenter, we formed that.
    Mr. Barr. After you sold the fermenter?
    Mr. Trie. Yes, we formed this company.
    Mr. Barr. So the sale of the bio fermenter was before 1992?
    Mr. Trie. I think so, yes.
    Mr. Barr. Well, was it?
    Mr. Trie. Yes, I believe so. If I clear understand, we open 
this Bio--United Biotech, it's after he already sold the 
machinery to him. He wanted to do more bottle.
    Mr. Barr. What does it mean to say that something is a 
dual-use piece of equipment?
    Mr. Trie. Oh, I don't--I don't--at that time, I don't know. 
I just know that Biotech, the fermenter.
    Mr. Barr. But you do know that ``dual use'' means that the 
piece of equipment can be used both for civilian purposes, as 
well as weapons-related or military.
    Mr. Trie. I do not know that, in that time.
    Mr. Shays [presiding]. Excuse me. I just need to point out 
to the gentleman his time is up and say Mr. Scarborough has the 
floor.
    Mr. Scarborough. I yield my time to Mr. Barr.
    Mr. Barr. I thank the gentleman from Florida.
    The fact of the matter is that a dual-use bio fermenter is 
dual use because it can, in fact, be used for weapons-related 
purposes. That is a fact, and the weapons-related purpose is 
production of bacteria. That is a fact.
    Now, you can sit here all day, as you do in all of these 
lines of questioning, and profess ignorance. I do not buy it 
any more than Mr. Shays buys it. You were in the business of 
selling, or attempting to sell, bio fermenters that have a 
known military weapons use.
    Mr. Trie. I know now, after you tell. Before today, I don't 
even know that were being used supposedly----
    Mr. Barr. So it is your testimony under oath today that the 
first you have ever heard of this is when I just posed these 
questions to you?
    Mr. Trie. What you mean ``this''?
    Mr. Barr. Is it your testimony that the first you have 
heard----
    Mr. Trie. Today. Today.
    Mr. Barr [continuing]. Of this matter of dual-use bio 
fermenters, which you were attempting to sell in China, was 
today during my questioning? You had never heard of this 
before?
    Mr. Trie. I didn't sell this fermenter in 19--I think 
either 1991 or early 1990. But today I never know this field. I 
just sell the machinery. They request me the machinery.
    Mr. Barr. Maybe you could tell us what you thought you were 
selling.
    Mr. Trie. It's a fermenter.
    Mr. Barr. Do you think you were selling automobiles?
    Mr. Trie. No, it's a fermenter for the biotech use. I'm not 
in the biotech field. He just gave me the spec, everything what 
he want.
    Mr. Barr. Who is he?
    Mr. Trie. Mr. Chung. The director of the Changchun Biotech 
Institute. I thought this was used in for medicine.
    Mr. Barr. Mr. Chairman, I would like to submit, for the 
record, a letter, dated February 28th of this year, from 
Kenneth Alibeck to Caroline Katzin of this committee regarding 
the bio use or dual use for the fermenters, indicating that in 
the expert opinion of Mr. Alibeck, these fermenters do have 
weapons-related use for the production of bacteriological 
weapons.
    Mr. Shays. Without objection, so ordered. I notice that we 
are not represented on the Democratic side of the aisle, but I 
make an assumption there will be no objection.
    Mr. Barr. OK. Thank you.
    Would you please tell the committee who is Dr. Zhang 
Jiaming?
    Mr. Trie. He is the director of the Institute, of Changchun 
Biotech Institute.
    Mr. Barr. Is that the official Chinese Government Ministry 
of Public Health Biological Research Institute?
    Mr. Trie. I believe so. I only know the Chinese words.
    Mr. Barr. OK. When did you first meet him?
    Mr. Trie. Somewhere late in 1990.
    Mr. Barr. 1990?
    Mr. Trie. Yes.
    Mr. Barr. OK. And did Peter Fu introduce you?
    Mr. Trie. No.
    Mr. Barr. Who did?
    Mr. Trie. The name is Mr. Chi Ching [ph.]. He is the city 
government of the Changchun City.
    Mr. Barr. Who is Peter Fu?
    Mr. Trie. Peter Fu is my friend in Little Rock.
    Mr. Barr. OK. And it has never been your testimony or 
statement that Peter Fu introduced you to Dr. Jiaming?
    Mr. Trie. No.
    Mr. Barr. What is the relationship between Mr. Fu and Dr. 
Jiaming?
    Mr. Trie. Oh, just because I invite Dr. Jiaming come to the 
United States so we can form the United Biotech. I tried to 
sell some bottle for him. And Peter Fu is my real close friend. 
So I introduced to them because some of the technical words I 
might don't understand. Sometime I ask him to translate for me.
    Mr. Barr. And Dr. Jiaming worked at the Changchung 
Biological Products Institute; is that correct?
    Mr. Trie. Correct.
    Mr. Barr. And what does that institute do?
    Mr. Trie. Some of the shots for like--for--hold on.
    Mr. Hasler. May I repeat the translator, Mr. Barr, what he 
told Mr. Trie?
    Mr. Barr. Certainly.
    Mr. Hasler. Serum and oral vaccines.
    Mr. Barr. And is that Mr. Trie's testimony?
    Mr. Trie. Yes.
    Mr. Barr. You can adopt that as your testimony. That is 
your answer?
    Mr. Trie. Yes.
    Mr. Barr. Is the time up? Do I need to----
    Mr. Shays. Excuse me. Your time is up, and I have the time. 
I am happy to yield the time to you, my 5 minutes.
    Mr. Barr. OK. Thank you.
    Dr. Jiaming does hold a political position in China, does 
he not?
    Mr. Trie. I only know, in the time, I only know he is 
director of the Institute.
    Mr. Barr. But he is a deputy to the National People's 
Congress. That is not a question, that is a statement. He is a 
deputy to the National People's Congress.
    Mr. Trie. OK.
    Mr. Barr. Have you ever visited the Changchun Biological 
Products Institute?
    Mr. Trie. Yes, I did.
    Mr. Barr. When did you visit?
    Mr. Trie. When we talking about this fermenter, I went to 
look at the Institute.
    Mr. Barr. When?
    Mr. Trie. Oh, I think late 1990 or early 1991.
    Mr. Barr. And this was as part of your effort to sell a 
fermenting machine to the Institute, correct?
    Mr. Trie. Correct.
    Mr. Barr. And that machine was actually sold in 1993; is 
that correct?
    Mr. Trie. I don't have a record, but I did sell to them.
    Mr. Barr. Well, the fermenter was sold to them in 1993; 
isn't that correct?
    Mr. Trie. I couldn't recall the date.
    Mr. Barr. Actually----
    Mr. Trie. No, maybe earlier.
    Mr. Barr. November 1992 it was sold----
    Mr. Trie. Yes.
    Mr. Barr [continuing]. And delivered in July 1993.
    Mr. Trie. I don't know when the delivery because I don't--
--
    Mr. Barr. You sold it to them in late 1992.
    Mr. Trie. Yes. Yes.
    Mr. Barr. OK. And why was it necessary for you to be 
involved in this, if you do not have any particular background, 
as you have testified, in bio fermenting machines?
    Mr. Trie. He just want to buy. I'm the--many, in the early 
1990's, hardly people going to Northeast China, and I was 
trying to do my reach [ph.] in the city, and so I know some 
people. So people introduce me, say, since you from the United 
States. In that time, not many people come to the United States 
as I think, you know, especially in the Northeast Arkansas--I 
mean, not Arkansas--China. So they say, ``You know, would you 
help us to locate this product?'' And I think I want to make 
money, so I was having a trading company.
    Mr. Barr. How much did your company make off of the sale?
    Mr. Trie. I cannot recall. I think, I sold him I think two, 
and I think maybe somewhere around $15,000 each. I'm not sure 
now.
    Mr. Barr. Approximately.
    Mr. Trie. I really don't remember. Maybe $15,000 each.
    Mr. Barr. $15,000?
    Mr. Trie. Yes.
    Mr. Barr. The bio fermenter was produced by the Sulzer Co.; 
is that correct?
    Mr. Trie. Yes.
    Mr. Barr. And where was it manufactured?
    Mr. Trie. I think it's in Switzerland.
    Mr. Barr. Was it shipped to China directly from Switzerland 
or through the United States?
    Mr. Trie. I don't know because I don't know where is the 
shipping.
    Mr. Barr. Do you have a copy of your documentation from the 
Commerce Department regarding this sale?
    Mr. Trie. No.
    Mr. Barr. Can you produce that?
    Mr. Trie. Say again.
    Mr. Barr. Can you produce the documents?
    Mr. Trie. I don't have the documents. What your question 
is?
    Mr. Barr. What we have here is a piece of machinery that 
can be used for biological weapons.
    Mr. Trie. Uh-huh.
    Mr. Barr. That is a military use that is regulated by 
Federal law.
    Mr. Trie. As far as I'm concerned, at that time I do 
business, I'm the broker. I just help putting two people 
together, sign the deal. I don't know how they send a ship to 
China. I don't know.
    Mr. Barr. Well, the fact of the matter is this is a piece 
of machinery with very serious military consequences. It can be 
used to produce biological weapons. You were serving as a 
broker----
    Mr. Trie. Uh-huh.
    Mr. Barr [continuing]. For the sale of this piece of dual-
use machinery, with very serious national security 
consequences, regulated by U.S. law, which regulates its export 
or its sale, and you are saying you did not have to go through 
any procedures in order to secure proper documentation or 
approval from the U.S. Government.
    Mr. Trie. I didn't go through this because this is Sulzer's 
job. I--my job is find a buyer and find a seller. As long as 
they agreed, all I take is a commission. I didn't produce the 
machine, I don't have to export the machine. I didn't do the 
export machine. And where they come from, I don't even know.
    Mr. Barr. Do you care?
    Mr. Burton. The gentleman's time has expired. And I think 
you have the next time, Mr. Barr, so you are recognized for 5 
more minutes.
    Mr. Barr. Thank you.
    Do you care?
    Mr. Trie. I don't even know what's that. Until today, I 
didn't know it is a dual machine.
    Mr. Barr. Do you have any concern?
    Mr. Trie. I think this is for medicine in that time. If 
people doing medicine to help the people, I never think that's 
a wrong thing to do. And I'm just a broker. Somebody want buy 
something, I try to sell.
    Mr. Barr. So it does not concern you at all that this piece 
of machinery is now in the hands of the Chinese Government----
    Mr. Trie. To helping people, I don't have no concern of 
that part. But I don't know the----
    Mr. Barr [continuing]. And may be being used to produce 
biological weapons.
    Mr. Trie. I do not know it's a weapon.
    Mr. Barr. Does that concern you that that may be happening?
    Mr. Trie. Right now?
    Mr. Barr. Right now.
    Mr. Trie. Ten years ago the business is--if it happens, 
something happens, I just sell the machine. What they do, I 
don't know.
    Mr. Barr. You know, we heard these defenses at Nuremberg 
too.
    Mr. Trie. No, no. The field I have, I do not know what they 
going to do with it. But I know only thing they want to do is 
for the--if they don't buy from me, they will buy from somebody 
else. They're going to get it. What they going to use for, I 
really don't have a--I don't know.
    Mr. Barr. So in your view, we should not have any export 
controls at all because they will get it from somewhere else 
anyway.
    Mr. Trie. I thought they was making medicine. If they--if I 
thought they would produce the poison thing for people, I would 
not agree, and I would not do it.
    Mr. Barr. Is that you or your attorney saying that? Because 
that is not what you said just a few minutes ago, until your 
attorney whispered it in your ear.
    Mr. Trie. Yeah, he told me that, and I agree.
    Mr. Barr. He is a very smart attorney, I guess.
    This really, I mean, this is amazing. You are saying people 
were bringing money to you to make donations, people were 
coming to you to ask them to get them on DNC committees, people 
were coming to you and asking to broker the sale of 
sophisticated machinery, and it is like you are walking around 
in a daze. You are wearing blinders, you have ear plugs, you 
have tape over your mouth, you have gloves on your hands so 
that there are no fingerprints. You have no idea what is going 
on.
    This was a piece of machinery that is very clearly one with 
military applications. It is not a secret. It is a well-known 
piece of machinery. And you would have us believe that you were 
not even concerned about it----
    Mr. Trie. Not until today----
    Mr. Barr [continuing]. Until your attorney tells you you 
were concerned about it.
    Mr. Trie. Not until today, I don't know. I don't know what 
the machine. All I know the machine would help.
    [Mr. Trie conferred with counsel.]
    Mr. Trie. All I know is the machine is used for fermenting 
pharmaceutical product.
    Mr. Barr. Just not that you are concerned about it, but I 
will have a copy of this letter delivered to your table. This 
is a letter that I have already had introduced into the record, 
which says very clearly that this is a piece of machinery that 
has weapons or that can be used for weapons-related production 
of bacteria. And I think it is a shame that you were engaged in 
this and, at best, had no interest in what was going on here.
    As Mr. Shays said, I do not think you are a stupid man, Mr. 
Trie. I think you are very bright, and I think you know an 
awful lot more than you are letting on today, and I think you 
knew an awful lot more about what you were doing in these 
transactions than you are letting on today.
    Thank you, Mr. Chairman.
    Mr. Trie. Mr. Chairman, can we have a break?
    Mr. Burton. The gentleman yields back the balance of his 
time.
    You need a 5-minute break?
    Mr. Trie. Please.
    Mr. Burton. We will recess for 5 minutes and hope we can 
get back promptly.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    We had talked to the counsel for Mr. Trie, and I want to 
make sure that we have an ironclad agreement. And that 
agreement is, as I understand it, that we will conclude the 
hearing today, but Mr. Trie will remain under oath and that 
there would be up to 2 days' questioning by majority and 
minority staff to conclude any additional questions that need 
to be answered by Mr. Trie and that that would be presented to 
the committee after that is concluded. And if that is agreed to 
by counsel for Mr. Trie, that is how we will proceed. And we 
hope to finish, if that agreement is agreed to, by no later 
than 6 tonight and probably a little bit earlier than that.
    Mr. Weingarten. It is agreed, Mr. Chairman. I would simply 
add the interviews will be conducted similar to the interviews 
that were conducted yesterday of Mr. Trie, counsel have agreed, 
and it is the expectation that there would not be, absent 
extraordinary circumstances that have been explicitly discussed 
with counsel, there would not be further need for Mr. Trie's 
public testimony.
    Mr. Burton. The only exception to that would be, after--we 
have agreed with the Justice Department that, regarding Mr. 
Green, and Mark Middleton and Jude Kearney, those three, we 
agreed with Justice that we would not ask questions about those 
during these hearings, which we will honor. But if after 
Justice concludes their investigations there is a need, which 
we do not expect, then we might ask Mr. Trie for additional 
information. But barring that, we would not see a need to have 
him come back.
    Mr. Weingarten. We have an understanding.
    Mr. Burton. OK. We have an agreement then, and we will try 
to conclude. And I will now yield--is Mr. Barr back? Are we 
going to Mr. Barr or Mr. Souder?
    Mr. Souder, you are recognized for 5 minutes.
    Mr. Souder. I thank the chairman.
    And, first, I want to express concern about some of the 
last questions with Mr. Barr because there are really two types 
of things we are doing here. We are trying to see kind of--
well, three--the global question of what this money might have 
been trying to do or accomplish. Were people trying to buy 
influence in some way? Was it on purpose or accidental that 
some things got out, and national security concerns?
    The second thing is what is happening with the campaign 
finance laws and what do we need to do; and then, third, much 
like in Watergate, what parts were covering up or trying to 
obstruct justice so that we could not learn about the facts.
    Now, what I was concerned about with Mr. Barr, and I will 
make a brief comment and then yield so he can finish up, but 
that what we saw in this last round of testimony is why many of 
us are concerned about some international trade agreements and 
things because it was kind of like I heard you say under oath 
that, well, other people would have sold the stuff anyway. You 
appeared to not have known what it could be used for, but you 
certainly did not seem to want to ask very many questions.
    That is similar to what the Cox report told us, which was 
is that they are in a re-insurance case. They found one part 
that, in fact, gave the People's Republic of China the ability 
to reach our land mass with nuclear missiles, but some people 
were so concerned about their insurance policies, and so 
concerned about making the sale and so concerned that somebody 
else might get it anyway, that our national security was 
compromised.
    And that is why part of the point of these kind of hearings 
in oversight and reform is to say, look, our business community 
needs to be more careful about what they are doing and ask more 
questions. It is not enough just to say other people are going 
to do it, I did not know, because we have had serious breaches 
in our national security. And if biotechnology gets out and 
chemical weapons technology that otherwise would not have been 
there, that is of deep concern to our Government.
    I yield to Mr. Barr.
    Mr. Barr. Thank you.
    Following on the discussion, Mr. Trie, of the bio 
fermenter, since the sale of the bio fermenter that we were 
talking about earlier, have you had any further dealings with 
Mr. Lohser?
    Mr. Trie. Mr.--what's his name?
    Mr. Barr. Mr. Rene Lohser.
    Mr. Trie. Is he from the Sulzer?
    Mr. Barr. Biopro International, Inc.
    Mr. Trie. I don't recall his name.
    Mr. Barr. He was with Sulzer----
    Mr. Trie. Oh, yes, OK.
    Mr. Barr [continuing]. Prior to that.
    Mr. Trie. No. Never. Never have I any contact.
    Mr. Barr. OK. In other words, documents in 1994 between you 
and Mr. Lohser would be fraudulent documents?
    Mr. Trie. I couldn't recall. Can I look at the document?
    Mr. Barr. The sale of the bio fermenter was concluded in, 
what did we establish, 1992, you testified.
    Mr. Trie. Uh-huh. Uh-huh.
    Mr. Barr. Right?
    Mr. Trie. Yeah, somewhere around that.
    Mr. Barr. It was also your testimony that this was just a 
one-time deal.
    Mr. Trie. Yes. Correct.
    Mr. Barr. OK. There are documents here from 1994, as late 
as May 1994, between you and Mr. Rene Lohser discussing a 
continuing commercial relationship.
    Mr. Trie. Can I look at the letter?
    Mr. Barr. Sure. And maybe then you can either change your 
testimony or tell us that these documents are fake, which would 
be of concern to us.
    Mr. Chairman, while Mr. Trie is reviewing those documents, 
I would like to ask unanimous consent to have the packet 
included in the record.
    Mr. Burton. Without objection, so ordered.
    Mr. Trie. If my recollection was after we sold this 
machinery, I believe, what's his name, he wrote--Rene Lohser--
he, I believe he wrote a letter, and I didn't read the letter, 
but he, in my memory, he move or he be independent--he 
represent somebody else, that may be the case, so he wrote me a 
letter. And maybe when we have the people coming, which I tried 
to show people who we know, and we probably wrote a letter to 
him. But I don't believe we ever met.
    Mr. Barr. But these documents before you, and in 
particular, for example, the January 10th, 1994, memo to you 
from Mr. Lohser----
    Mr. Trie. Uh-huh.
    Mr. Barr. And the May 27th memo from Mr. Lohser to you, you 
know do recognize those documents, correct?
    Mr. Trie. Correct. I mean----
    Mr. Barr. OK. So----
    Mr. Burton. Mr. Barr, your time has expired. We will now 
yield to Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I would like to 
yield to my friend from Georgia, Mr. Barr.
    Mr. Barr. I thank the gentleman from Ohio.
    Mr. Trie. And so why I have the----
    Mr. Barr. These documents are evidence that your----
    Mr. Trie. Oh, OK.
    Mr. Barr [continuing]. Relationship with Mr. Lohser did, in 
fact, continue after the sale of the bio fermenter; is that 
correct?
    Mr. Trie. On the letter, first, is Dia Mapili wrote. I tell 
her to write to whoever we have contact with, but I don't 
believe I ever met him any more. The question you want----
    Mr. Barr. I really did not ask you if you had met him.
    Mr. Trie. Oh, but my understanding was you think I met, you 
know----
    Mr. Barr. No. You are being very clever. Thank you. I never 
asked you if you met him. What I am interested in is the 
continuing relationship between the two of you. People can have 
a relationship without ever meeting each other. They can 
communicate through checks, through memos, through faxes, 
through phone calls. These two documents reflect that you had a 
continuing relationship with Mr. Lohser that continued at least 
through May 27, 1994; isn't that correct?
    Mr. Trie. Correct.
    Mr. Barr. OK. This most recent document, dated May 27th, 
1994, indicates very clearly that Mr. Lohser is corresponding 
with you in an effort to have you assist them in procuring 
additional equipment for sale to China; is that correct?
    Mr. Trie. Correct.
    Mr. Barr. And he refers, at the last paragraph of that 
memo, to President Clinton; is not that correct?
    Mr. Trie. Correct.
    Mr. Barr. In the January 10th, 1994, memo, there are 
several types of products in which you are engaged discussing 
with him, including incubation shaker cabinets, fermenter 
systems--state-of-the-art fermenter systems, that is--control 
systems, high-tech dryers and mixers for pharmaceuticals, 
sensors. Did you, in fact, provide any of that equipment?
    Mr. Trie. No.
    Mr. Barr. So the relationship with Mr. Lohser did not go 
beyond discussions of that possibility. You never consummated 
any further deals.
    Mr. Trie. I think so.
    Mr. Barr. You are sure.
    Mr. Trie. I am kind of sure because I only deal with him 
once. One deal, that's all I have.
    Mr. Barr. Well, we have already established that that is 
not true, so I would caution you not to----
    Mr. Trie. Sell the machinery, that's only one deal. Right. 
OK.
    Mr. Barr. But there were no further discussions with him 
and no further sales.
    Mr. Trie. I don't believe I have any sale.
    Mr. Barr. Were there any further sales in which you were 
involved at all?
    Mr. Trie. I don't--I don't recall any.
    Mr. Barr. Were there any?
    Mr. Trie. I don't think so.
    Mr. Barr. Were there any?
    Mr. Trie. No.
    Mr. Barr. Thank you. Were there any further discussions 
regarding further sales?
    Mr. Trie. This letter, yes.
    Mr. Barr. Other than that?
    Mr. Trie. I don't believe so.
    Mr. Barr. Were there?
    Mr. Trie. No.
    Mr. Barr. No. Thank you.
    I yield back.
    Mr. LaTourette. I would yield the balance of my time to Mr. 
Souder.
    Mr. Souder. Thank you.
    As I explained, Mr. Trie, that one of the things is we are 
actually having several different lines of questioning. And my 
line of questioning, for a period of time now, and we did this 
with Mr. Huang and others, too, because different ones of us 
have a different section of this. My line of questioning is 
really going to be more after the first articles broke, and I 
am going to be asking a number of questions about things that 
happened after that because I am a little unclear on some of 
the facts.
    Exhibit No. 233 was a story in 1996, on September 21st, in 
the Los Angeles Times, that first mentioned John Huang. Is that 
when you first learned about the story or when did you first 
learn? That day? The next day? And what was your reaction? It 
is exhibit 233. It is the first story that mentioned John 
Huang.
    [Exhibit 233 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.067
    
    [GRAPHIC] [TIFF OMITTED] T8344.068
    
    [GRAPHIC] [TIFF OMITTED] T8344.069
    
    Mr. Souder. Apparently, yesterday----
    Mr. Trie. I don't remember the date, but I remember the 
campaign finance broke the first day was September the 4th in 
the Wall Street Journal, if I'm not wrong.
    Mr. Souder. My question is it is clear you called John 
Huang on September 23rd. Do you know what you discussed at that 
point?
    Mr. Trie. I cannot remember. Where he was? In Washington, 
DC?
    Mr. Souder. I do not know the answer to that question. The 
reason I am asking is because that is 2 days after the 
September 21st story. What I am really trying to find out is 
did you, when you first learned about this, did you talk to 
John Huang? Did you express any concern to him about the story 
breaking?
    Mr. Trie. I remember it was, I say, ``John Huang, you're a 
big man,'' because he was on TV. I don't think I read the 
newspaper.
    Mr. Souder. On September 23rd, you do not remember what you 
talked to John Huang about?
    Mr. Burton. The gentleman's time has expired. But without 
objection, we will, since we have no opposition to time 
limitations, we will yield the gentleman 15 minutes, without 
objection.
    Mr. Souder. I thank the chairman.
    Because what it looks like is something triggered a series 
of calls. On September 23rd, you called John Huang; on 
September 25th, you called Richard Sullivan at DNC; on 
September 23rd, you called Mr. Riady; on September 26th and 
27th, you called Joe Giroir. That is a fast cluster of calls. 
And what I want to ask you, you do not remember what you talked 
to John Huang about, other than to say you think that may be 
when you said about TV, but you are not sure.
    Mr. Trie. For my recollection was John Huang was stay at my 
house. I tell him that. I talk to him. I don't think I make a 
phone call to him. Probably he stay at my house, use the phone 
to call those people. I never call James Riady. I never call 
Joe Giroir. I never call--who else was the name? I didn't make 
the phone call.
    Mr. Souder. Who was staying at your house that day?
    Mr. Trie. John Huang.
    Mr. Souder. John Huang. So he was at----
    Mr. Trie. He probably call home.
    Mr. Souder. So when the Los Angeles Times story broke, the 
first national news story, on September 21st, John Huang was at 
your house then the next few days?
    Mr. Trie. Yes. I don't know. I do not remember the exactly 
date, but he was staying at my house for I think for 6 or 7 
days, if I'm not wrong.
    Mr. Souder. In September.
    Mr. Trie. Yes, I think so.
    Mr. Souder. Did you invite him to your house?
    Mr. Trie. Yes.
    Mr. Souder. Because of the news story that was breaking or 
how did you invite him to----
    Mr. Trie. Well, I remember because he say he was under some 
people was looking for him to talk about. He live far away. So 
he say, ``Can I stay at your apartment?'' I say, ``Sure.'' My 
apartment was empty, only by myself.
    Mr. Souder. Where were you living at that time?
    Mr. Trie. Watergate complex.
    Mr. Souder. And you believe that the calls, you say you did 
not call Richard Sullivan.
    Mr. Trie. I don't recall I call Richard Sullivan.
    Mr. Souder. And you did not call Mochtar Riady.
    Mr. Trie. No.
    Mr. Souder. And you did not call Joe Giroir.
    Mr. Trie. No.
    Mr. Souder. On the 27th and 28th, there were four to five 
more calls to Mochtar Riady, but----
    Mr. Trie. I did not make any of them.
    Mr. Souder. Did Mr. Huang talk to you about those calls or 
what he might have----
    Mr. Trie. No. No.
    Mr. Souder. Did he tell you he was making those calls?
    Mr. Trie. No, he didn't tell me because I was--sometime I 
go out.
    Mr. Souder. Did you know he was making all these long 
distance calls on your line?
    Mr. Trie. No.
    Mr. Souder. Would that have bothered you?
    Mr. Trie. No.
    Mr. Souder. So do other people use your phone? I mean, 
those are to Indonesia----
    Mr. Trie. Yeah, many people--if they come to my house, they 
use the phone.
    Mr. Souder. On October 7th, John Huang's name was mentioned 
again in the national press, and you made another series of 
calls to key figures in this investigation. And I am going to 
ask you about a number of these calls too. You called Melinda 
Yee on October 10th. Now, did you make that call or was?
    Mr. Trie. I don't think so. I didn't recall I make the 
call.
    Mr. Souder. Was John Huang at your apartment again then?
    Mr. Trie. I cannot remember the date. What's the date?
    Mr. Souder. October 10.
    Mr. Trie. I really don't remember Melinda Yee or who else.
    Mr. Souder. You called Cassidy & Associates three times on 
October 10th.
    Mr. Trie. Cassidy Associates, I don't recall his name.
    Mr. Souder. My next question was whom did you call, talk to 
on those three calls. You do not know who you would have talked 
to at----
    Mr. Trie. I don't know.
    Mr. Souder. Because the phone logs show that you called 
Cassidy & Associates or someone in your apartment called 
Cassidy & Associates three times in 1 day, and we wondered 
who----
    Mr. Trie. Can I look at the name of the associates. I may 
have a memory on the telephone number.
    Mr. Souder. Richard Mays. Richard Mays.
    Mr. Trie. Richard Mays? Who else?
    Mr. Souder. Who else would be at the firm? It came up in 
John Huang's hearings, too, but I forget the--Maeley Tom, she 
worked at the White House.
    Mr. Trie. I don't believe that I made that call. I couldn't 
remember, but I don't believe I never--I don't think I talked 
to Maeley Tom.
    Mr. Souder. It was at Cassidy----
    Do you recall Cassidy & Associates at all, that you----
    Mr. Trie. No.
    Mr. Souder. Who would be making these calls at your 
apartment? I mean, I am trying to understand. Do you have lots 
of people who come through your apartment? Is it a place where 
business people stay? Is it a fairly rare thing? I mean, these 
are pretty high-level calls to some pretty influential people 
who are involved in a lot of this entanglement. And the first 
group of calls, John Huang was in your apartment, and you were 
not aware of what the substance was and so on. Now, on October 
10th, we have a whole other flurry of calls that I have a whole 
series of questions about.
    And who would be making these calls to these high-level 
people, particularly high level in the Asian financial 
community?
    Mr. Trie. All those names you mentioned, I know them. 
Melinda Yee, Richard Mays----
    Mr. Souder. Maeley Tom. I forget----
    Mr. Trie. Tom--Maeley Tom.
    Mr. Souder. Yes.
    Mr. Trie. One more name?
    Mr. Souder. Partly under our agreement, I cannot ask my 
next question.
    Did you call John Huang on October 10th?
    Mr. Trie. I don't believe so. Where was John Huang? What's 
John Huang's number?
    Mr. Souder. Do you have a number for John Huang?
    What happened is that same week is when the New York Times 
and Wall Street Journal articles occurred. So the first rash of 
calls came out of your apartment after the story broke 
nationally. And then there was this rash of calls to a lot of 
the people who are networked in this that we are trying to find 
out what their involvement was: Richard Sullivan, Mochtar 
Riady, Joe Giroir.
    Then, on October 10th, two more stories break, and there is 
another bank of calls coming out of your apartment. And we are 
trying to see if they are related or who was making these calls 
then, if it was not you at your number.
    Mr. Trie. Maybe John Huang stay longer than I think, but I 
couldn't recall the time.
    Mr. Souder. Because you testified earlier you thought 6 
days, did you say, originally?
    Mr. Trie. I thought it was 6 days. I didn't remember. That 
was a long time ago. Because if people stay at my apartment, I 
never--I mean, I don't care.
    Mr. Souder. Were you concerned that your name was going to 
be tied in with his, since he was staying at your apartment and 
your name had not surfaced yet?
    Mr. Trie. We are friends. I mean, I recall the words I 
used, ``You're a big man.'' He laughing, and he say, ``You'll 
be next.'' That's all I know.
    Mr. Souder. If we could put exhibit 235 up, which I believe 
is actually in Chinese, but we have a transcription of it too. 
There is a news article in which John Huang stated that at the 
time he was staying in your apartment, you wore a disguise 
whenever you left. Is that true? Did you wear a disguise during 
that period when you left the apartment?
    [Exhibit 235 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.070
    
    [GRAPHIC] [TIFF OMITTED] T8344.071
    
    [GRAPHIC] [TIFF OMITTED] T8344.072
    
    [GRAPHIC] [TIFF OMITTED] T8344.073
    
    [GRAPHIC] [TIFF OMITTED] T8344.074
    
    Mr. Trie. Which part of this letter? Oh, the following 
page? That's not my writing.
    Mr. Souder. It is in the last page, on page 4, in the 
English translation. It says, ``In the evening, when he had to 
buy food for him,'' that you had to wear disguises in order to 
avoid being detected. That is the translation. So it would be 
at the end--it is on page 4, see in the third line down. This 
is the translation it says, in the evening, you had, when you 
went to buy food for him, you had to wear disguises in order to 
avoid being detected. Is that statement true?
    Mr. Trie. Let me look at it.
    I'm sorry. Let me clear this whole question. You think--I 
know he was in newspaper, yes, and he stay at my house. But the 
question of this one was that----
    Mr. Souder. My question is that, according to this article, 
while he was staying, that in order to buy food for him, you 
had to wear disguises in order to avoid being detected, and is 
that true?
    Mr. Trie. I'm sorry. What is ``disguise''?
    Mr. Souder. A disguise is something so people would not 
recognize you. It could be anything from a wig to a----
    Mr. Trie. I never--disguise, I never disguise.
    Mr. Souder. So your testimony is that this is incorrect, 
whoever made this statement.
    Mr. Trie. I didn't--I buy food. I do. I did buy food.
    Mr. Souder. But you did not try to hide from it. You just 
went in as your normal self and----
    Mr. Trie. Yeah, I just--because I wasn't----
    Mr. Souder. See, what I am getting to, earlier I asked you 
were you worried you were going to be caught up in this as 
well, and when you said no, that did not reconcile with this 
statement that said that you were afraid of being identified 
and detected during that period while he was----
    Mr. Trie. No, no, no. I never was worried about myself. I 
don't have no--because I wasn't in the newspaper. I don't have 
to be hide myself. I don't know the reason I hide myself. I buy 
food for him, yes.
    Mr. Souder. So your testimony----
    Mr. Trie. I just go out. I always go out every day. I 
never, what you call it? The disguise.
    Mr. Souder. You said you had Mr. Huang there because he was 
your friend. Were you close friends or how long had you known 
him? What kind of relationship did you have?
    Mr. Trie. We knew each other since 1994. There was, I 
believe, an Asian event or maybe people introduce him. But I 
know him. I know his name.
    Mr. Souder. And he----
    Mr. Trie. He was working, I think he was working Commerce 
Department in that time. I have his card, and I went to his 
office, I remember, maybe two times, maybe no more than three 
times. We become friends.
    Mr. Souder. Had he ever stayed at your apartment prior to 
this? Before the scandal broke, did he ever stay with you at 
your apartment?
    Mr. Trie. I couldn't recall, but yesterday I did find out 
he was staying there once with James Riady and who else? But I 
just let him stay. I think because Antonio Pan was in the 
apartment.
    Mr. Souder. But this was pretty extraordinary for him to 
stay there a week, possibly, based on what you said a little 
bit ago, it could have been even 3 weeks. You are not even sure 
because you recollected at least 6 days, I think you said. And 
then when I asked you about October 10th, you said, well, maybe 
he stayed longer, which would be another 1\1/2\ to 2 weeks. 
That was pretty extraordinary; in other words, he had never 
stayed with you 3 weeks prior to the scandal breaking.
    Mr. Trie. Yeah.
    Mr. Souder. You told the FBI that when you teased Mr. Huang 
about his name being in the papers, he responded, ``You're 
next''; is that true?
    Mr. Trie. Correct. Correct.
    Mr. Souder. What did he mean by that?
    Mr. Trie. Asian community--I don't know what he mean about 
that, but he just say that. That's what I recall.
    Mr. Souder. Did it worry you?
    Mr. Trie. I'm sorry?
    Mr. Souder. Did you worry? Did it scare you? Did it 
frighten you?
    Mr. Trie. Not in that time. I was thinking a newspaper is 
a--that's why I tell him he's a big guy.
    Mr. Souder. Did you discuss with Mr. Huang about how to 
avoid being next, about how you might get entangled with this 
and what could you do not to get caught up in what he was in?
    Mr. Trie. In that time, I think I was worried about him 
because he was saying that the gentleman's name called Larry 
Klayman was--that's what I tried to remember that, that 
conversation. That's all I know. He was--he say Larry Klayman 
want to interview him or something.
    Mr. Souder. Did Mr. Huang tell you what he was going to do 
if he was subpoenaed to testify?
    Mr. Trie. Oh, yeah. He--I remember the words. That's the 
first time I heard the words. He says he might use the fifth 
amendment.
    Mr. Souder. And what did you interpret that to mean? If 
that was the first time you heard the word ``fifth amendment,'' 
what did you--did he tell you what that meant?
    Mr. Trie. Not a whole, whole lot because I don't want to 
act like I'm stupid or he say that I didn't listen. I don't 
think he explained to me what's the fifth amendment.
    Mr. Souder. Did he describe it to you as saying that this 
means we do not have to talk, we do not have to tell them 
anything?
    Mr. Trie. I couldn't recall that, that way.
    Mr. Souder. Did you ever discuss with Mr. Huang whether he 
was going to leave the country?
    Mr. Trie. No, I don't think--him?
    Mr. Souder. Yes.
    Mr. Trie. I don't think so.
    Mr. Souder. So----
    Mr. Trie. He's just my friend. I don't know what he want to 
do.
    Mr. Souder. Did you drive him around town in October 1996 
after his name appeared in connection? And why would you have 
driven him around town?
    Mr. Trie. No, I remember he was saying he want to go to--
there's a Metro train station in near Maryland. He wanted me to 
help me to go to his father-in-law's house to get clothes, so 
he stay. That's why I drove him to there.
    Mr. Souder. Could that be where any of the disguise 
question came up? Was either you or he disguised so it would 
not be known you were driving him?
    Mr. Trie. No.
    Mr. Souder. On exhibit 236, the logs show that you called 
Mr. Huang 15 times in 6 days, October 25th to October 31st. Do 
you know what you were calling him about and what you discussed 
in those calls? Do you recollect?
    [Exhibit 236 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.075
    
    [GRAPHIC] [TIFF OMITTED] T8344.076
    
    Mr. Trie. No, I didn't make the call.
    Mr. Souder. I am sorry. We had to pull 236 prior to the 
other agreement.
    Because the log shows where some of the calls went and a 
few of those we cannot discuss, could you say what the general 
purpose of some of those calls were with Mr. Huang? What would 
you have been discussing, do you recall?
    Mr. Trie. What's the date?
    Mr. Souder. October 25th was the first call, October 31st 
was the last, and there were 15 in 6 days.
    Mr. Trie. From my apartment to where? To where? Can you 
tell me to where?
    Mr. Souder. We are checking. It could be either to his, 
they would have been to his office. What was clear from our 
earlier testimony is he had multiple offices where he would be. 
He was working, while he was at the Commerce Department, he was 
also working with another agency across the street.
    It was both his office and his home. The 15 calls were both 
to his office and his home.
    Mr. Trie. From Watergate apartment?
    Mr. Souder. Oh, you mean where was your call from?
    Mr. Trie. Yeah, yeah, yeah.
    Mr. Souder. It is from your apartment.
    Mr. Trie. From my apartment. I didn't make those calls.
    Mr. Souder. Who would have been at your----
    Mr. Trie. In that time, I don't know.
    Mr. Shays [presiding]. Excuse me. The gentleman's time is 
up. Mr. Hutchinson has 15 minutes. Without objection, and I do 
not know if he would want to yield you any time to finish up.
    Mr. Hutchinson. I would be happy to yield to the gentleman 
from Indiana.
    Mr. Souder. So this is another time now. Who would be at 
your apartment during this period? I mean, let me just give you 
what is troubling me. It is starting to look like Grand Central 
Station of an organized operation. I mean, I am not saying 
anything, but you are telling me that after the first story 
broke, John Huang is at your apartment, and there are calls 
going to Richard Sullivan at the DNC, to Joe Giroir, to Mochtar 
Riady, but you did not make any of those calls.
    Then, when we start to go through a series of questions to 
key principals in investigation of October 10th, you did not 
make those calls, and maybe John Huang stayed longer than you 
thought.
    Now, I come to the end of the month, from October 25th to 
the 31st, and there are 15 calls to Mr. Huang and, once again, 
somebody at your apartment has made these calls. Did you have 
somebody else staying with you in that period that you know of 
or who----
    Mr. Trie. Late in 1996, Antonio Pan was stay with me.
    Mr. Souder. In October. So Antonio Pan----
    Mr. Trie. I mean, I'm not quite sure. But I'd say late 
1996--since 1996, September, Antonio was there, but I don't 
know when he left. Oh, no, but in the--he probably already 
left.
    Mr. Souder. What was the dates again?
    Mr. Trie. Antonio Pan.
    Mr. Souder. Yeah, and what dates on Antonio Pan did you 
think he was there?
    Mr. Trie. I couldn't remember, but I should have record for 
that when he go out of the country. But maybe John Huang stay 
longer. I just don't remember.
    Mr. Souder. Let me, I am going to try to jump some 
questions here. Did you talk to anybody at the Lippo Group 
during any of this period, in September, October or November 
1996?
    Mr. Trie. No.
    Mr. Souder. When the scandal was first breaking. Did you 
call anyone in China or Taiwan in that period in 1996, fall?
    Mr. Trie. If I see the name--telephone number, I will 
recall. I will know it's my call or somebody else call.
    Mr. Souder. But you do not recall talking to anybody about 
the press reports, the scandals breaking. You did not make any 
calls that you know of to Taiwan or China about the press 
breaking in this story?
    Mr. Trie. I couldn't remember.
    Mr. Souder. Did you speak to Mr. Wu--Ng Lap Seng?
    Mr. Trie. I don't recall. But I went to Macao after I left 
the country.
    Mr. Souder. What day did you leave again? I forget.
    Mr. Trie. One of them I remember was somewhere around 
December.
    Mr. Souder. OK.
    Mr. Trie. But if I see this----
    Mr. Souder. So it was after this critical period, but not 
very long after.
    Mr. Trie. Uh-huh.
    Mr. Souder. Did Mr. Wu or anyone else pay your attorney 
fees?
    Mr. Trie. No.
    Mr. Souder. I am going to jump to another question. On 
December 16th there was a White House Christmas party where 
Simon Chien attended that Christmas party. Did you use false 
identification to get him into the White House?
    Mr. Trie. Yes.
    Mr. Souder. Whose identification did you use?
    Mr. Trie. Reynaldo Mapili.
    Mr. Souder. Did anyone give you a hard time about getting 
into the White House?
    Mr. Trie. No.
    Mr. Souder. Does he look like Mr. Mapili?
    Mr. Trie. It was a dark night.
    Mr. Souder. Did it seem strange to you that there would not 
have been more of a background check on a false ID going into 
the White House?
    Mr. Trie. No, not on a social party. We just mentioned the 
name.
    Mr. Souder. Why would you have used a false ID?
    Mr. Trie. I remember this might be, I don't know if it's 
right or wrong, but I can check, this was for Arkansas people 
to go to the party. So I think I used an Arkansas ID, which I 
have one.
    Mr. Souder. Was Reynaldo Mapili, was he from Arkansas?
    Mr. Trie. Yeah, he's in Arkansas.
    Mr. Souder. You were at that event, also, right?
    Mr. Trie. I'm sorry?
    Mr. Souder. At the White House Christmas party?
    Mr. Trie. Yes.
    Mr. Souder. Did you see the President?
    Mr. Trie. Yes.
    Mr. Souder. And what did you tell him?
    Mr. Trie. All I remember is I say, ``Sorry for the trouble 
we caused.''
    Mr. Souder. What did he say?
    Mr. Trie. Something like he say, ``I'm used to this kind of 
attack,'' something like that.
    Mr. Souder. Did you introduce Mr. Chien to him?
    Mr. Trie. No, not at that party.
    Mr. Souder. You said, ``Sorry for all of the trouble we 
caused''?
    Mr. Trie. Yes.
    Mr. Souder. Who is ``we''?
    Mr. Trie. This is campaign finance scandal.
    Mr. Souder. Who is the ``we''? Usually, you use the first 
time personal. Who is the ``we'' in that case?
    Mr. Trie. I just say it. I didn't mean ``we'' or ``I.''
    Mr. Souder. The ``we'' was not John Huang, and it is an 
interesting choice of words because it is different than what 
we had in our previous depositions. And I know that is your 
testimony, that you said ``we'' or ``I''?
    Mr. Trie. I don't recall. Can I look at?
    Mr. Souder. Well, you previously had said you had not said 
``we.'' That was just, in your 302s, that you had said ``I.''
    Mr. Trie. Oh, I mean, ``I.''
    Mr. Souder. One last question.
    President Clinton said that you did not know whether what 
you were doing was wrong, implying that it was a different 
culture. Do you agree that you did not know what you were doing 
was wrong? Did you think it was OK to have a false ID to come 
into the White House when we have all kinds of security 
problems and concerns? Did you think it was OK to break up the 
finance funding that we have been hearing about here?
    The President made a statement that, for example, Senator 
Bennett of Utah was taken to task for as being a prejudicial 
statement as being a prejudicial statement that somehow, and 
you said in your written statement, that, in fact, that this 
was, to some degree, picking on Asian Americans.
    Quite frankly, we are equal opportunity employers here. We 
pick on everybody who has not followed the law, and I, 
personally, am unhappy because I believe it is wonderful to 
have Asian Americans, Hispanic Americans, all Americans 
involved in the political system. But the question is what did 
the President mean when he said you did not know that what you 
were doing was wrong?
    Mr. Trie. I don't--I don't see--I didn't see this----
    Mr. Souder. Do you agree with that?
    Mr. Trie. I didn't see this comment.
    Mr. Souder. Do you agree with that, that you did not know 
what you were doing was wrong? And if so, why didn't you know 
what you were doing was wrong?
    Mr. Trie. Your question is this ID?
    Mr. Souder. On the ID. Actually, I am asking you a whole 
series of questions. I assume he was also talking about when 
you were given large sums of money, you assumed that that money 
did not need to be accounted for in the normal ways that we, I 
mean, the way the law says; that the question is that the 
President implied that that is because in the Asian culture you 
did not feel you had to follow our traditional laws.
    And the question is was that a biased statement coming out 
of the President or is that, in fact, true that you thought--
that, as you have testified, you are an American citizen from 
Arkansas, why would you not be following the same laws that 
everybody else was following? The same rules that everybody 
else was following. Or do you agree with the President that it 
was a cultural thing?
    Mr. Trie. I cannot comment on what he say. But at the time 
I made the contribution, I knew it was--I knew I was doing 
something wrong, but I didn't know, I didn't understand the law 
of campaign finance.
    Mr. Souder. I thank the gentleman. Of course, one of the 
things we will be probing here, as we go through in the 
additional attorney questions, is, to some degree, that is the 
problem of the National Democratic Committee, and the President 
of the United States and other people who these calls were 
going to, to inform you.
    You, as a citizen, should know that, too, particularly with 
the amounts of money you were handling. But that is also the 
responsibility of the people receiving the funds. And for them 
to excuse it in saying, ``Oh, well, their culture is 
different,'' it is not. You are just as much of an American as 
I am, and we are under the same laws. And excusing it, that was 
a racial statement, not us trying to get to the question of the 
laws.
    But I thank you for your time, and I yield Mr. Hutchinson's 
time----
    Mr. Burton. Would the gentleman yield for one brief 
question from me, please?
    Mr. Hutchinson. Yes.
    Mr. Burton. Thank the gentleman for yielding.
    Mr. Souder asked you who ``we'' was, and you said you were 
referring to just yourself. On most of the forms that I have 
seen at the DNC, where John Huang was involved, it had your 
name and John Huang's name on them. Are you sure that you are 
only referring to yourself and not you and John Huang?
    Mr. Trie. That's 1996. I couldn't remember the exact words 
I say. I just feel bad----
    Mr. Burton. Well, when you----
    Mr. Trie. I just feel bad this campaign finance, I was in 
there, I was feel sorry for him to cause--because that right 
before the election. It caused a lot of negative attention.
    Mr. Burton. I know. But when you said ``we,'' were you 
referring to you and John Huang?
    Mr. Trie. I don't know the ``we'' because everybody was 
involved in there.
    Mr. Burton. I thank the gentleman for yielding.
    Mr. Hutchinson. I believe it is my time, Mr. Chairman. 
Thank you for the recognition.
    Mr. Trie, I wanted to go through a series of questions in a 
different area. I am Asa Hutchinson from Arkansas.
    Mr. Trie. Yes, sir.
    Mr. Hutchinson. I want to cover the appointment to the 
Bingaman Commission. Are you familiar with that?
    Mr. Trie. Yes.
    Mr. Hutchinson. I believe that the commission has the 
official name of the Commission on United States Pacific Trade 
and Investment Policy, and that was by an Executive order in 
June 1995. When did you first decide that you wanted to be 
appointed to a position in the Clinton administration?
    Mr. Trie. This was when I was in--I know there's some 
appointee. I was try to just see if can I get appointee.
    Mr. Hutchinson. Let me see if I can put it in a context 
that might be more helpful to you.
    The Bingaman Commission was created in June 1995 by an 
Executive order, and I believe there has been some testimony, 
through depositions and otherwise, that in 1995 or mid-1995 you 
had expressed an interest in an appointment. Do you recall 
those discussions?
    Mr. Trie. Yes. I think I talk to Charles Duncan.
    Mr. Hutchinson. And Charles Duncan is under Bob Nash, I 
believe, in the Office of Presidential Personnel?
    Mr. Trie. Correct.
    Mr. Hutchinson. And you talked to Charles Duncan. Did you 
bring up the subject?
    Mr. Trie. Can you wait a minute?
    [Mr. Trie conferred with counsel.]
    Mr. Trie. I think Mr. Duncan mentioned to me, ``There's a 
position. Are you interested to help on the--serve the 
committee.''
    Mr. Hutchinson. So Mr. Duncan brought up this specific 
Bingaman Commission to you. But prior to that, had you 
expressed a general interest in an appointment in the 
administration?
    Mr. Trie. Yes.
    Mr. Hutchinson. And to whom had you expressed that general 
interest to?
    Mr. Trie. I'm not supposed to mention the person's name.
    Mr. Hutchinson. Very good. Thank you for steering me away 
from where I am not supposed to go.
    But is it safe to say that you initiated the general 
interest to someone in the administration?
    Mr. Trie. Not in the administration.
    Mr. Hutchinson. In the White House.
    Mr. Trie. Not--no.
    Mr. Hutchinson. Did you mention it to someone who had 
influence with the White House, your interest in an 
appointment?
    Mr. Trie. Some people in the Government.
    Mr. Hutchinson. Would you repeat your answer.
    Mr. Trie. I'm sorry?
    Someone who is not in the Government.
    Mr. Hutchinson. But you understood that that someone not in 
the Government had influence with the White House.
    Mr. Trie. Yes.
    Mr. Hutchinson. When you said that Charles Duncan, who is 
in the White House, told you of the possibility of an 
appointment to the Bingaman Commission, did you take that as 
being in response to your previous expression of interest in an 
appointment?
    Mr. Trie. Yes.
    Mr. Hutchinson. And why did you want to have an 
appointment?
    Mr. Trie. I think it's just an honor.
    Mr. Hutchinson. And prior to this conversation with Charles 
Duncan, I believe the records show that you had given somewhere 
over $170,000 to the DNC; is that correct?
    Mr. Trie. I don't have the paper. Let me look at.
    [Mr. Trie conferred with counsel.]
    Mr. Trie. That's about right.
    Mr. Hutchinson. That is about right.
    Mr. Trie. Yes, sir.
    Mr. Hutchinson. Why did you give over $170,000 to the DNC?
    Mr. Trie. That's a contribution.
    Mr. Hutchinson. You gave it as a contribution. Was the 
reason that you gave it to the DNC versus, I mean, you are from 
Arkansas, a couple of Democrat Senators, Democrat office-
holders from Arkansas or other Democrats that you would want to 
support, is there any reason you gave it to the DNC versus a 
particular candidate?
    Mr. Trie. For giving to the DNC most of the times they have 
a function, like an event. So the DNC host the event, so that's 
a contribution have to go to DNC so you can attend the event.
    Mr. Hutchinson. And some of those events were at the White 
House?
    Mr. Trie. Yes. Wait a minute. Can I correct that one?
    Mr. Hutchinson. Certainly.
    [Mr. Trie conferred with counsel.]
    Mr. Trie. Yes. Go ahead. I'm sorry.
    Mr. Hutchinson. Did you in your--and we will not mention 
the individual that you talked to--but whenever you expressed 
your interest in appointment, did you describe what type of an 
appointment that you would like to have?
    Mr. Trie. No.
    Mr. Hutchinson. It was just a general----
    Mr. Trie. Yes.
    Mr. Hutchinson. And when Charles Duncan came back to you 
and said there might be an appointment to the Bingaman 
Commission, was that something you had interest in?
    Mr. Trie. No. In that time, I didn't know. I think that was 
involved Asia, that's why he think I might be helpful because 
I've been travel Asia. Most time, like when we have like a 
conversation or we have a dinner together, they always ask me 
Asian--I mean, how do to business with Asia, Asians.
    Mr. Hutchinson. And what was the reason that you were 
meeting with Charles Duncan whenever he brought up the Bingaman 
Commission?
    Mr. Trie. No, if I'm correct, it was he call me. Most of 
the time when we have a dinner, we just talking. But 1 day, if 
I'm correct, he call me to his office, mentioned to me this 
Bingaman Commission. Because in that time I didn't know what 
would be the type of--I say, ``Yes, I'm interested'' because 
it's involving Asia.
    Mr. Hutchinson. At what point did Mr. Duncan indicate to 
you that you were actually going to get this appointment?
    Mr. Trie. That would be after--after the FBI and the IRS I 
submit my paper to the IRS. I think it's the next year or 
somewhere around there.
    Mr. Hutchinson. Early in 1996?
    Mr. Trie. Yeah.
    Mr. Hutchinson. And, in fact, in 1996, exhibit 145, is an 
amendment to the Executive order that expands the Bingaman 
Commission to a larger number. And were you aware that they had 
to go to the extraordinary lengths of having an amendment to 
the Executive order to expand it so that they could include you 
as an appointee?
    [Exhibit 145 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.077
    
    Mr. Trie. Could I look at the paper?
    Mr. Hutchinson. Certainly.
    [Pause.]
    Mr. Trie. I don't know that. I do not know this one.
    Mr. Hutchinson. No one told you that they were----
    Mr. Trie. No one told me.
    Mr. Hutchinson [continuing]. Having to expand the number on 
the commission.
    Mr. Trie. No one told me.
    Mr. Hutchinson. Did you mention to Charles Duncan the 
amount of your support for the Democratic Party?
    Mr. Trie. No.
    Mr. Hutchinson. Did you mention to anyone who was involved 
in that appointment your support for the Democratic Party?
    Mr. Trie. No.
    Mr. Hutchinson. Did you assume that they knew this?
    Mr. Trie. I believe he knows I was President's friend, 
long-time friend.
    Mr. Hutchinson. And why do you say you thought he knew that 
you are the President's friend?
    Mr. Trie. They knew. He knew.
    Mr. Hutchinson. They knew that. That was obvious.
    Mr. Trie. Yes.
    Mr. Hutchinson. But did you also assume that Mr. Duncan 
knew of your contributions to the Democratic Party?
    Mr. Trie. I don't know he knew or not. I never mentioned to 
him.
    Mr. Hutchinson. You did not mention it, and he did not 
mention it, but did you assume that he knew?
    Mr. Trie. I don't have no idea.
    Mr. Hutchinson. Now, in September 1995, while this 
appointment was still in that works, did you go to a White 
House event for DNC contributors?
    Mr. Trie. What's the month?
    Mr. Hutchinson. The month? It was September 1995.
    Mr. Trie. Can I look at the----
    Mr. Hutchinson. If you wish. Exhibit 140 describes the list 
of the people who attended the event. I believe this is the 
event that you took Chong Lo with you to.
    [Exhibit 140 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.078
    
    [GRAPHIC] [TIFF OMITTED] T8344.079
    
    [GRAPHIC] [TIFF OMITTED] T8344.080
    
    [GRAPHIC] [TIFF OMITTED] T8344.081
    
    [GRAPHIC] [TIFF OMITTED] T8344.082
    
    Mr. Trie. Oh, OK. I remember Chong Lo there.
    Mr. Hutchinson. And so you went to this event at the White 
House.
    Mr. Trie. Yes.
    Mr. Hutchinson. And did you speak to the President at the 
event?
    Mr. Trie. I don't recall. Normally, if I say, before the 
last one, normally, I tell to him, ``You look good.'' That's 
all I say.
    Mr. Hutchinson. Do you remember speaking to anyone about 
your appointment to the Bingaman Commission at this White House 
event?
    Mr. Trie. No.
    Mr. Hutchinson. When were you informed that you were going 
to be appointed to the commission? I think you said that was in 
January 1996.
    Mr. Trie. No, I didn't say January, but the early part of 
1996.
    Mr. Hutchinson. And who told you that you were going to get 
the appointment to the commission?
    Mr. Trie. I believe Charles Duncan.
    Mr. Hutchinson. And what did he say when he talked to you?
    Mr. Trie. He say you might have a chance to get into the 
appointee, to the committee.
    Mr. Hutchinson. And do you know who actually recommended 
you as an appointee?
    Mr. Trie. Excuse me?
    Mr. Hutchinson. Do you believe that Charles Duncan was the 
one who was pushing your appointment?
    Mr. Trie. I don't know the process because all I know is I 
send all my information.
    Mr. Hutchinson. I refer you to exhibit 144. And in this--do 
you have it before you?
    [Exhibit 144 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.083
    
    Mr. Trie. Yes.
    Mr. Hutchinson. At the bottom half of that exhibit 144 is 
what appears to be a memo from Phyllis Jones, who I understand 
is with the U.S. Trade Representative, to Jennifer Hillman, 
Thursday, September 21, 1995. The subject is the U.S. Pacific 
Commission. That is the Bingaman Commission.
    And in this memo, the reference is, ``Well, I spoke with 
Charles Duncan about Bingaman late Wednesday. Here is the 
update. They have not bumped anyone off of our list. However, 
they want to add three people: Senator Sarbanes' person . . .'' 
and then it says, ``. . . a DNC nominee,'' and there is your 
name; is that correct?
    Mr. Trie. Yes, that's my name.
    Mr. Hutchinson. And preceding your name on this memo is a 
designation, ``DNC nominee.''
    Mr. Trie. Yes.
    Mr. Hutchinson. And then later on the next paragraph it 
says, ``Charles thinks . . .'' referring to Charles Duncan ``. 
. . the best thing to do is to get the Executive Order amended 
so it can be increased.'' That, of course, has reference to 
expanding the commission so that you and two others could be 
added to it.
    Now, you are saying that you were never aware of the need 
to expand the commission.
    Mr. Trie. I never aware.
    Mr. Hutchinson. But, again, going back to the designation 
that you are the DNC nominee, now, at this point in time, well, 
at least prior to June 1995, you indicated you had given over 
$170,000 to the DNC. Is it fair to say that people who were 
involved in your appointment to the commission certainly knew 
of your connection to and contributions to the DNC?
    Mr. Trie. Your question is, me, I know?
    Mr. Hutchinson. The question is, no, from this memo, is it 
clear to you that those who were involved in your appointment 
knew of your close connection to the DNC?
    Mr. Trie. Yeah. On this memo, yes.
    Mr. Hutchinson. Did you ever discuss your appointment or 
potential appointment to the Bingaman Commission with anyone at 
the DNC?
    Mr. Trie. No.
    Mr. Hutchinson. Did you ever discuss with anyone at the DNC 
your interest in an appointment in the administration?
    Mr. Trie. No.
    Mr. Hutchinson. Now, you have mentioned some names 
previously that we are not going to mention.
    Mr. Trie. Yes.
    Mr. Hutchinson. They were not connected with the DNC?
    Mr. Trie. Connected with the DNC.
    Mr. Hutchinson. Yes.
    Mr. Trie. But I don't believe he's--like me, I connect with 
DNC, but I don't call myself a DNC.
    Mr. Hutchinson. Certainly, you are a supp----
    Mr. Trie. That's the way I look at things. Yeah. OK, in 
view of the question, yes, it would be yes.
    Mr. Hutchinson. You are a supporter of the DNC.
    Mr. Trie. Yes.
    Mr. Hutchinson. And you talked about your appointment to 
other supporters of the DNC.
    Mr. Trie. Yes. Correct.
    Mr. Hutchinson. All right. I mean, you have given a 
significant amount of money--over $170,000 at that point and 
much more since then--to the DNC. Who, at the DNC or who 
associated with the DNC asked you to contribute to the DNC? In 
other words, who solicited these funds?
    Mr. Trie. You want to know from the beginning of my 
contribu----
    Mr. Hutchinson. Was it a different one every time?
    Mr. Trie. Yeah. Because the first one would be the Richard 
Mays. That's what, I believe, that's what, yeah, that was 
$100,000.
    Mr. Hutchinson. And, Counsel, you tell me if I am getting 
in an area I am not supposed to. But go ahead, if you can 
answer that.
    Mr. Trie. And the rest of the time is just DNC will send 
like events, so they fax to you the event, where, how much it 
will be. That's where all of the contributions comes from.
    Mr. Hutchinson. So people at the DNC who are organizing 
these events are soliciting you, as well as other individuals 
that are trying to----
    Mr. Trie. Correct.
    Mr. Hutchinson [continuing]. Raise the money.
    Mr. Trie. Yes.
    Mr. Hutchinson. Do you know if anyone at the DNC ever 
contacted the White House about your appointment?
    Mr. Trie. No.
    Mr. Hutchinson. Does exhibit 144, which described you as a 
DNC nominee, does that surprise you in any way that you are 
des----
    Mr. Trie. Yeah, it surprised me.
    Mr. Hutchinson. Now, I want to go to your appointment to 
the commission. Did you ever hear that there was resistance to 
your appointment to the commission?
    Mr. Trie. No.
    Mr. Hutchinson. Steve----
    Mr. Trie. I mean, at that time.
    Mr. Hutchinson. Steve Clemmons, a witness who worked for 
Senator Bingaman, told the committee that when he heard that 
you had been appointed to the commission, he had called you and 
talked to you. Do you recall that?
    Mr. Trie. No.
    Mr. Hutchinson. You do not recall any conversation with 
Steve Clemmons?
    Mr. Trie. I don't recall, no.
    Mr. Hutchinson. Or anyone with Senator Bingaman's office?
    Mr. Trie. I don't recall.
    Mr. Hutchinson. And so if he indicated that it was obvious 
to him, based upon his conversation with you, that you were not 
qualified, you would disagree with that?
    Mr. Trie. That's his opinion maybe.
    Mr. Hutchinson. And he further told the committee that he 
had called Charles Duncan and objected to the fact that you 
were being placed on the commission and that Duncan said that 
you were an absolute must appointment, whose name had come from 
the highest levels of the administration. Were you aware of 
that?
    Mr. Trie. No.
    Mr. Hutchinson. Did the Justice Department raise it in 
their questions to you?
    Mr. Trie. Maybe. I can't remember.
    Mr. Hutchinson. Now, after you began serving on the 
commission, you were a regular attender of the meetings?
    Mr. Trie. Yes.
    Mr. Hutchinson. And did you follow everything, all of the 
business that was being conducted at the commission meetings?
    Mr. Trie. I try.
    Mr. Hutchinson. And why do you say you tried?
    Mr. Trie. I try to make a business deal, too, in that time.
    Mr. Hutchinson. I am sorry? Say that again.
    Mr. Trie. During the period of serving on the commission, 
I'm doing business too. So when the time--every time when they 
have a meeting, most of the time I attend and would do 
everything as much I can to learn.
    Mr. Hutchinson. When you were there, though, did you follow 
and understand what the commission was doing? Did you 
communicate well with the other members of the commission?
    Mr. Trie. I think so.
    Mr. Hutchinson. And did you ever have need anyone to assist 
you with language translation in your meetings with the 
commission?
    Mr. Trie. Not the language, it's just about the--to keep 
the record. Yes, this lady called Julie she help me, but it was 
after several months later.
    Mr. LaTourette [presiding]. Excuse me. The gentleman's time 
has expired. Without objection, he will be recognized for an 
additional 15 minutes.
    Mr. Hutchinson. I thank the gentleman.
    Did you feel like you were qualified to serve on the 
Bingaman Commission?
    Mr. Trie. I don't know there's a limitation or what's the 
requirement.
    Mr. Hutchinson. Are you asking me?
    Mr. Trie. No. I mean, I didn't know there's any 
requirement.
    Mr. Hutchinson. You did not know there were any 
requirements for appointment to the commission. You were not 
aware of any particular qualifications?
    Mr. Trie. No.
    Mr. Hutchinson. Did Charles Duncan interview about your 
qualifications for the commission?
    Mr. Trie. Yeah, we talk. He wanted to know--he wanted to 
know some people who know Asia, which I do. I do better than 
anybody else in the commission.
    Mr. Hutchinson. I now want to talk about one of the 
meetings. Exhibit 154 is a transcript from the commission 
meeting held on June 12, 1996. And during that meeting you made 
a lengthy statement about United States-Chinese relations. I 
believe that is correct.
    And in that statement is it true that you indicated that 
you thought that we should find some way to work with China 
because they will eventually dominate all of Asia?
    [Exhibit 154 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.084
    
    [GRAPHIC] [TIFF OMITTED] T8344.085
    
    [GRAPHIC] [TIFF OMITTED] T8344.086
    
    Mr. Trie. Can I look at?
    Mr. Hutchinson. Certainly.
    Mr. Trie. Yes. That was my opinion.
    Mr. Hutchinson. So, that was an opinion that you told the 
Commission?
    Mr. Trie. Yes, potentially.
    Mr. Hutchinson. And did you also tell the Commission that 
you believe that the Tiananmen Square massacre was justified?
    Mr. Trie. I do not understand the words.
    Mr. Hutchinson. I am sorry, what?
    Mr. Trie. I do not understand the words.
    Mr. Hutchinson. OK. Did you tell the Commission that you 
believe the Tiananmen Square arrest and oppression of the 
dissident students was correct?
    Mr. Trie. I do not understand the question. That is my own 
opinion.
    Mr. Hutchinson. That is your opinion?
    Mr. Trie. Yes.
    Mr. Hutchinson. And did you share that with the Commission?
    I do not know that you did. I believe you shared that in 
some of your interviews. That is your opinion, though?
    Mr. Trie. I do not believe that was in the Commission 
meeting.
    Mr. Hutchinson. Fair enough and I am not trying to let you 
know that I believe you did. I think you indicated that in some 
of your interviews that that was your view. But you do not hide 
that view. You are very honest in expressing that view to 
anyone who talks to you about your view of China?
    Mr. Trie. If people talk about how I feel about China, I 
address what are my view.
    Mr. Hutchinson. You tell them what you feel?
    Mr. Trie. Yes.
    Mr. Hutchinson. Just like you told me that you believe that 
Tiananmen Square massacre or the Tiananmen Square oppression 
and the way the Government handled it was correct, you would 
tell that to anybody who asked you your feelings on it?
    Mr. Trie. I will say that.
    Mr. Hutchinson. And in your discussions with Charles Duncan 
about your views on China, did you share that view with him?
    Mr. Trie. Never. We never discussed these things.
    Mr. Hutchinson. In her interview, Ms. Woo Cummings told the 
committee that you said you did not feel like you could speak 
in front of the Commission and you thought about dropping out 
of the Commission. Is that true?
    Mr. Trie. What is true? Also my time was very--I have to 
most time I have to do business in Asia. I have to fly back and 
forth. It is very tired, so, yes.
    Mr. Hutchinson. And did you ever consider quitting the 
Commission?
    Mr. Trie. Yes. I believe so, yes.
    Mr. Hutchinson. All right. And one of the reasons that you 
had someone to assist you with your Commission duties is to 
help you with your understanding of what was happening in the 
Commission?
    Mr. Trie. Yes.
    Mr. Hutchinson. And to help you with the English and the 
different----
    Mr. Trie. Not only that because the document is a whole 
bunch of documents every time.
    Mr. Hutchinson. OK. And did anyone, any other members of 
the Commission express to you their concern about your 
appointment?
    Mr. Trie. No.
    Mr. Hutchinson. Let me just conclude, Mr. Trie, and let you 
know a little bit of where I am coming from on this. You are an 
American citizen. You are an Arkansas resident. And you wanted 
to be engaged in the political process which you have an 
absolute right to do and we ought to encourage everyone to do. 
You gave a lot of money to the Democratic National Committee 
and you sought involvement, which again there is nothing wrong 
with that. I think that you have to wonder about the connection 
and whether the influence of money had something to do with an 
appointment of someone who really did not feel comfortable to 
the point that you wondered whether you should resign from the 
Commission. And I think that that is an area of legitimate 
Governmental concern but with that, Mr. Chairman, I want to 
turn back and yield back my time.
    Mr. LaTourette. I thank the gentleman. He yields back the 
balance of his time. The Chair will now recognize himself for a 
period of time.
    Mr. Trie, I want to chat with you about the Lippo Group and 
Mr. Riady and Mr. Huang. We had the opportunity to have John 
Huang before the committee in late December of last year and, 
like you, he acknowledged making conduit contributions to the 
Democratic National Party. His were prior to the 1996 
Presidential Election. And I asked him, and just so that I set 
it up in context, it occurred to me that he was essentially the 
man to see in the United States when the Riadys wanted to make 
a political contribution to a political figure or party in the 
United States prior to 1996, when he then went to work for the 
Commerce Department and then the DNC he stopped being that. And 
it occurs to me that based upon what the records in front of us 
that I am going to go over with you, that you then became that 
person that when the----
    Mr. Trie. And can you speak a little bit slowly?
    Mr. LaTourette. Sure.
    Mr. Trie. I cannot catch up.
    Mr. LaTourette. In 1996, for the 1996 election, the pattern 
of your giving changed, the pattern of Mr. Huang's giving 
changed and that now it occurs that you, in 1996, became the 
conduit contributor. So, in other words, if the Riadys or the 
Lippo folks wanted to make a contribution they came and gave 
the money to you. And that is the context in which I am going 
to ask you a series of questions. And for you and your 
counsel's convenience I am going to focus on exhibits 251 to 
258 during the course of my questioning to you.
    I want to begin with, first of all, if you could describe 
for the committee and tell us when you first met John Huang and 
under what circumstances?
    [Exhibit 258 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.093
    
    Mr. Trie. That was in 1994.
    Mr. LaTourette. And----
    Mr. Trie. I think it will be in the CAPACI meeting. 
Sometime we have a meeting and he show up which is we just 
talking about the Asian Americans CAPACI agenda.
    Mr. LaTourette. APAC?
    Mr. Trie. No, no, no. Not APAC. It is CAPACI. Then so, I 
believe he give me the business card. I met him two times in 
his office, two or three times, but I believe the first time 
was by myself. I think one time I think I bring Antonio Pan 
with me because Antonio Pan know him when they were in Little 
Rock.
    Mr. LaTourette. But that goes to my question. You indicated 
in your 302 that you met Mr. Huang in 1994 and that would 
indicate to me that you did not know him when he worked in 
Little Rock and you had no contact or no meeting with him that 
you remembered prior to 1994?
    Mr. Trie. No. No.
    Mr. LaTourette. You were aware that Mr. Huang was taken in 
and hired by the Commerce Department; were you not? Did you 
know that John Huang worked for the U.S. Department of 
Commerce?
    Mr. Trie. Yes, yes.
    Mr. LaTourette. Did you have the opportunity to visit with 
him when he was at the Commerce Department?
    Mr. Trie. Yes.
    Mr. LaTourette. On how many occasions?
    Mr. Trie. Two or three times.
    Mr. LaTourette. And during the time that you would have 
visited with him while he was at Commerce, did you discuss with 
him any issues of trade?
    Mr. Trie. No. I just know him.
    Mr. LaTourette. Well, what was the purpose of your meetings 
with him when you were at Commerce?
    Mr. Trie. Oh, just ask him how I do, should do business and 
something. Just ask him his opinion. And know him.
    Mr. LaTourette. Did you ever discuss or were you ever 
invited to any of the political events that you eventually made 
contributions for with Mr. Huang when he worked at Commerce?
    Mr. Trie. Not that I recall.
    Mr. LaTourette. Did you ever discuss with Mr. Huang the 
Lippo Group and his former work and employment with the Lippo 
Group?
    Mr. Trie. No. Because I don't know Lippo.
    Mr. LaTourette. OK.
    Mr. Trie. I mean I know Lippo but I don't know the people 
higher in the family.
    Mr. LaTourette. Then you didn't know or you are saying you 
don't know them now?
    Mr. Trie. No, I know them now.
    Mr. LaTourette. Right. But you didn't know them in 1994?
    Mr. Trie. Yeah.
    Mr. LaTourette. All right. When did you learn that John 
Huang was leaving the Department of Commerce----
    Mr. Trie. I couldn't remember.
    Mr. LaTourette [continuing]. And going to work for the DNC?
    Mr. Trie. I couldn't remember.
    Mr. LaTourette. All right. You don't remember year, month 
or anything?
    Mr. Trie. No.
    Mr. LaTourette. But you became aware of that fact?
    Mr. Trie. Yeah. He in the Commerce--I mean DNC, I think yes 
we talk, you know, but I couldn't remember the date.
    Mr. LaTourette. Did John Huang when he moved from Commerce 
to the DNC ask you to raise money for the Democratic National 
Committee?
    Mr. Trie. Can you ask the question again?
    Mr. LaTourette. When John Huang went to work for the 
Democratic National Committee, did he call you and ask you to 
raise money for the Democratic National Committee?
    Mr. Trie. Yes.
    Mr. LaTourette. Do you recall when that was?
    Mr. Trie. I couldn't recall the time.
    Mr. LaTourette. Was John Huang the only one from the 
Democratic National Committee calling and asking you to raise 
money or were there others also calling you about this same 
time?
    Mr. Trie. Because I think that he was the one hand over 
because he always tell me, you know, we should put the event 
for Asians. That is what I--that is why I found real hard. 
Otherwise I just because they have an event and they fax to me 
the event. I call them. So, I will attend. So, I will know.
    Mr. LaTourette. I want to talk a little bit about, if I 
can, about your personal history of giving and how at least to 
me the records show that it changed in 1996. In 1994 you gave 
almost $150,000 to the Democratic National Committee; would you 
agree with me that that is a pretty accurate figure?
    Mr. Trie. Yes. That is about right.
    Mr. LaTourette. And then in 1995 you gave over $50,000?
    Mr. Trie. That about right.
    Mr. LaTourette. But you don't have a history at least on 
any of the Democratic National Committee tracking forms of 
being a large, an individual who went out and did a lot of 
soliciting. You gave a lot of money but you weren't soliciting 
a lot of contributions from other people prior to 1996; isn't 
that correct?
    Mr. Trie. Correct.
    Mr. LaTourette. OK. Well, why did that change? Why were you 
content with being a big supporter and giving your money to the 
Democratic National Committee before 1996 and then in 1996 all 
of a sudden you become a fundraiser, you got out and solicited? 
Who asked you to do that or why did you decide to do that?
    Mr. Trie. Oh, because we have the records so the Democratic 
National Committee give us--I have to see the paper, the type 
last year for the----
    [Witness conferring with counsel.]
    Mr. Trie. I was, the title was something like Vice Chair 
for the Democratic National Committee Finance Committee.
    Mr. LaTourette. And did you get that title Vice Chair of 
the Democratic National Committee in 1996?
    Mr. Trie. I don't recall where in, maybe 1995. But in 1996, 
for I remember because it was getting to elections so it is 
more involvement on the fundraising. That is why we been--and 
if you look at the record most of the fundraising in the 1996 
will be on the Hay-Adams, Hay-Adams, that event. That was 
including $325,000 I raised from the Gandhi. I don't know. I 
forgot his first name.
    Mr. LaTourette. But going back to this Vice Chair of the 
Democratic National Committee, is that something that you 
sought or is that something that someone asked you to assume?
    Mr. Trie. I believe I saw on the fax paper. But I don't 
have the paper now.
    Mr. LaTourette. No, no. I am saying is that a job that you 
wanted and you asked for or is that a job that someone asked 
you to take?
    Mr. Trie. No, no. They just say how much money you can 
raise? You know, I think it is $100,000 or it will be--I don't 
even remember the time. But I remember I see the paper.
    Mr. LaTourette. Yeah. But I guess maybe we are talking past 
each other. How did you become a Vice Chair of the Democratic 
National Committee; how did that happen? Just by giving----
    Mr. Trie. I think they select people.
    Mr. LaTourette. Yeah. But who selected, who told you that 
you were a Vice Chair of the Democratic National Committee?
    Mr. Trie. I believe I see the fax. I don't remember who 
told me but I see the fax.
    Mr. LaTourette. So, 1 day you see a piece of paper that all 
of a sudden boom, you're a Vice Chairman of Finance for the 
Democratic National Committee?
    Do you know? I mean it just showed up like an unsolicited--
--
    Mr. Trie. Yeah. Because I believe it was how much money 
raised you will get it.
    Mr. LaTourette. So, OK, well, that's it. So, it's sort of 
like a membership that if you raise $100,000, you will----
    Mr. Trie. Yeah, yeah, yeah.
    Mr. LaTourette [continuing]. Become a Vice Chair?
    Mr. Trie. Yeah, yeah.
    Mr. LaTourette. And what, if you raise $1 million you 
become the chairman and is that the way it works?
    Mr. Trie. Yeah. I don't think you will ever become 
Chairman.
    Mr. LaTourette. I wouldn't think so. I wouldn't think so.
    OK. Well, going to exhibit No. 251, that is a 7-page 
exhibit or maybe more but I want to direct your attention to 
the 7th page. It is an article from the Washington Post dated 
November 3rd, 1995, and it talks about the soft money 
contributors to the Democratic National Committee and Diahatsu 
is listed as one of the largest soft money contributors to the 
Democratic National Committee in the United States in that 
article.
    Do you recall being a part of such contributions in 1995?
    [Exhibit 251 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.087
    
    [GRAPHIC] [TIFF OMITTED] T8344.088
    
    [GRAPHIC] [TIFF OMITTED] T8344.089
    
    [GRAPHIC] [TIFF OMITTED] T8344.090
    
    [GRAPHIC] [TIFF OMITTED] T8344.091
    
    [GRAPHIC] [TIFF OMITTED] T8344.092
    
    Mr. Trie. 1995, yes.
    Mr. LaTourette. And after that article ran in 1995 that 
identified that contribution or that level of contribution to 
the DNC, did that article or the fact that it was now public 
cause you any concern?
    Mr. Trie. I couldn't recall. I couldn't recall seeing this 
article.
    Mr. LaTourette. OK. Well, after the article was in the 
newspaper did anyone contact you expressing concern about the 
fact that your firm was listed as one of the largest soft money 
contributors to the Democratic National Committee?
    Mr. Trie. I couldn't recall that.
    Mr. LaTourette. Do you recall anyone at the Democratic 
National Committee telling you to stop making large, individual 
contributions----
    Mr. Trie. No.
    Mr. LaTourette [continuing]. And instead begin to solicit--
if you could just wait until I finish, then you can tell me 
no--and begin to focus on other individuals to make 
contributions other than yourself?
    Mr. Trie. No.
    Mr. LaTourette. Richard Sullivan, you know who Richard 
Sullivan is?
    Mr. Trie. Yes, I do.
    Mr. LaTourette. Richard Sullivan testified and indicated to 
the Senate that in 1994 and 1995 he asked you to raise money 
for the Democratic National Committee but that you refused 
other than making your own contributions; do you recall that 
conversation?
    Mr. Trie. Don't recall that.
    Mr. LaTourette. Did Mr. John Huang, who was also a Vice 
Chair of Finance over at the DNC, if I understood him correctly 
when he was here in December, did you recall any conversations 
with him that they needed hard money; that they needed to raise 
hard money for the DNC and that you should try and raise 
smaller contributions rather than the larger soft money 
contributions?
    Mr. Trie. No.
    Mr. LaTourette. Did John Huang ever encourage--you have 
acknowledged making conduit contributions.
    Mr. Trie. No.
    Mr. LaTourette. Well, you have, haven't you? Yeah, that is 
OK. I am sorry, go ahead.
    Mr. Trie. OK. Can you?
    Mr. LaTourette. Sure. You have acknowledged making a number 
of conduit contributions?
    Mr. Trie. Hmm-hmm.
    Mr. LaTourette. Right. And just so that we are talking 
about the same thing, I know your lawyers know what I'm saying, 
but that is that a contribution comes from someone else to you 
and you make it in a name other than the name of the donor or 
in an improper way; is that a fair observation? People would 
give you money and you would make a donation but it wasn't your 
dough.
    Mr. Trie. Maybe the opposite way.
    Mr. LaTourette. You would give people money to make in 
their names and it was your money that----
    Mr. Trie. Yes, yes.
    Mr. LaTourette. All right. So, you were the money man in 
the conduit contributions that were made as opposed to the 
person in whose name they were given; is that right?
    Mr. Trie. Yeah. That is what I plead guilty to, yes.
    Mr. LaTourette. OK. Did John Huang ever have any 
discussions with you about what a conduit contribution was?
    Mr. Trie. No.
    Mr. LaTourette. Did he ever discuss with you what the 
fundraising rules were?
    Mr. Trie. No.
    Mr. LaTourette. And specifically the conduit contributions 
were not proper?
    Mr. Trie. No.
    Mr. LaTourette. And I believe if we got your testimony 
today, you didn't know that that was wrong?
    Mr. Trie. Correct. No, I didn't know what's--you have to 
give the same question maybe.
    Mr. LaTourette. It's no, you didn't know that that was 
wrong?
    Mr. Trie. No. I know it's wrong but I didn't know it was 
illegal.
    Mr. LaTourette. OK. Well, maybe----
    Mr. Trie. I didn't know the law.
    Mr. LaTourette. I think I did hear you say that a little 
earlier and that puzzles me because if it's wrong, I mean what 
would be wrong about it if it isn't illegal? Do you know what I 
mean? I guess you are making a distinction I guess without a 
difference to me. Wrong, because you're not supposed to do it 
or wrong--I mean if it's wrong it's also against the law is 
wrong.
    Mr. Trie. I didn't know the election law until I talked 
to--I have my lawyer since 19--late 1996. Now, I know that is 
illegal, that's the law.
    Mr. LaTourette. OK. If you can just hang onto that but I 
want to yield to the chairman for a question.
    Mr. Burton. If the gentleman would yield?
    Did you ever talk to Don Fowler?
    Mr. Trie. Yes, I talked to Don Fowler.
    Mr. Burton. Did you ever talk to Mr. Sullivan?
    Mr. Trie. Yes, I do.
    Mr. Burton. When you were talking to them did you ever talk 
to them about contributions?
    Mr. Trie. Yes, we do talk about contribution.
    Mr. Burton. Well, you know they knew the law. Mr. Fowler 
was the head of the DNC and Mr. Sullivan was one of the leaders 
over there.
    Mr. Trie. Hmm-hmm.
    Mr. Burton. When you talked to them about contributions and 
these large contributions didn't they ever question you about 
where you were getting the money or----
    Mr. Trie. No.
    Mr. Burton. They never asked the question?
    Mr. Trie. No. I never, I have never recall.
    Mr. Burton. Did you ever talk to them about people that you 
were giving the money to who were going to give money to the 
DNC?
    Mr. Trie. No. They don't ask.
    Mr. Burton. They didn't ask?
    Mr. Trie. Yes.
    Mr. Burton. How many times did you talk to Mr. Fowler?
    Mr. Trie. Not many times.
    Mr. Burton. One time?
    Mr. Trie. No, more than that.
    Mr. Burton. Twenty times?
    Mr. Trie. No.
    Mr. Burton. Ten times?
    Mr. Trie. I couldn't tell you the exactly time.
    Mr. Burton. But many times?
    Mr. Trie. Several time.
    Mr. Burton. And how many times did you talk to Mr. 
Sullivan?
    Mr. Trie. Not many times, five or six time.
    Mr. Burton. Five or six times. And when you talked to them 
about contributions----
    Mr. Trie. No. They just tell me to raise money.
    Mr. Burton. But you were one of the vice chairman, right?
    Mr. Trie. Yeah. I think they have many, many vice chairman.
    Mr. Burton. Mr. Trie, it just seems to difficult to 
understand. You were picked along with John Huang to be very 
important people at the DNC. You were raising hundreds of 
thousands of dollars and you talked to Fowler and you talked to 
Sullivan and nobody ever questioned whether or not these 
contributions were conduit contributions or how they were 
coming in or anything else; they just took the money and ran, 
right?
    Mr. Trie. That's what happens.
    Mr. Burton. I thank the gentleman for yielding.
    Mr. LaTourette. Thank you, Mr. Chairman.
    And just getting back to that vice chairmanship that you 
apparently were notified with a piece of paper, a fax. I mean 
did it come with a starter kit, you know, sort of like 
congratulations, you are now a vice chairman of the DNC or the 
rules? Nobody ever explained any rules to you?
    Mr. Trie. No.
    Mr. LaTourette. How about the rule--did John Huang ever sit 
down with you and talk about the fact that the Federal 
Government is in the practice of monitoring cash transactions 
of greater than $10,000; was that within your knowledge in 
1996?
    Mr. Trie. I don't think so.
    Mr. LaTourette. Well, getting back to where I left off 
before I yielded to the chairman, this concept of wrong is 
troubling me, I guess. And now, are you telling me that you 
knew that there was something not right about you taking money 
and giving it to somebody else and having that somebody else 
donate money in their name to the DNC, the President of the 
United States, whatever the candidate of your--you knew that 
was not an appropriate thing to do.
    Mr. Trie. Correct.
    Mr. LaTourette. OK. Well, if you--I guess if you didn't 
know it was a violation of law--and I understand lawyers and 
lawyers told you that it was a violation of the elections law 
and might have shown you the section and things of that 
nature--but what rule did you think you were breaking by making 
or participating in a conduit contribution if it wasn't a law 
of the United States of America? I mean did you think it was 
one of the Ten Commandants or what?
    Mr. Trie. What the?
    Mr. LaTourette. Well, what was wrong about it? If it wasn't 
illegal--I----
    Mr. Trie. Maybe----
    Mr. LaTourette. Well, what is wrong?
    Mr. Trie. I didn't know.
    Mr. LaTourette. But you knew--well, OK. I got that. But you 
knew it was wrong when you were doing it.
    Mr. Trie. Is something wrong, that is what I put on my 
statement. I don't feel comfortable.
    Mr. LaTourette. OK. Well, are you now saying that you 
didn't know it was wrong, you just--you felt a little squeamish 
about it, right? I will come back to that in a minute.
    When Huang was working at the DNC, and apparently a Vice 
Chair as you were, did he ever discuss with you the money that 
he was raising from Ted Sioeng and his family? Did you ever 
have a conversation with him about Ted Sioeng and his family?
    Mr. Trie. No. I--we met in the fundraising event. We just 
share things, say what do you do, what do I do, that's all I 
know.
    Mr. LaTourette. But specifically did you have a 
conversation with John Huang; did he discuss----
    Mr. Trie. No, no.
    Mr. LaTourette [continuing]. Did Mr. Huang discuss with you 
the money he was raising from Ted Sioeng and his family?
    Mr. Trie. No.
    Mr. LaTourette. And similarly, the same question about the 
Wiridinadas; did you ever have a conversation with John Huang 
about the money that he was soliciting and raising from the 
Wiridinada family?
    Mr. Trie. What's the name?
    Mr. LaTourette. Wiriadinata? W-I-R-I-A-D-I-N-A-T-A?
    Mr. Trie. Oh, I don't know, I don't know those people.
    Mr. LaTourette. OK. During the time that he was at the 
Democratic National Committee and apparently you were too, did 
you ever discuss with John Huang his relationship with the 
Riady family?
    Mr. Trie. No. Can I address on the Vice Chair? John Huang 
and me is a total different thing. I think he is working there 
where I'm not, which is something title. So, it's a total 
different thing, too. He--if I put it this way, he will get a 
pay in the DNC.
    Mr. LaTourette. Right.
    Mr. Trie. But I won't.
    Mr. LaTourette. Right. He was getting paid and you were 
doing the paying; is that--but from what I've heard the case 
may be you both were vice chairs of finance apparently of the 
Democratic National Committee. Did you ever provide any money 
to John Huang? Did you ever give him any money?
    And, specifically, so you don't think it's a trick, the 
next exhibit is exhibit No. 252, dated June 26th----
    [Exhibit 252 follows:]
    [GRAPHIC] [TIFF OMITTED] T8344.094
    
    Mr. Trie. Yeah. $1,775.00 out of a check.
    Mr. LaTourette. And what was that check for?
    Mr. Trie. I couldn't recall.
    Mr. LaTourette. You don't know?
    Mr. Trie. Yeah.
    Mr. LaTourette. OK. The exhibit is $1,775, right?
    But that is $1,775, that is a check drawn on your company 
for $1,775----
    Mr. Trie. Yes, yes.
    Mr. LaTourette [continuing]. To John Huang but you have----
    Mr. Trie. But I cannot recall the----
    Mr. LaTourette [continuing]. No knowledge of the----
    Mr. Trie [continuing]. The purpose.
    Mr. LaTourette. OK.
    Mr. Trie. Can we take a break? I want to try to go to the 
restroom.
    Mr. Burton. Yes. If you want to go to the restroom we are 
trying to accommodate legal counsel and everybody to adjourn, 
finish up by 6 o'clock. So----
    Mr. Trie. I will be real quick.
    Mr. Burton. OK. Take your time. We stand in recess for Mr. 
Trie. We will be back in just a moment.
    [Recess.]
    Mr. Burton. We will resume questioning with the 
irrepressible Mr. LaTourette.
    Mr. LaTourette. Just to finish on that check for $1,775, if 
I understand your--what it is that you used to do for a living, 
you owned a restaurant in Little Rock, AR. Was that right, for 
a number of years?
    Mr. Trie. Correct.
    Mr. LaTourette. How many years was that?
    Mr. Trie. Since 1978 until 1992.
    Mr. LaTourette. OK. And it was a small operation, small 
business?
    Mr. Trie. Yeah, I guess so.
    Mr. LaTourette. Well, what do you think your best year was? 
I mean in terms of revenue from the Chinese restaurant?
    Mr. Trie. I believe it will probably be in 1990.
    Mr. LaTourette. I am sorry?
    Mr. Trie. 1990, 1991.
    Mr. LaTourette. Yeah. I'm talking in dollars though. What 
is the most money you think you made?
    Mr. Trie. I never do the accounting. My wife is the one to 
order. She's a cashier and the bartender.
    Mr. LaTourette. The point I'm trying to get at, the $1,775 
seems like a lot of money to me. I mean if I wrote a $1,775 
check to somebody it would hurt and, but you still are telling 
me you don't know why you wrote a $1,775 check to John Huang in 
1996, 4 years after you are out of the Chinese restaurant 
business.
    Mr. Trie. I couldn't remember.
    Mr. LaTourette. OK. When did you first meet James Riady?
    Mr. Trie. You mean met or see James Riady?
    Mr. LaTourette. I mean meet him, like be introduced to him.
    Mr. Trie. The introduce was in I believe in 1996 in L.A.
    Mr. LaTourette. OK. And, so, again that answer just like 
when I was talking to you about John Huang you never had the 
opportunity to meet with James Riady or meet him in Arkansas 
when you were both in Little Rock, AR?
    Mr. Trie. No, no.
    Mr. Burton. Excuse me, would the gentleman yield real 
quickly?
    Mr. LaTourette. Surely.
    Mr. Burton. James Riady worked at the Worthen Bank in 
Little Rock?
    Mr. Trie. Yes.
    Mr. Burton. And you are saying that you did not know him at 
all?
    Mr. Trie. I know him but I never met him.
    Mr. Burton. Oh, you knew him but----
    Mr. Trie. I knew him, yes.
    Mr. Burton. Had he eaten in your restaurant?
    Mr. Trie. I don't think so, I don't recall.
    But he loaned me the money.
    Mr. Burton. He loaned you----
    Mr. Trie. Not him loan me the money. Worthen Bank loaned me 
the money after they join with the Worthen Bank.
    Mr. Burton. But you had never met him personally?
    Mr. Trie. No.
    Mr. Burton. I thank the gentleman.
    Mr. LaTourette. You are welcome, Mr. Chairman.
    So, in 1996 at an event in Los Angeles is when you believe 
you were introduced to him formally and met him although you 
may have seen him at other occasions?
    Mr. Trie. Yes.
    Mr. LaTourette. And his financial institution may have 
provided you with some loans to do some things that you were 
doing; is that right?
    Mr. Trie. I didn't get the last part.
    Mr. LaTourette. I thought in response to the chairman's 
question that he gave you the money. You got some money from 
the Lippo Bank. No?
    Mr. Trie. No, not Lippo Bank. It was from the Worthen Bank.
    Mr. LaTourette. From the Worthen Bank?
    Mr. Trie. Yes.
    Mr. LaTourette. OK. Did you have the opportunity to see him 
in 1993 at an APAC meeting in Jakarta?
    Mr. Trie. Yes.
    Mr. LaTourette. But, again, that is seeing him; you weren't 
introduced to him, you didn't meet him?
    Mr. Trie. No.
    Mr. LaTourette. Witnesses who were at that meeting 
indicated that you greeted him like he was an old friend of 
yours, so, apparently he wasn't an old friend of yours in 
1993----
    Mr. Trie. No.
    Mr. LaTourette [continuing]. Because you hadn't met him 
yet?
    Mr. Trie. No. I did not.
    Mr. LaTourette. OK. Did you have a discussion with Mr. 
Riady at all in 1993 at the APAC meeting in Jakarta?
    Mr. Trie. No, I don't recall at all.
    Mr. LaTourette. OK. I want to go now to an event that 
occurred on September 26, 1996. It was a fundraising event for 
the Democratic National Committee and it was conducted at the 
Washington, DC, Sheraton-Carlton. And if it would assist you at 
all, it was an event that was primarily organized by David 
Mercer and was intended to, as most of its invitees, be members 
of the African American community. Do you recall that event at 
all?
    Mr. Trie. No. Can I look the----
    Mr. LaTourette. Sure. Oh, yeah. Sure.
    Mr. Trie. Is it page 6?
    Mr. LaTourette. There is no specific exhibit. I'm talking 
at the moment about a fundraising event at the DC Sheraton-
Carlton and----
    Mr. Trie. I don't recall that.
    Mr. LaTourette [continuing]. And just so I'm not--I am not 
going to attempt to followup or trick you; when John Huang was 
here he indicated that he went with you to this particular 
event and following that event he and James Riady both spent 
the evening at your apartment at the Watergate. Do you recall 
such a series of events?
    Mr. Trie. I couldn't recall that one. In Sheraton--let me--
--
    Mr. LaTourette. The Sheraton-Carlton Hotel in Washington, 
DC, in September 1996.
    Mr. Trie. I know I don't remember that one.
    Mr. LaTourette. Well, specifically and maybe we can work 
through some of the exhibits and get there from here. If you 
want to look at exhibit No. 253, I believe, we will start 
there. That's a receipt from the Carey Limousine Co. And, 
again, Mr. Huang, when he was here indicated that he retained 
the limousine for the purpose of going out to the Dulles 
Airport, I believe, and picking up Mr. Riady, and then they 
were joined by you and you all travelled to the Sheraton-
Carlton for a fundraising event organized by David Mercer and 
at the conclusion of that event you came back and all of you 
spent the night at the Watergate.
    [Exhibit 253 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.095
    
    Mr. Trie. Watergate only have a two bedroom. I don't 
believe I was with them. You talk about the limousine, I don't 
remember that.
    Mr. LaTourette. Well, forget the sleeping arrangements for 
a minute. Are you telling me that you don't know--you have no 
knowledge of being at a fundraising event for the Democratic 
National Committee on September 26th, 1996 at the Sheraton?
    Mr. Trie. No, I don't remember.
    Mr. LaTourette. I now want to----
    Mr. Trie. By the way, on the question--I forgot who was 
asking--that day was--somebody was asking the--this the one 
they made, right, September the--phone call, telephone call to 
Indonesia, to Jim Riady, to some people?
    Mr. LaTourette. Right. That's the same day and I----
    Mr. Trie. No, that day--so we are talking to other people 
and saying--John Huang stay at my house would be late October, 
so that phone call, that is when.
    Mr. LaTourette. OK, all right. Well, since you don't 
remember that particular series of events, Mr. Huang remembers 
them, but I don't--I mean, you're not required to remember 
everything.
    I want to turn to a document that the FBI took from your 
office, which is another exhibit, and it's exhibit No. 255, and 
exhibit No. 255 is a translation of a document, again, that was 
taken from your office, and if you take a minute to study, and 
if you would be so kind as to tell the committee who drafted 
that document?
    [Exhibit 255 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.096
    
    Mr. Trie. Your questions on this letter?
    Mr. LaTourette. I want to know who wrote that?
    Mr. Trie. I don't know. I don't think it's me.
    Mr. LaTourette. Do you have any idea how it wound up in 
your office then, and it was taken by the FBI?
    Mr. Trie. No. Probably when this came probably wrote 
something, maybe a memo or something. I don't believe it's----
    Mr. LaTourette. Well, let's go through the translation, if 
we could, and maybe some of it will come back to you. The first 
paragraph refers to opening a Wal-Mart in Shanghai. Did you 
ever have any discussions with anyone at the Lippo organization 
about opening up a Wal-Mart Store in Shanghai?
    Mr. Trie. No.
    Mr. LaTourette. Were you involved in any business ventures 
between Wal-Mart and Lippo?
    Mr. Trie. No.
    Mr. LaTourette. The second paragraph talks about buying and 
modernizing a hospital in Shanghai. Did you ever discuss such a 
venture with anyone at the Lippo organization?
    Mr. Trie. No. If----
    Mr. LaTourette. No?
    Mr. Trie. No, no, no.
    Mr. LaTourette. The fourth item discusses purchasing a 
hotel in San Francisco.
    Mr. Trie. I do remember this one. This one I know if I try 
to recall. I'm thinking this whole thing, maybe Antonio Pan 
write note, maybe Antonio Pan wrote the whole thing.
    Mr. LaTourette. So in response to my earlier question about 
who drafted the document, you now believe that Antonio Pan is 
the author?
    Mr. Trie. Because I recall the fourth part, the hotel, 
because I remember some people tell me the hotel is very small. 
In San Francisco is only $7 million, because in San Francisco 
$7 million cannot buy a big hotel, so I remember this one. 
Somebody once mentioned to me this hotel.
    Mr. LaTourette. So just so I'm clear, so I don't miss the 
opportunity to have the benefit of your refreshed memory, you 
still don't remember anything about the Wal-Mart?
    Mr. Trie. No, I cannot remember----
    Mr. LaTourette. Or the other questions. But No. 4, the 
hotel in San Francisco rings a bell?
    Mr. Trie. Yes, No. 4, even No. 5 I might understand this 
one because that's LA Bank.
    Mr. LaTourette. Well, that's the next part, right?
    Mr. Trie. Right.
    Mr. LaTourette. Well, that item No. 4 on the San Francisco 
hotel indicates--the document recommends finding six Chinese 
investors to put in $1 million each, and it states that they 
can use that to then request immigration.
    Did you ever discuss the San Francisco Hotel venture with 
anyone in the Riady family or in the Lippo organization?
    Mr. Trie. No.
    Mr. LaTourette. Did you ever discuss it with Antonio Pan?
    Mr. Trie. I think Antonio Pan ask me, so I remember this.
    Mr. LaTourette. Well, when you say that he asked you, was 
Antonio Pan asking if you wanted to be one of the six investors 
at $1 million apiece?
    Mr. Trie. No, not just maybe locate.
    Mr. LaTourette. Locate six investors?
    Mr. Trie. Yeah, yeah.
    Mr. LaTourette. Chinese investors?
    Mr. Trie. Yes.
    Mr. LaTourette. OK. Who is the document referring to--if 
you go a little further down in the document, it talks about an 
individual by the name of Wang Jun; do you see that? 
Specifically, it says that Wang Jun buy the Lippo Bank stocks 
with money as reinforcement to enter the U.S. market. Do you 
see that portion of the document?
    Mr. Trie. Yeah, more likely I look at the whole thing, 
should be Antonio Pan draft the whole thing.
    Mr. LaTourette. I'm just asking if you see it. I want to 
ask you some questions about that portion of the document. I'm 
asking if you see that portion of the document so I can ask you 
a question.
    Mr. Trie. OK.
    Mr. LaTourette. Are we all set?
    Mr. Trie. Yeah.
    Mr. LaTourette. OK. Who was Wang Jun first of all?
    Mr. Trie. Wang Jun is chairman of the CITIC, of Chinese 
corporation.
    Mr. LaTourette. And you know him and knew him back at this 
time period, did you not, 1996?
    Mr. Trie. Yes, yes.
    Mr. LaTourette. What the document refers to, it says, 
``Knowing you have good relations with Wang Jun.''
    Mr. Trie. Correct.
    Mr. LaTourette. Did you have good relations with Wang Jun?
    Mr. Trie. Yes.
    Mr. LaTourette. Is that referring to you?
    Mr. Trie. Yeah, you--me.
    Mr. LaTourette. You as----
    Mr. Trie. Yes. I mean, should be is me, because I brought 
Wang Jun to the White House coffee.
    Mr. LaTourette. All right. But the document again, we're 
still talking about the San Francisco hotel, and it says the LA 
bank stocks. The document says, ``That maybe a part of the LA 
bank stock can be sold to Wang Jun.'' The LA bank is--first of 
all, what LA bank is the document referring to?
    Mr. Trie. I believe it's Mr. Yeh's bank.
    Mr. LaTourette. Mr. whose bank?
    Mr. Trie. Yeh.
    Mr. LaTourette. But it indicates that--it goes on to say, 
``Knowing that you have good relations with Wang Jun'', and so 
the document's referring to you, you believe; you're the one 
with the good relations?
    Mr. Trie. Yes.
    Mr. LaTourette. The document also indicates proposing that 
Wang Jun buy the Lippo Bank stocks with money as reinforcement 
to enter the U.S. market and so forth and so on. He knows that 
you have good relations with China?
    Mr. Trie. Yes.
    Mr. LaTourette. And does that also refer to you?
    Mr. Trie. I believe so, yes.
    Mr. LaTourette. So Mr. Pan, in writing that document, is 
expressing the view that you have good relations with China?
    Mr. Trie. Yes.
    Mr. LaTourette. Were you proposing a way for--were you 
attempting to find a way for Wang Jun to enter the United 
States, the U.S. market; is that what this was about?
    Mr. Trie. This is just--from my look, it's just a business 
potential, because there is a bank for sale. So, you know, if 
Wang Jun have the money, can he buy this bank.
    Mr. LaTourette. Well, that's exactly what it is.
    Mr. Trie. Yes.
    Mr. LaTourette. Did you ever discuss this proposal with 
Wang Jun?
    Mr. Trie. No.
    Mr. LaTourette. Are you aware of any relationship between 
James Riady and Wang Jun?
    Mr. Trie. No, because Mr. Antonio Pan work for me. He used 
to work for Jim Riady, and he probably--he know Wang Jun, 
because when Wang Jun come to here, but he don't have a chance 
to talk to Wang Jun, so he let me know that this is a plan, 
that's all.
    Mr. LaTourette. And so this was something that had no--I 
mean, other than the conversation with Antonio Pan, saying 
that, ``Hey, here's something that's going on''----
    Mr. Trie. Would you do it?
    Mr. LaTourette. He asked you to do it?
    Mr. Trie. Yeah.
    Mr. LaTourette. But you didn't do it?
    Mr. Trie. No, no, no. This never happened.
    Mr. LaTourette. OK. And again, just to finish this 
document, and then I'll be done with this series of questions. 
The last two paragraphs talk about the possibility of followup 
meetings with Riady and John Huang about these proposals. To 
your knowledge, did any of those meetings take place, any 
meetings between James Riady and John Huang concerning the 
proposals in the exhibit in front of you, 250 whatever it is?
    Mr. Trie. I think this is just Mr. Antonio Pan was making 
some deal, wanted for me to followup. I never went to New York 
with John Huang--I mean, John Huang in New York of October 
10th. We never have a meeting with him.
    Mr. LaTourette. You never had a meeting with him?
    Mr. Trie. Never had a meeting with John Huang in New York 
on October 10th. I think the whole thing is just a planning, 
business planning.
    Mr. LaTourette. Now, obviously, your name has appeared in a 
number of newspaper articles concerning the campaign 
fundraising scandal surrounding the 1996 Presidential campaign. 
Have you had any conversations with James Riady concerning any 
of the articles?
    Mr. Trie. No.
    Mr. LaTourette. Have you had any conversation with him 
concerning your involvement in the campaign fundraising 
scandal?
    Mr. Trie. No, he don't know much about me.
    Mr. LaTourette. Have you received any money from James 
Riady or anyone affiliated with the Lippo Group, that either 
did or didn't make its way into the hands of the Democratic 
National Committee?
    Mr. Trie. I received one of the wire money from--under--I 
think 1994 from--what's his name? Yeah, Lucky Port. But I 
couldn't recall.
    Mr. LaTourette. Other than that recollection by you, no 
other funds from James Riady or the Lippo Group?
    Mr. Trie. No, no, no, no.
    Mr. LaTourette. And just then to close--and I appreciate 
your patience--this whole notion of conduit contributions, just 
to go back to that for a minute, if--and then maybe it's a 
difference without a distinction and maybe it's a level of 
understanding that you have that I don't have--if there was 
nothing wrong with you giving money to the Democratic National 
Committee in your own right--in other words, if you had 
$100,000 burning a hole in your pocket and you wanted to see it 
get into the hands of the Democratic National Committee, why 
did you feel it was necessary to break it up and give it to 
other people so that when the authorities who were in charge 
with policing our Federal campaign laws looked at the report, 
they wouldn't see $100,000 from Charlie Trie. They'd see 
$10,000 from Charlie Trie, $10,000 for this person, $10,000--
why would you feel compelled to do that if you didn't know it 
was against the laws of the United States of America?
    Mr. Trie. Because, only because I think you not have--my 
bank account don't have that much money.
    Mr. LaTourette. Because your bank account doesn't have 
enough money to cover the amount of contributions that was 
being made?
    Mr. Trie. Yes. See, sometime five or six people call me, I 
cannot write that much check.
    Mr. LaTourette. But I guess now this causes me a bigger 
problem--sorry, Mr. Chairman--but earlier, when I asked you 
about conduit contributions, you said that there's two ways 
that conduit contributions can go. You can either be the money 
man or sort of the middle man, the bag man, and I understood 
you to say that you were the man with the money, that gave 
money to other people to give to the Democrats. Isn't that the 
way this worked, as opposed to----
    Mr. Trie. Yes.
    Mr. LaTourette. OK. Well, then what do you mean you didn't 
have enough money in your bank account, because you not only 
had enough money to cover yours, you were giving money to other 
people to give, so your answer doesn't make any sense to me.
    Mr. Trie. It's a friend of mine, Mr. Wu, provide the money.
    Mr. LaTourette. OK. So you're not the man with the money; 
you're the middle guy. Somebody gave you money, and then you 
took somebody else's money and gave it to a bunch of other 
people and they donate it; is that right? I mean, really, I 
just want to know what you were doing.
    Mr. Weingarten. Mr. Chairman, I could explain this in 30 
seconds.
    Mr. LaTourette. Well, I'd be happy to have you explain it, 
and I don't have any objections to that, as long as your client 
then affirms your explanation, since he's the one under oath.
    Mr. Weingarten. We're talking about two separate----
    Mr. Burton. We're breaking with normal tradition, but go 
ahead.
    Mr. Weingarten. We're talking about two separate 
categories----
    Mr. Burton. Put the--would you hold the mic there, 
counselor?
    Mr. Weingarten. Thank you. We're talking about two separate 
kinds of conduct. Mr. Wu sent money into the United States. Mr. 
Trie has testified here and elsewhere that he believed that to 
be common money, and that he was able to make contributions as 
he saw fit, because it was pursuant to a common goal with Mr. 
Wu. Mr. Trie has testified repeatedly that in his mind, that 
was not illegal.
    Second category of conduct is subsequent--mostly in 1996 
there were conduit contributions, wherein he would approach 
people, sometime friends, sometimes families, and he would 
prevail upon those people to make contributions, and later he 
would reimburse those people. So we have both categories of 
conduit contributions from some person's eyes. It's that second 
category that he pled guilty to.
    Mr. LaTourette. OK. And is that your understanding, Mr. 
Trie, that that's what you think is----
    Mr. Trie. Yes.
    Mr. LaTourette. That's the straight skinny, OK.
    On that second category though, are you telling the 
committee that the reason that you operated that way is because 
you couldn't--you wanted to make sure that at a certain 
fundraising event the President of the United States and his 
party had $100,000, and you didn't have $100,000, and so a 
friend, where you front the money, ``I'll pay you back later?'' 
Because there's nothing wrong with that, right?
    Mr. Trie. OK. You have to--I let you know the circumstance 
on that time. Sometime when the--well, let's say the event, 
just like the event at the Hay-Adams. Then some more money have 
to come in, but I didn't have the money in there, so Mr. Wu 
haven't come in yet, so I cannot write the check to people, so 
I tell people to write a check, so I can reimburse when he come 
here and have the cash, but my bank account doesn't have the 
money.
    Mr. LaTourette. Right. But you then paid them back when you 
received the money?
    Mr. Trie. Yes.
    Mr. LaTourette. And is it your testimony that the reason 
that you went through that is because you didn't have the money 
to cover it at the time, and you had no interest in--I mean, 
you knew from these fundraising events--I mean, you had been 
giving money to the Democrats for a very long period of time. 
You know that when you go to an event, you have to fill out who 
you are, where you live, you know, that you work at a certain 
place, so that we can keep track of that, or the Federal 
Government can keep track of that, but you knew, under this 
scheme that you had going on, that when we checked the records 
for an event at the Hay-Adams or anything else, we'd see a lot 
of names with people whose money wasn't even their money that 
was being given to the Democratic National Committee, right? 
You knew that.
    Mr. Trie. Yes. That was----
    Mr. LaTourette. And you knew that it was wrong?
    Mr. Trie [continuing]. Wrong, yes.
    Mr. LaTourette. The only thing that you haven't been 
willing to tell us, despite the fact that you apparently have 
immunity, is that wrong doesn't equal illegal to you; it's some 
wrong out there in the----
    Mr. Trie. OK. If I put it this way, like a wrong, you make 
a U-turn, but the law is different.
    Mr. LaTourette. So you're telling us that----
    Mr. Trie. I don't think--I don't know the election law 
until the--I find out this FEC.
    Mr. LaTourette. OK. So you would have everyone that is 
interested in this, that these are errors of judgment, but 
certainly you didn't mean to break the laws of the United 
States, right? Is that right?
    Mr. Trie. Yes.
    Mr. LaTourette. Is that right? Am I correct in that 
statement, sir?
    Mr. Trie. I'm sorry, sir. Can you repeat?
    Mr. LaTourette. I don't think I can, but I'm going to give 
it a shot. Are you saying that you're asking those of us that 
are interested, that these were just errors in judgment, but 
certainly you had no intention at this time, with these 
illegal--or these conduit contributions--of breaking any rules 
or laws?
    Mr. Trie. Yes. You correct, this is the law.
    Mr. LaTourette. I know I'm correct, but I was going to your 
intent. I think I've beat that horse enough. Thank you, Mr. 
Trie.
    Mr. Burton. Let me just--before I yield to--did you want to 
ask questions, or do you want me to yield to Mr. Horn first? 
Mr. Horn was next.
    Mr. Waxman. Have him go, and then I'll go.
    Mr. Burton. Before we yield to Mr. Horn, let me just say 
there were three pages of conduit contributions that we gave to 
you. Are you saying that all of those conduit contributions 
were because you didn't have enough money in the bank at that 
time, every single one of them?
    Mr. Trie. Some of them is I didn't give money for.
    Mr. Burton. I know, but are you saying all of the conduit 
contributions that you were involved in, all of them, were 
because you didn't have enough money in the bank at the time?
    Mr. Trie. Also I don't think my name is--I want to be low 
key. I don't want my name always to have $100,000.
    Mr. Burton. You don't want to have your name on them?
    Mr. Trie. Yeah. In my----
    Mr. Burton. OK. Well, I think that's a very important 
point, because you have been leading us to believe that the 
reason these conduit payments took place was because you didn't 
have enough money in the bank----
    Mr. Trie. That's one of the reason.
    Mr. Burton. But there were also a lot of conduit 
contributions you made where you did have money, and you didn't 
want your name on them; isn't that correct?
    Mr. Trie. That's a part of the reason in my mind.
    Mr. Burton. Thank you. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    And Mr. Trie, my questioning will relate to the following 
premise here, that between May 1994 and November 1996, Ng Lap 
Seng wired $1,105,000 to you or his companies, and during that 
time Mr. Wu also brought in another $382,929 in cash and 
travelers checks to the United States during his visits. But I 
want to stick with Mr. Ng Lap Seng, and I'd just like to go 
through some simple questions with you.
    When did you first meet Ng Lap Seng?
    Mr. Trie. Ng Lap Seng is 1994 or late 1993.
    Mr. Horn. And where was that?
    Mr. Trie. I met him in Hong Kong.
    Mr. Horn. In Hong Kong?
    Mr. Trie. Yes, airport.
    Mr. Horn. You were there on business?
    Mr. Trie. No. Somebody introduced me, so I went to look 
him--he was waiting for me.
    Mr. Horn. How did you happen to meet him in Hong Kong?
    Mr. Trie. Oh, it's just people say he want to see me, so I 
went to Hong Kong from Beijing.
    Mr. Horn. So this was at his request?
    Mr. Trie. People introduce us. The lady introduce us is 
called Maria Han.
    Mr. Horn. When you first met him, did you know anything 
about his background at that point?
    Mr. Trie. No, no.
    Mr. Horn. Why did you go to Hong Kong and see him? What was 
the purpose, money for the Democratic National Committee or 
money for a hotel?
    Mr. Trie. No, not even a hotel. It's just a friend 
introduced. I just go to see him.
    Mr. Horn. And you just felt this was another business 
person you wanted to like or what?
    Mr. Trie. Yes, I just wanted to know him.
    Mr. Horn. Now, what was your relation with him over time 
then, once you met him in Hong Kong?
    Mr. Trie. We become real good friend, also a business 
partner.
    Mr. Horn. What kind of a background did you find out that 
he did have?
    Mr. Trie. Oh, everything I have is from him to tell me. 
He'd say, in the late 1970's, somewhere around 1976 or 1977, he 
and his wife, I think swim from Tuhai to Macau, and they stay 
in Macau. They do everything, and lately they do the textile. 
By late 1980's the textile business went down, so they start 
doing, you know, real estate business, which is like buying to 
sell. And at that time, I remember is real estate is real 
downhill in Macau, Hong Kong and China. So he become involved 
in that business, but he--because I think he's a very smart 
man, so he make a real good business. Then 1990's, I think in 
1993, he involve in project called Nam Van Lakes, which is in 
Macau. So when I met him, he say he needed some investor from 
other country, especially if he can--he doesn't speak English, 
so he say, ``You can help me to locate people to help with this 
project.'' So we went to Macau to see Nam Van Lakes project. 
Also, when we come back here to the United States, I remember I 
brought some of the brochure of his project.
    Mr. Horn. Do you know what year he arrived in Macau? Was it 
about a year before you met him, or how long had he been there?
    Mr. Trie. 1976, somewhere, 1976, 1977.
    Mr. Horn. 1976.
    Mr. Trie. Yes.
    Mr. Horn. Where had he come from in China, which province?
    Mr. Trie. Guangdong Province, because he speak Cantonese. 
In the beginning we met, he don't speak well Mandarin.
    Mr. Horn. Do you know how much money he's worth, or was 
when you met him?
    Mr. Trie. I cannot give exact number, but I think he worth 
like a billion Hong Kong dollar at least.
    Mr. Horn. Did he have a lot of buildings or industries on 
Macau?
    Mr. Trie. Oh, yes, yes.
    Mr. Horn. And also in Hong Kong?
    Mr. Trie. And also in China.
    Mr. Horn. And also in China?
    Mr. Trie. Yes.
    Mr. Horn. How about Taiwan, did he have anything there?
    Mr. Trie. No.
    Mr. Horn. Nothing in Taiwan.
    Mr. Trie. No.
    Mr. Horn. How did Ng make his money then? Was it from some 
of these industries? You've mentioned textiles, for example.
    Mr. Trie. No. Textiles he didn't make money, but during 
the--by that time nobody was involved in construction, but 
since 1991, you know, the buildings come in so fast. I believe 
I have all his--not all his--most of his bank record on file, 
because when we tried to buy the Camelot Hotel, they request 
the background of investor, so I think he have all the 
financial statement on his business.
    Mr. Horn. Was he mostly putting the money from different 
investors in projects, or did he have already the money to 
spend on the projects?
    Mr. Trie. Oh, I think he--people--because the way I look 
him, first he work real hard, and second, he's a very smart 
man. He know the number real well. So I think people invite him 
to purchase, because sometime the Chinese people cannot go out 
of country. You know, at that time, it is not easy--even now is 
not easy to go out of Hong Kong or out of Macau. Now Hong Kong 
is better, but at that time is not easy. So people want to do 
business, they always want to find some people can free travel. 
So he involved Nam Van Lakes project.
    Mr. Horn. Now, did you meet some of his business partners 
over time?
    Mr. Trie. Yes.
    Mr. Horn. What type of people were they?
    Mr. Trie. One person, he sell jewelry; one person, he is 
doing travel agents; one people, he's in partnership in Nam Van 
Lakes project.
    Mr. Horn. Did those business partners want to have 
opportunities in the United States or did they ever discuss 
that?
    Mr. Trie. No, no, no. They mostly--mostly they are 
interested in--especially for Mr. Wu, all he want to do is buy, 
and all he have--even now he have thousands unit of the 
apartment unit he try to sell to people, thousands. So that's 
all he concerned, to sell his apartment. He don't know--the way 
he told me, he didn't have education. All he do is know how to 
work, so his interested in that real estate project. In that 
time, I think they are facing financial difficult in Nam Van 
Lakes project, because it was a real big project. So he was 
thinking, you know, there's American people--because lots of 
American companies going to Hong Kong, but Hong Kong real 
estate went so high in--almost three to five times more than 
Macau, so he bought a lot of building. And sometime he bought 
buildings not to say you pay how much, you just sign the deal, 
then he resell to people real quick. But I think he stuck on 
the Nam Van Lake.
    Mr. Horn. Were these business partners from his province in 
China? Were they friends from, say, a long time back?
    Mr. Trie. Yeah, most of them are.
    Mr. Horn. What type of backgrounds did they have?
    Mr. Trie. There's some government official which is a city 
mayor, I remember, a gentleman named--I couldn't recall this 
minute, but I know his name. And he--that's where Mr. Wu from, 
and they know each other a long, long time. So some people--
most of the people is business people, so what they do is--like 
I have a building, so I just tell you can you buy. That's what 
happened under Wang Jun. His assistant, she tried to buy his 
complex building in Guangzhou, which is next to a subway. 
That's how they do. If I have a building, if your company want 
to buy, I just go ahead sell to you. When I buy this guy, I 
probably don't have to pay. But when you buy it, you pay me, 
then I repay to them.
    Mr. Horn. Did you ever have the thought that maybe money 
was coming from China to go through them as a conduit, not for 
politics, but for business, and did you feel there was ever a 
relationship----
    Mr. Trie. Never, because I been with him so long. The way 
he spend money or the way he do business. The important thing, 
he doesn't even speak English. And we didn't even get along 
together under language because he speak Cantonese; I speak 
Mandarin. But after he been with me, he learn Mandarin, but in 
Beijing everybody speak Mandarin. He had no way to go there and 
tell people, to influence in something he don't even know. I 
don't even know, that's a problem.
    Mr. Horn. Well, it's pretty well understood that the 
People's Liberation Army in China have investments both in 
China and the countries that ring China, and they had 
substantial money for this. So I just wondered if any of your 
feelings were that money was coming through the People's 
Liberation Army?
    Mr. Trie. No, because when I know him, he already have so 
many business. That's not just a coincidence. He try to know me 
and his daughter have money. Look, remember when I know him not 
a long--a little bit later, we went to Little Rock, AR. His 
company have a financial report many years already, so, you 
know, I believe he make the money already, not a coincidence, 
and the way I feel is he is a real estate business, so we 
involve is try to sell real estate in that time.
    Mr. Horn. Well, he probably hit it at the right time of the 
market.
    Mr. Trie. Yes.
    Mr. Horn. If it's any relation to our economy. Did Mr. Ng 
have any business with the Hughes Co., an American company?
    Mr. Trie. No, no.
    Mr. Horn. Or any of its subsidiaries?
    Mr. Trie. I don't think so. Everything I know he have is 
build a building. He have a two building in Shanghai, in Chung 
Du and Harbei and Guangzhou. He have many, many building in 
Macau, and I don't know Hong Kong. He have office in Hong Kong.
    Mr. Horn. Were Mr. Ng's Chinese business partners that had 
not gone over the line to go to Hong Kong or Macau or wherever?
    Mr. Trie. Oh, they do. When they signed a contract with him 
to buy the building, they are allowed to go there. Just like 
the United States issued a invitation for them to come. Macau 
is real close, so a lot easier than come to the United States.
    Mr. Horn. It's a beautiful place. Why does Ng--does he have 
any business dealings that you know of with the Chinese 
Government in terms of official government agencies that are 
letting him put money in the area outside of China?
    Mr. Trie. No, I don't know that.
    Mr. Horn. How about money from Taiwan? They're always 
looking for investments; did he ever have any money from 
Taiwan?
    Mr. Trie. Well, he--me and him does go into Taiwan, try to 
look at the investor, but when people come in to--we did bring 
people back to Macau to help him try to sell the building, but 
people didn't--far as I know, didn't went through.
    Mr. Horn. Do you have any feeling that he had relations 
with Chinese intelligence officers?
    Mr. Trie. I don't recall that, but you know, because of the 
way--if you look at him, you know, you will not deal with him 
in something like this, because he just straight business man, 
for I look at him.
    Mr. Horn. Well, if intelligence officers had money, would 
he be looking for money from them?
    Mr. Trie. He might me introduce me as, you know, his 
friend, but I never recall, just like if--he did business with 
CITIC chairman Wang Jun or not, I don't even recall, because 
don't worry about what he do because all I try to do, find a--
because it's a big commission if I find any people to go into 
the--the Nam Van Lakes I think is $1 billion.
    Mr. Horn. Well, it was shown, and still is, in Russia, when 
it was the Soviet Union, and I think in China, the people that 
ran the intelligence operations had a chance to leave the 
country, put money in places outside of the home country, and 
also to take money with them, because nobody was really going 
to search them in terms of at least in China, or in Russia in 
the case. So I just wondered if you felt in any way that he was 
involved with them in planting money in projects, hotels, 
office buildings, whatever?
    Mr. Trie. Be honest with you, most time I see, he give 
money to people because the people come to Macau need spending 
money. I remember he have helped people, but I never see people 
give him money, because he's a huge businessman.
    Mr. Horn. So he was investing his money, you are saying?
    Mr. Trie. Yes, sir.
    Mr. Horn. And was it mostly in Hong Kong, or was some in 
China, I believe you did say?
    Mr. Trie. Most of the money is in China, but Macau have one 
of the huge project.
    Mr. Horn. Did much of the money go to Shanghai?
    Mr. Trie. Yeah, he have two of the residential complex. One 
is 20 some floor and another one is 30 some floor.
    Mr. Burton. Mr. Horn, if we could interrupt you, Mr. Waxman 
has a couple questions, and then we'll try to resume with you 
in just a few minutes.
    Mr. Horn. All right.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Trie, in October 1997 David Wang testified before this 
committee, and he was under oath, and he said that a Democratic 
National Committee fundraiser, John Huang, came to his place of 
business in Los Angeles and gave him cash in return for a 
campaign contribution. And according to Chairman Burton, ``Mr. 
Wang's testimony was the first time in my memory,'' as he said, 
``that we have seen evidence of such blatantly illegal activity 
by a senior national party official.'' He was talking about Mr. 
Huang. During the same hearing at which David Wang testified, 
however, I introduced documents, including eyewitness 
statements, that show that Mr. Huang was in New York on the day 
that Mr. Wang claims that he met him. And in December, when 
John Huang testified, he told this committee that he had 
nothing to do with Mr. Wang's reimbursement.
    Maybe you can help clear this up. I understand that you 
were asked about David Wang's contribution by the FBI. The 302 
interview notes, the report of their interview with you, 
indicate that it was you and Antonio Pan who reimbursed David 
Wang, not John Huang. Is that right?
    Mr. Trie. Can I have a background on this Mr. Wang? Is he a 
car dealer?
    Mr. Waxman. Yes.
    Mr. Trie. Oh, yes. That's--is us. I didn't give him--I 
didn't reimburse him, but Antonio Pan reimburse him.
    Mr. Waxman. And Antonio Pan was your employee, wasn't he?
    Mr. Trie. Yes, sir. And Antonio Pan was the one introduced 
me to meet him when we were in LA. I think it was, say, 
September time.
    Mr. Waxman. Was that the only occasion you met Mr. Wang?
    Mr. Trie. One or two time. I don't remember. One time I was 
in his car dealership, the lot.
    Mr. Waxman. Well, let me ask you this, just so we have it 
very clear. Did you and Mr. Pan reimburse David Wang for his 
contribution to the Democratic----
    Mr. Trie. I believe so.
    Mr. Waxman. Was John Huang in any way involved in or aware 
of the reimbursement of David Wang?
    Mr. Trie. No.
    Mr. Waxman. Well, I think that clarified what you had to 
say and what Mr. Huang had to say, that there was an error in 
the testimony we received from Mr. Wang. It wasn't John Huang, 
but Mr. Pan or you that was responsible for making the 
reimbursement to him for his contribution.
    Mr. Trie. Yes.
    Mr. Waxman. OK. I have no other questions, Mr. Chairman, 
and yield back the balance of my time and let others pursue 
what they wish.
    Mr. Burton. Thanks, gentleman.
    Mr.--did you have further questions that you wanted to ask?
    Mr. Horn. I do.
    Mr. Burton. Do you know how much time you will require?
    Mr. Horn. Well, let's see. We might have quite a bit more 
time.
    Mr. Burton. We are trying to conclude by 6, as close to 
that as possible. Can we go ahead with--who's next on the list? 
Could we go ahead with Mr. Barr, and then come back and try to 
conclude with some of your----
    Mr. Horn. Do you want to do it next week or now?
    Mr. Burton. No, today. We'll just try to come back and 
conclude with you.
    Mr. Horn. OK. So we'll yield to Mr. Barr?
    Mr. Burton. Mr. Barr.
    Mr. Barr. How much time do we have, Mr. Chairman, just so I 
can gauge so that Mr. Horn and Mr. Shays----
    Mr. Burton. Well, we want to try to conclude by 6 o'clock 
or as close to that as possible.
    Mr. Barr. OK.
    Mr. Shays. Mr. Chairman, I have questions as well.
    Mr. Burton. I understand. Why don't we try to--would it be 
possible for you to limit your questions to 10 minutes?
    Mr. Barr. Certainly.
    Mr. Burton. OK.
    Mr. Barr. Mr. Trie, I believe earlier, in response to some 
questions, the name was mentioned, Maria Han Xiao?
    Mr. Trie. Yes, Maria Han Xiao.
    Mr. Barr. And she introduced you to Mr. Ng Lap Seng; is 
that correct?
    Mr. Trie. Correct.
    Mr. Barr. You have known her for quite some time; is that 
correct?
    Mr. Trie. Correct.
    Mr. Barr. You incorporated a company called Sanyou Science 
& Technology Enterprises; is that correct?
    Mr. Trie. Correct.
    Mr. Barr. Was one purpose of that company that you 
incorporated in the United States, to conduct business with the 
Sanyou Scientific & Technical Industry Group in Beijing?
    Mr. Trie. Correct.
    Mr. Barr. And Ms. Maria Han is connected to the Sanyou 
Scientific & Technical Industry Group in Beijing; is that 
correct?
    Mr. Trie. Yes.
    Mr. Barr. Did you also incorporate--or you did also 
incorporate a company called Premier International Investment, 
Inc.?
    Mr. Trie. Yes.
    Mr. Barr. In 1995?
    Mr. Trie. Yes.
    Mr. Barr. Now, this company never did any active business, 
did it?
    Mr. Trie. No.
    Mr. Barr. Who is Mr. Chen Zhu?
    Mr. Trie. He is one person I met in LA from a friend of 
mine called Ding Xao Chiang. He's kind of a super power--nature 
of super power person. So we had been talking, you know, what's 
his super powers--like a religious, and he really know how to 
perform under super power.
    Mr. Barr. In China?
    Mr. Trie. No, in LA. I remember I brought him to Little 
Rock, show the magic.
    Mr. Barr. To do what?
    Mr. Trie. Do the super powers thing.
    Mr. Barr. In Arkansas?
    Mr. Trie. Yeah, in Arkansas, in Little Rock, AR. Also I 
remember bringing him to Washington, DC. You know, he just 
wanted to know people. He wanted to try to do the show.
    Mr. Barr. He was president of your firm, the Premier 
International Investment, Inc., was he not?
    Mr. Trie. Can I see the paper?
    Mr. Barr. I don't know that there's a paper. It's my 
information that he was president of the firm; is that correct?
    Mr. Trie. Well, I don't think so, but you know, maybe his 
friend let him be the president. I remember there was agreement 
with another gentleman.
    Mr. Barr. Well, let's go back to basics then if you don't 
know that he was the president.
    Mr. Trie. Sure.
    Mr. Barr. Who is the president? It's your company.
    Mr. Trie. Normally I would be the one.
    Mr. Barr. Are you the president of Premier International 
Investment, Inc.?
    Mr. Trie. I think so.
    Mr. Barr. Well, are you?
    Mr. Trie. Because I have so many company, I don't remember 
this name--I remember this name, but who is the one president I 
cannot tell you.
    Mr. Barr. So you're telling us you have so many companies, 
you don't even know what you're the president of and what 
you're not the president of?
    Mr. Trie. Yes, some of them I know.
    Mr. Barr. I commend you for being able to say that with a 
straight face. I'm impressed.
    Is Mr. Chen Zhu the president of Premier International 
Investment, Inc., or has he ever been the president of the 
firm?
    Mr. Trie. I don't believe he actually do anything for this 
corporation.
    Mr. Barr. OK. So if we have information to the contrary, 
that information is false?
    Mr. Trie. We was working together, so I don't know who is 
the one, because this company never do any business. And that 
time just some little company so they can come here to do 
business.
    Mr. Barr. Who is Mr. Qiao Shi?
    Mr. Trie. He can pronounce better. I mean--I couldn't 
recall this name.
    Mr. Barr. But you can recall the name of Chen Zhu?
    Mr. Trie. I can remember Chen Zhu, yes, Chen Zhu.
    Mr. Barr. What is the name of his godfather?
    Mr. Trie. Oh. I couldn't remember that name, because he 
just--that's what--tell me.
    Mr. Barr. Well, he told you it was Qiao Shi, did he not?
    Mr. Trie. Oh, yeah, also he say Qiao Shi, yes. But you 
know, later I find out I don't have to believe him.
    Mr. Barr. And he is a high-ranking official with the PRC?
    Mr. Trie. Yes, that's how many of these people use those 
people name to support their--you know, activities.
    Mr. Barr. And that would be a reason why you might have 
made him president of your company, because----
    Mr. Trie. That's not--that never will be the reason, 
because when----
    Mr. Barr. So when you say you brought people in because 
they played the super-power game----
    Mr. Trie. Yeah, but I don't believe he say that his 
godfather would be somebody--you know, those people just say 
something. But to this company we did together was another 
gentleman--I couldn't remember the name right now, but if I 
look at a document I will know, I can point out that person's 
name. It's very common, you know, to turn the joint venture to 
a company, but later on maybe, you know, we don't work 
together. This company never done any business.
    Mr. Barr. In certain types of industries it is common to 
create a number of shell corporations, and I'm sure your 
attorneys are familiar with creating shell corporations that 
never do any legitimate business. Sometimes we call them 
conduits for money laundering. Sometimes they're set up to 
launder money for campaigns. I understand.
    Are you familiar with the Grand Union Corp., or is this 
another one that escapes your recollection, the Grand Union 
Corp., incorporated in Washington, DC in February 1996?
    Mr. Trie. Yeah, is me and Peter Chen form the company.
    Mr. Barr. Peter Chen. OK, so you remember Mr. Chen?
    Mr. Trie. Yeah, Mr. Peter Chen.
    Mr. Barr. And he was president?
    Mr. Trie. I don't remember who the president. I cannot 
remember who is the name under president.
    Mr. Barr. I know, it's very difficult, all these companies 
and names floating around out there. You don't recall 
describing him as the biggest guy in the trade center?
    Mr. Trie. No, smart guy, smart, very smart.
    Mr. Barr. A smart guy?
    Mr. Trie. Yes.
    Mr. Barr. And is that why you might have made him president 
of Grand Union Corp., because he was a very smart guy?
    Mr. Trie. Could be.
    Mr. Barr. Could be. Who was Mr. Mo Kin Ching?
    Mr. Trie. He's a lawyer. He work with Mr. Peter Chen. They 
are trying to buy building in Hong Kong.
    Mr. Barr. Is he connected with a company under the control 
of the Xin Hua News Agency in Beijing?
    Mr. Trie. Excuse me?
    Mr. Barr. Is Mr. Mo Kin Ching connected with a company that 
is under the control of the Xin Hua News Agency in Beijing?
    Mr. Trie. I met him several times. I know he's a lawyer in 
Sanzin. He was the first lawyer practice law in Sanzin City 
back in the 1970's. That I know, his background is a lawyer.
    Mr. Barr. So you're not aware of the fact that he is 
connected with a company controlled by the Xin Hua News Agency; 
you're not aware of that?
    Mr. Trie. I couldn't recall that because this was Peter 
Chen. Peter Chen is my brother-in-law. Everybody he introduce 
me, I talk to them.
    Mr. Barr. OK. Let me move to one other company, the America 
Asia Trade Center. This was incorporated in 1996 also, a banner 
year for incorporations. Are you familiar with that company?
    Mr. Trie. Yes.
    Mr. Barr. And are you familiar with Albert Yeung, Y-u----
    Mr. Trie. Yeah, Albert Yeung. He's in Hong Kong. Yes, I 
know him.
    Mr. Barr. You know him for a number of reasons, including 
that he lent you $200,000 that you never repaid; is that 
correct?
    Mr. Trie. Correct.
    Mr. Barr. Did that company also--that is, America Asia 
Trade Center, receive a $100,000 wire transfer from the CP 
Group?
    Mr. Trie. Correct.
    Mr. Barr. And the CP Group is a client of Pauline 
Kanchanalak; is that correct?
    Mr. Trie. I don't know that.
    Mr. Barr. Then you also would have no knowledge, I suppose, 
of why the CP Group would send the $100,000 wire transfer to 
you?
    Mr. Trie. I know that.
    Mr. Barr. OK. Why was that?
    Mr. Trie. That's when they were--at that time, if I 
remember correct, is a shortage of cotton, which I did one 
time. They wanted me to provide all the information out on the 
Mississippi River on the cotton, where to buy it, where to--you 
know, just to work a deal.
    Mr. Barr. This $100,000 wire transfer, was it also 
connected to a June 18th, 1996 White House coffee, or was that 
separate?
    Mr. Trie. June--can I look at----
    Mr. Barr. June 18th, 1996. White House coffee.
    Mr. Trie. No.
    Mr. Barr. The America Asia Trade Center did receive a 
$100,000 wire transfer from the CP Group on May 30, 1996; that 
is correct?
    Mr. Trie. Correct.
    Mr. Barr. And we have exhibit 314, which shows that. Is it 
your testimony that you had no knowledge that the CP Group was 
attending a White House coffee the very next month, in June 
1996?
    [Exhibit 314 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.097
    
    Mr. Trie. We probably talk about the CP Group of two 
different parties. One CP Group is in Thailand. Another CP 
Group is in Hong Kong. I believe they are--the chairmen are 
brothers. I know the person in Hong Kong, we probably--we have 
two separate thing.
    Mr. Barr. And, finally, also with regard to the America 
Asia Trade Center, Mr. Marvin Rosen, you're aware of him, are 
you not?
    Mr. Trie. Yes.
    Mr. Barr. The finance chair of the DNC. Did you ask him to 
serve as general counsel for the America Asia Trade Center?
    Mr. Trie. I believe so.
    Mr. Barr. And that was also in 1996?
    Mr. Trie. Yes.
    Mr. Barr. Thank you.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Trie, I would like you to turn to page 6-7 of your 
statement, and I'd like you to read a paragraph after I just 
read a first paragraph.
    You said,

    By mid 1995 I had been involved in political fund raising 
for about 1 year and knew many officials at the DNC. Around 
that time I met a businessman who told me he was working a 
project with Winston Wang in Silicon Valley. I knew that Mr. 
Wang's family owned a large company in Taiwan called Formosa 
Plastics. I was always looking for potential business contacts 
for my international trading company, and I thought Mr. Wang 
may be a good person to get to know. Mr. Wang's associates knew 
that--associate knew that I was a political fund raiser, and 
asked me if I could try to arrange for his boss to meet the 
President. I agreed to look into it.

    I'd like you to read the next paragraph.
    Mr. Trie. Next?
    Mr. Shays. Read the next paragraph, please. This is your 
statement that you didn't read today.
    Mr. Trie. ``I check with my contact in the DNC and find out 
about the Presidential coffee. I'm not sure whom I spoke with, 
but I think it was probably either David Mercer or Richard 
Sullivan. I find out that for a $50,000 contribution to the 
DNC, it were possible to attend a coffee meeting with the White 
House--meeting in the White House with President Clinton.''
    Mr. Shays. Thank you, that's fine. Now, is it your 
testimony that you could basically, for $50,000, buy your way 
into the White House and meet with the President?
    Mr. Trie. Yes.
    Mr. Shays. I'd like you to turn to page 11, and I'll read a 
first part, and then I'll have you read a paragraph.
    ``On our way back to the United States from a business trip 
in Taiwan, we stopped in LA to visit the temple''--now the 
temple--``visit the temple, where we stayed overnight. That 
night we were able to meet Master Hsing Yun, who spoke to us 
and some other guests about his religion and their faith. We 
did not talk about fund raising or politics with the master. 
The next day''--now, why don't you read the next paragraph?
    Mr. Trie. ``The next day a couple of the master's follower 
asked Mr. Pan and I if we were interest in helping the temple 
organize a fund raiser for President Clinton or Vice President 
Gore. They told us that Vice President Gore had visited a 
Buddhist temple in Taiwan when he was a Senator, and had said 
that he would try to visit the Hsi Lai Temple in LA. They ask 
if I thought it was possible for them to get either the 
President or the Vice President to attend event. I told them 
that if they were able to raise enough money for the election, 
it might be possible, and agreed to help when I got back to 
D.C.''
    Mr. Shays. Just read one paragraph, please.
    Mr. Trie. ``When I got back to Washington, I called John 
Huang at the DNC and told him about the temple's proposed 
event. I told him that the temple appear to have a lot of money 
and it might be a good source for contribution. Mr. Huang told 
me he would look into it and get back to me.''
    Mr. Shays. Thank you, Mr. Trie. And then you point out 
later that you were no longer contacted, but basically, you 
introduced the idea of a fundraiser at the temple to the DNC; 
is that not correct? Is that correct?
    Mr. Trie. Yeah, to John Huang, yes.
    Mr. Shays. So this whole event basically started as a 
campaign fundraising event; is that not true?
    Mr. Trie. For me. For me?
    Mr. Shays. The idea of this event was as a campaign 
fundraising event, and you helped initiate it with the DNC; 
isn't that correct?
    Mr. Trie. Yes.
    Mr. Shays. Thank you. I'd like you to look at the list of 
Trie contributions and solicitations. I think we brought it up 
earlier. I would like to introduce into the record. And I want 
to say first, Mr. Trie, it's our understanding that basically 
from Mr. Wu you got about $1 million, and from Tomy Winata, you 
got approximately $400,000 to $600,000. That's kind of the 
range we're at. And that from Suma Ching Hai, you basically 
directed $600,000 to $800,000 to the President's legal expense 
trust, a lot of money here. But this is a list of the money 
that you say on the record you did not know was illegal, but 
it's all laundered money. It's money that other people 
contributed originally and you paid them back. I think there 
are one or two that we probably have to take off the list. Is 
there any--I just want to ask you to start. I mean, some goes 
to the DNC, Senator Daschle campaign, the Clinton/Gore campaign 
in 1996, the Matsui campaign, the Mark Warner campaign, the 
Fund for Democratic Leadership, Tom Daschle, the Clinton/Gore, 
People for Weiland, the DNC, the DNC, the DSCC--I guess that's 
the Democrat Senate Campaign Committee--Daschle for Senate, 
which I guess may be different than Tom Daschle, a lot of 
those, Senator Evan Bayh, Carol Moseley-Braun, a number, and 
then a lot for the DNC. And we're talking over $700,000.
    Without being certain of every one on this list, does this 
list account for some of the money that you basically--I use 
the word ``conspiracy.'' I don't think I've been able to get 
you to accept the fact that it was a conspiracy, but it 
certainly was laundered money. This is money that you gave 
through other people. Explain to me one more time why all these 
different organizations had to have other people give this 
money to them, and then why you had to reimburse them. I can 
understand your comments about the $12,500, but why all the 
money to the Daschle for Senate?
    Mr. Trie. I think there is some mistake in this. More than 
half of the money I didn't reimburse. That's just a mistake on 
the record.
    Mr. Shays. OK. So you're going to come back and say that 
half of this is not money that you basically laundered; is that 
accurate? I can think of a few. The Jim Woodson International, 
the CHY Corp., probably, the Coopersmith. But any others?
    Mr. Trie. Like Yookers Candy, Pauline--I don't know how to 
pronounce--CHY----
    Mr. Shays. Well, here's what I want you to do. I'd like you 
to come back to the committee, when you're taking the 
deposition--not deposition, but you're being interviewed by our 
legal counsel--and I'd like you to go through each one of 
these, and tell us which ones were your money and which one 
wasn't.
    Mr. Trie. I will.
    Mr. Shays. I have another line of questioning, but I don't 
think I have the time, so I think I should probably----
    Mr. Burton. Thank you, Mr. Shays. You've been very, very 
helpful today.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    I want to move, since we don't have much time, to the group 
that is known as the Chinese People's Political Consultative 
Conference [CPPCC]. Were you a member of that and what is the 
purpose of that particular group?
    Mr. Trie. Sir, I didn't get the group.
    Mr. Horn. The Chinese People's Political Consultative 
Conference.
    Mr. Trie. Yeah, OK. No, I am not a member of the group.
    Mr. Horn. What is your understanding of the purpose of that 
particular group?
    Mr. Trie. Oh, my understanding of those people is people 
after they serve as Government official and they retire, they 
were going to that position.
    Mr. Horn. Are they advisors to the Chinese Government?
    Mr. Trie. I believe so.
    Mr. Horn. On what fields?
    Economic development, what?
    Mr. Trie. I don't know exactly but I know that they just a 
title for people retire from the--like mayor or Governor--they 
retire and they go into that.
    Mr. Horn. So, it's what we would call a very prestigious 
organization?
    Mr. Trie. Yes, yes.
    Mr. Horn. These are people that have been Government 
officials----
    Mr. Trie. Yes.
    Mr. Horn [continuing]. Military officers?
    Mr. Trie. Yes.
    Mr. Horn. And what else would make up that group?
    Mr. Trie. Sometime people like----
    Mr. Horn. Well, any Americans in it?
    Mr. Trie. I don't know, might be, you know. American 
Chinese can be doing that. But I never ask because I don't 
think I would be one.
    Mr. Horn. Now, Mr. Ng became a member of that group.
    Mr. Trie. Yes.
    Mr. Horn. Why, how did he get to be a member?
    Mr. Trie. I think if you do--I believe he contributed $20 
million to the police and the city so people give him honor 
because he from the province, that's how they give. It's just a 
local. It's not the, not the high-level, it's just a local. 
That is Hong Kong, the $20 million Chinese dollar.
    Mr. Horn. In Hong Kong dollars or United States dollars?
    Mr. Trie. No, no, Chinese dollar. Equal probably $2 or $2 
million U.S. dollars.
    Mr. Horn. My notes here say from other sources that Mr. Ng 
gave $2.4 million to a Chinese city Government; does that ring 
a bell with you?
    Mr. Trie. You mean the United States?
    Mr. Horn. Well, U.S. dollars, yes.
    Mr. Trie. Yeah. That's what I heard from him say he, you 
know, he been $2-point million to the Chinese Government. 
That's why he be honored to be the party you just mentioned.
    Mr. Horn. Now, do you know the particular city Government 
to whom he gave the money?
    Mr. Trie. I think it is Guang Jeu city because he have lots 
of project in the Guang Jeu city.
    Mr. Horn. What is the relationship of this conference to 
the Communist Government that runs China? What's the 
relationship?
    Mr. Trie. Oh, this is just a local, you know, I, as far as 
I know in the Central Government they also have a--one of the 
new group and there is another National Assembly. So, every 
city have the same similar, this same group. But, you know, 
sometime it just a whole bunch of people they been working 
there. It just an honorable title.
    Mr. Horn. Let me move on here to another relationship. What 
do you know about the relationship between Mr. Ng and Winata?
    Mr. Trie. Oh, Mr. Ng, ooh, I'm sorry. That is a different 
thing.
    Mr. Horn. Go ahead.
    Mr. Trie. He no know, Tomy Winata was introduced by me. 
When we went to the 1994, when the APAC, Mr. Wu never attend 
any kind, this kind of meetings or he came with me to Jakarta. 
So, we met Tomy Winata in that time. And I am not saying that I 
introduced him but we together so he know him. But hardly they 
ever do any business.
    Mr. Horn. Does the Consolidated Trust Co. mean anything to 
you? Consolidated Trust Co.?
    Mr. Trie. Oh, Consolidated, yes. That's his name is William 
Bai. And he's, he invited me to--after I introduce him to Mr. 
Wu he become Mr. Wu's financial consultant.
    Mr. Horn. Well, as I understand it, what kind of business 
does Consolidated Trust do?
    Mr. Trie. Oh, Consolidated they do stock broker.
    Mr. Horn. If we look at exhibit No. 249, there is a 
February 23rd, 1995, letter to Consolidated Trust from the Hong 
Kong Securities and Futures Commission and in February 1995 
were you made a director of Consolidated Trust?
    [Exhibit 249 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.110
    
    Mr. Trie. Correct.
    Mr. Horn. So, that is correct. And according to Mr. Pei it 
was so the company could establish business in mainland China, 
but he and Mr. Ng thought that Mr. Trie had more connections 
there than they did. So, they didn't do much business 
apparently in China or do you know differently?
    Mr. Trie. Mr. Wu mainly do business in China. William Pei 
don't do business in China. He doing business in Hong Kong 
because of stock market in Hong Kong where he know more.
    Mr. Horn. Now, moving to the United States, you and Mr. Ng 
participated in the bidding of the Camelot Hotel in Little 
Rock, AR.
    Mr. Trie. Yes.
    Mr. Horn. And what was Maria Xiao's participation in that 
project?
    Mr. Trie. Maria Han.
    Mr. Horn. Yeah, Maria Han.
    Mr. Trie. Oh, yeah. Because she introduced me to Mr. Wu so 
I was invite her to join Mr. Wu. She have a restaurant in--she 
do a trading business also she have a restaurant in the Capital 
Hotel in Beijing. So, she also invite the president of the 
Beijing Hotel, president to come. I think he didn't make it. He 
tried to come here to look at the potential this Camelot Hotel 
can be renovate and the purchase and what to do. So, we all 
come in at the same time.
    Mr. Horn. Do you know if Maria Han Xiao has any 
relationship with the Chinese Government?
    Mr. Trie. When I met her it was through the Chan city, Mr. 
Soucheng and he introduced me to her. She have the call from 
overseas trading company and also she have a restaurant in 
Beijing. But I--she told me she was in the military and that 
she retired from the military but she is--the time I met her 
she probably was about 35 years old but she, I think she make a 
pretty good business.
    Mr. Horn. So, was she active ever in China in terms of 
projects there?
    Mr. Trie. Yes. He, too, sell like a corn, commodity sell.
    Mr. Horn. During Ng's visit, did you meet in the Excelsior 
Hotel, Excelsior Hotel with Ng, Lorin Fleming and Dwight 
Linkous?
    Mr. Trie. Yes.
    Mr. Horn. And what was that all about?
    Were they the investors?
    Mr. Trie. No. Mr. Fleming is my old friend. He's own an 
electronic company, electrician. Also, he was trying to help us 
do--because the Camelot Hotel is have to totally renovate. He's 
trying to do the electrical part. Excuse me. Dwight Linkous, 
he's one to help us negotiate with the city because he used to 
be a city board director. He want ask to, he want to help us 
get the best.
    Mr. Horn. And now, Linkous has said that Ng handed you 
cash, maybe about $20,000 at the meeting in March 1994; is that 
true?
    Mr. Trie. That's a real possible.
    Mr. Horn. What did you do with the money?
    Have a good dinner?
    Mr. Trie. Maybe he just try to pay the expense, you know, 
he and a whole bunch of group people coming in with me. I don't 
know.
    Mr. Horn. Didn't go into a politician's pocket?
    I mean what happened to the $20,000? Did----
    Mr. Trie. No, no. At that time I never do any contributions 
in that time. Probably just spend it or maybe give it to the 
Fleming or something. I couldn't remember. But that is only 
what he say but I couldn't recall that. But that's possible.
    Mr. Horn. But you agree that it was about $20,000 that you 
were given by Ng?
    Mr. Trie. I just don't remember. I don't remember.
    Mr. Horn. How long did Ng stay in the United States during 
that visit? He came over----
    Mr. Trie. Approximately a week or so.
    Mr. Horn [continuing]. In March. How long did he stay in 
1994?
    Mr. Trie. I think a week or so because we just look over 
the Camelot and get all the paperwork and he provide what he 
needed provide. I don't think he was too long.
    Mr. Horn. He travelled where besides Little Rock?
    Mr. Trie. Hawaii.
    Mr. Horn. Hawaii?
    Mr. Trie. Yes.
    Mr. Horn. So, he got out of Arkansas and headed for Hawaii 
to get back home; is that it?
    Mr. Trie. To go to Beijing, yes.
    Mr. Horn. Well, if you look at exhibit No. 250, it's a 
currency transaction report for Mr. Ng. And I guess I would ask 
the question, were you aware that Ng brought $80,000 in cash 
with him to the United States when he came over here on March 
23rd, 1994?
    Now, we know you got $20,000 of it, but there is $60,000 
left somewhere else. Is that in some politician's pocket?
    [Exhibit 250 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.098
    
    Mr. Trie. At that time we don't know nobody. That's early--
--
    Mr. Horn. You are saying none of that money went into 
Democratic politics; none of it?
    Mr. Trie. No, they didn't, no.
    Mr. Burton. Mr. Horn, are you pretty close to finished or--
--
    Mr. Horn. Well, I will just do one last thing and that's 
were individuals involved in the Camelot deal aware that Mr. Ng 
was the source of the Daihatsu Group's money?
    Mr. Trie. I'm sorry, sir?
    Mr. Horn. In other words, were your investors in the 
Camelot----
    Mr. Trie. No, no, no. I just will be the--in that time I 
didn't have a joint venture.
    [Witness confers with counsel.]
    Mr. Trie. Oh, yes, Mr. Wu is the one, the big one.
    Mr. Horn. Was the source?
    Mr. Trie. Yeah, people knows that. But only because we 
don't----
    Mr. Horn. Had they given you any other money?
    Mr. Trie. Sir?
    Mr. Horn. Have they given you any other money?
    Mr. Trie. Sir?
    Mr. Horn. Had Diahatsu given you any other money?
    Mr. Trie. That----
    Mr. Horn. But you admit they were the source of the money 
and that was----
    Mr. Trie. First, they haven't an American company. Mr. Wu, 
in that time we haven't formed any company here. Until try to 
purchase the Camelot Hotel. That is for the reason he come to 
the United States.
    Mr. Horn. OK. Well, I thank you and I know we are over the 
time that we said we would adjourn.
    Mr. Burton. Well, we have just a couple of more things we 
want to clean up but we really appreciate your participation, 
Mr. Horn. Thank you very much and what you didn't get to our 
staff will go through with the lawyers and with Mr. Trie.
    I'm going to take just a couple of minutes. I'm going to 
yield real quickly to Mr. Shays who had just a couple of things 
he wanted to followup on and then I will close.
    Mr. Shays. Thank you.
    Mr. Trie, you're going to get on your way real soon and I 
thank you very much. You made it fairly clear in your statement 
that Governor Clinton came into your restaurant but after he 
lost the election he still kept coming and you got to know him 
as a friend. And you got to know the then-defeated Governor and 
then you over time as friends wanted to help him in his 
gubernatorial race and ultimately Presidential.
    I would like to know how long you have known Mrs. Clinton, 
about the same amount of time?
    Mr. Trie. Yeah. Sometimes she come with then-Governor 
Clinton.
    Mr. Shays. Would she come often with the Governor or----
    Mr. Trie. No. She wasn't often.
    Mr. Shays. Would she come once a month to your restaurant?
    Mr. Trie. No, no, no.
    Mr. Shays. You said you held about four or five fundraisers 
for Bill Clinton in your restaurant; did Mrs. Clinton attend 
those fundraisers?
    Mr. Trie. I don't think so.
    Mr. Shays. You also said that you worked on Mr. Clinton's 
campaign. Was Mrs. Clinton aware that you were helping her 
husband in the campaign?
    Mr. Trie. I don't know because in that time I don't even 
know--I just have some people asking me to put a donation of 
food. And I do it in my restaurant.
    Mr. Shays. In the 1994 Presidential Gala, the 1994 one, you 
have a picture with the Clintons which isn't unusual. That is 
the one you contributed $100,000.
    Mr. Trie. Oh, OK.
    Mr. Shays. You and your wife and then the $600,000--the 
$60,000 in soft money. Did you speak to Mrs. Clinton at that 
event? Did you have a chance to visit with her at all in 1994?
    Mr. Trie. Yeah. We, in the--I receiving line I take a 
picture with her. She say something----
    Mr. Shays. Did she recognize you as, you know----
    Mr. Trie. I think the President recognized me every time 
that he saw me, he recognize me.
    Mr. Shays. In exhibit No. 60 there is a list of attendees 
at the February 16th, 1995, dinner at the White House for the 
DNC Managing Trustees. On the third page of the exhibit you are 
listed as attending the event. Did you attend that event?
    This is the 1995 DNC Managing Trustees.
    [Exhibit 60 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.099
    
    [GRAPHIC] [TIFF OMITTED] T8344.100
    
    [GRAPHIC] [TIFF OMITTED] T8344.101
    
    Ms. Hasler. Was that exhibit No. 6, Mr. Shays?
    Mr. Shays. That is exhibit No. 60. I apologize.
    I could actually break through that and just do you 
remember that event, Mr. Trie?
    Mr. Trie. Can I look at?
    Mr. Shays. Did you visit with the First Lady at that event?
    Mr. Trie. I haven't look at this one because----
    Mr. Shays. OK. Well, why don't we refresh your memory and 
take exhibit No. 62 which indicates that you were seated at her 
table.
    [Exhibit 62 follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.102
    
    [Witness consulting with counsel.]
    Mr. Shays. Surely you would remember if you sat with the 
First Lady of the United States.
    Mr. Trie. I know her. But I don't----
    Mr. Shays. But you don't, you don't remember sitting at the 
table with her?
    I mean unless our records are wrong.
    [Witness consulting with counsel.]
    Mr. Trie. I don't remember this event.
    Mr. Shays. You don't remember sitting at a table with Mrs. 
Clinton?
    Mr. Trie. I just don't remember.
    Mr. Shays. On May 19th, you arranged for a White House tour 
for a large group of people, including your wife, Wang Mei 
Trie. During this tour did the First Lady see your wife?
    Mr. Trie. Yes. That is what my wife tell me. I wasn't 
there.
    Mr. Shays. But as our records state she, Mrs. Clinton saw 
her and went over to her and obviously she knew her. And she 
then did what?
    Mr. Trie. I remember--I am sorry--I remember my wife told 
me she brought a friend to the White House and the First Lady 
met, saw her and just give her a hug and take her to the third 
floor to show the residential floor.
    Mr. Shays. I am going to close here, but that is an unusual 
opportunity to be invited into the personal living quarters of 
the President and the First Lady. So, obviously, your wife knew 
her fairly well. Did your wife know her better than you knew 
her?
    Mr. Trie. I don't know that.
    Mr. Shays. OK.
    Mr. Trie. Because we, we attend some like the, what you 
call that one?
    [Witness confers with counsel.]
    Mr. Trie. The 1994 and me and my wife sit in the table, we 
are the only Chinese I think they remember, remember her, my 
wife.
    Mr. Shays. Right. OK. Did you speak to the First Lady in 
Little Rock about going to the Beijing Women's Conference with 
her in September 1995?
    Mr. Trie. I believe so.
    Mr. Shays. And do you remember what she said to you?
    Mr. Trie. Let's see, I tried to bring this one up. I try to 
remember that I used to say, I say I know you are going to 
China. I wish I could see you in China. She say, yes, you will 
be more welcome, you can--something like, you can talk to my 
staff.
    Mr. Shays. So, you clearly had a relationship with the 
First Lady if she was willing to suggest that you come to the--
that, you know, that you contact someone in the White House 
about going to Beijing. That is a heck of an opportunity for 
any American citizen. So, I envy that you would have had a 
relationship with the First Lady or President that would give 
you that opportunity.
    Did you ask the invitation be extended to anyone else?
    You wanted an invitation to go to Beijing; did you ask if 
anyone else could come as well?
    Mr. Trie. No. I don't recall that. Not to talk to her.
    Mr. Shays. No. But did you, did you ask her if others could 
come as well? Or did you ask the White House if you could get 
an invitation for anyone else to be in Beijing with the First 
Lady?
    Mr. Trie. I don't recall that.
    Mr. Shays. OK. I'm almost coming to a close. Around 
Christmas time in 1995, did you send a pearl necklace to the 
First Lady?
    Mr. Trie. I believe so, yes.
    Mr. Shays. Why did you do that?
    Mr. Trie. I love them.
    Mr. Shays. You love them?
    Yes. And I appreciate that. They have done a lot for you 
and you respected them a lot and you cared about them. What was 
the necklace worth?
    Mr. Trie. Somewhere from $1,500 to $2,000, I think.
    Mr. Shays. And do you know if the First Lady received that 
necklace?
    Mr. Trie. No, I don't know if she receive or not. Oh, yeah, 
I think she received the one----
    Mr. Shays. Did she----
    Mr. Trie. OK, go ahead.
    Mr. Shays. No. I will wait.
    Mr. Trie. OK. I think that when they were in the receiving 
line she say, thank you for the Christmas gift. So, I think I 
remember a staff of her asking me how much is that worth? I say 
somewhere around--the way I tell maybe is around $2,000.
    Mr. Shays. So, it's fair to say that the First Lady knew 
you?
    Mr. Trie. Yes.
    Mr. Shays. So, if she denied knowing you or having a 
difficult time remembering you, would that surprise you?
    Mr. Trie. I don't know.
    Mr. Shays. Well, you gave her a $2,000--$1,500 to $2,000 
gift, she thanked you for the gift, she knew your wife and 
invited your wife to her personal headquarters.
    Mr. Trie. I didn't know when she say she didn't know me. I 
didn't know the----
    Mr. Shays. Yeah. But that would be----
    Mr. Trie [continuing]. I didn't know the fact.
    Mr. Shays [continuing]. That would be a surprise to you if 
she would say that she doesn't know who you are or doesn't 
recall you or doesn't----
    Mr. Trie. The only thing I remember is she know my name is 
Charlie.
    Mr. Shays. OK. Thank you very much, Mr. Trie, I appreciate 
your testimony.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you.
    Let me end up by saying this has been a very frustrating 
day for me. You know, you have what a lot of others who have 
testified before us have had and that's what I call selective 
memory loss. They remember things they want to and things they 
don't want to, they don't remember. Let me ask you one real 
quick question. In May 1994, you went to a DNC gala and you 
took a bunch of guests with you. You had one table. You gave 
$100,000 to the DNC and you didn't have a very good table.
    Did you ask Terry McAuliffe to get you a better table?
    Mr. Trie. I did.
    Mr. Burton. How much money did you give him to get you a 
better table?
    Mr. Trie. I think $500, $600, just for appreciate. He moved 
the table.
    Mr. Burton. You gave him $500 or $600 because you 
appreciated him getting you a better table?
    Mr. Trie. Yes.
    Mr. Burton. He initially said that he--he said, everybody 
wanted to get a better table, didn't he, initially?
    He first said that everybody wants a better table; didn't 
he?
    Mr. Trie. I guess so but I don't know. I don't really know. 
If I can see the picture of the table, because there's a 
picture in there, I would know how far he moved. I couldn't 
remember.
    Mr. Burton. At first he said, everybody wants a better 
table.
    [Witness confers with counsel.]
    Mr. Trie. Oh, yeah. I think so, yes. I believe so.
    Mr. Burton. And, so, then you gave him a gift of $500 or 
$600 and you got a better table.
    Mr. Trie. I don't recall. It was after moved the table or 
before moved the table.
    Mr. Burton. Well, let me just conclude by saying that one 
of the big concerns that we have had has been the connection 
between the people that you got conduit contributions from and 
the DNC and whether or not those people were connected to the 
leadership or the Communist Party in China. Ng Lap Seng, who is 
Mr. Wu, gave $15,000 to the DNC on October 10th, 1994; he 
signed the check in Chinese and he was a member of one of the 
organizations in China. The DNC records show that they even 
knew that the money came from Mr. Wu, even though he was not a 
U.S. citizen. He was a member of the Communist Chinese--of a 
Communist Chinese organization and he had contacts with a 
friend of his who he brought to Washington and, I believe to 
the White House, Wang Jun, who was the head of CITIC. This tied 
right in with the Chinese Communist leadership in Beijing and 
may have been connected to Chinese intelligence.
    Colonel Lin Rou Qing, you gave her or asked her to give 
$10,000 and exhibit No. 59 indicates that you wrote a letter 
asking that, saying that he was sending $10,000 and that 
Colonel Lin had given--Colonel Lin was an official in the 
People's Liberation Army and the $10,000 did come, as I 
understand it.
    Tomy Winata funneled at least $50,000 into the DNC through 
three different contributors. Winata is an associate of Lu 
Chao-Ying, who is a colonel--and is a colonel in the PLA, who 
funneled $300,000 to Johnny Chung; is that correct? Winata has 
other contacts with the Chinese Government and was also known 
by the Riady family.
    These are three examples where foreign individuals with 
close ties to the Chinese military or the Chinese intelligence 
organization made substantial contributions to the DNC. It 
seems very possible to me that, especially with some of them 
signing the checks in Chinese, that the DNC knew what was going 
on. These are the same people, DNC, who say they didn't know 
what was happening at the Hsi Lai Temple.
    Vice President Al Gore said neither he nor his advisors 
knew that that was a fundraiser and, yet, when Mr. Huang sat at 
the very place where you are sitting, John Huang said that 
David Strauss, Mr. Strauss, who used to be the head of the DNC, 
and Don Fowler, both knew that that was a fundraiser as well as 
all of the people that were associated or who were aides to the 
Vice President knew that it was a fundraiser.
    And, so, it's very difficult for me and many members of the 
committee to believe that the Vice President didn't know it was 
a fundraiser when it seems that everybody else who was there 
did know it was a fundraiser.
    As I said earlier, I've been very frustrated today because 
a lot of the things we thought you were going to tell us today 
have been like extracting a wisdom tooth from a person who has 
got it wrapped around their jawbone.
    But hopefully, because of the agreement we have reached 
with your legal counsel our staff, working with you and your 
legal counsel, will be able to get answers to all the rest of 
the questions that we are very concerned about, and that we 
will be reviewing those after you complete that 1 or 2-day 
meeting with our legal staff and your legal counsel.
    With that, I think we've covered just about everything we 
can cover today. We appreciate your being here and we stand 
adjourned.
    [Whereupon, at 6:19 p.m., the committee was adjourned.]
    [The transcribed interview of Mr. Trie follows:]

    [GRAPHIC] [TIFF OMITTED] T8344.111
    
    [GRAPHIC] [TIFF OMITTED] T8344.112
    
    [GRAPHIC] [TIFF OMITTED] T8344.113
    
    [GRAPHIC] [TIFF OMITTED] T8344.114
    
    [GRAPHIC] [TIFF OMITTED] T8344.115
    
    [GRAPHIC] [TIFF OMITTED] T8344.116
    
    [GRAPHIC] [TIFF OMITTED] T8344.117
    
    [GRAPHIC] [TIFF OMITTED] T8344.118
    
    [GRAPHIC] [TIFF OMITTED] T8344.119
    
    [GRAPHIC] [TIFF OMITTED] T8344.120
    
    [GRAPHIC] [TIFF OMITTED] T8344.121
    
    [GRAPHIC] [TIFF OMITTED] T8344.122
    
    [GRAPHIC] [TIFF OMITTED] T8344.123
    
    [GRAPHIC] [TIFF OMITTED] T8344.124
    
    [GRAPHIC] [TIFF OMITTED] T8344.125
    
    [GRAPHIC] [TIFF OMITTED] T8344.126
    
    [GRAPHIC] [TIFF OMITTED] T8344.127
    
    [GRAPHIC] [TIFF OMITTED] T8344.128
    
    [GRAPHIC] [TIFF OMITTED] T8344.129
    
    [GRAPHIC] [TIFF OMITTED] T8344.130
    
    [GRAPHIC] [TIFF OMITTED] T8344.131
    
    [GRAPHIC] [TIFF OMITTED] T8344.132
    
    [GRAPHIC] [TIFF OMITTED] T8344.133
    
    [GRAPHIC] [TIFF OMITTED] T8344.134
    
    [GRAPHIC] [TIFF OMITTED] T8344.135
    
    [GRAPHIC] [TIFF OMITTED] T8344.136
    
    [GRAPHIC] [TIFF OMITTED] T8344.137
    
    [GRAPHIC] [TIFF OMITTED] T8344.138
    
    [GRAPHIC] [TIFF OMITTED] T8344.139
    
    [GRAPHIC] [TIFF OMITTED] T8344.140
    
    [GRAPHIC] [TIFF OMITTED] T8344.141
    
    [GRAPHIC] [TIFF OMITTED] T8344.142
    
    [GRAPHIC] [TIFF OMITTED] T8344.143
    
    [GRAPHIC] [TIFF OMITTED] T8344.144
    
    [GRAPHIC] [TIFF OMITTED] T8344.145
    
    [GRAPHIC] [TIFF OMITTED] T8344.146
    
    [GRAPHIC] [TIFF OMITTED] T8344.147
    
    [GRAPHIC] [TIFF OMITTED] T8344.148
    
    [GRAPHIC] [TIFF OMITTED] T8344.149
    
    [GRAPHIC] [TIFF OMITTED] T8344.150
    
    [GRAPHIC] [TIFF OMITTED] T8344.151
    
    [GRAPHIC] [TIFF OMITTED] T8344.152
    
    [GRAPHIC] [TIFF OMITTED] T8344.153
    
    [GRAPHIC] [TIFF OMITTED] T8344.154
    
    [GRAPHIC] [TIFF OMITTED] T8344.155
    
    [GRAPHIC] [TIFF OMITTED] T8344.156
    
    [GRAPHIC] [TIFF OMITTED] T8344.157
    
    [GRAPHIC] [TIFF OMITTED] T8344.158
    
    [GRAPHIC] [TIFF OMITTED] T8344.159
    
    [GRAPHIC] [TIFF OMITTED] T8344.160
    
    [GRAPHIC] [TIFF OMITTED] T8344.161
    
    [GRAPHIC] [TIFF OMITTED] T8344.162
    
    [GRAPHIC] [TIFF OMITTED] T8344.163
    
    [GRAPHIC] [TIFF OMITTED] T8344.164
    
    [GRAPHIC] [TIFF OMITTED] T8344.165
    
    [GRAPHIC] [TIFF OMITTED] T8344.166
    
    [GRAPHIC] [TIFF OMITTED] T8344.167
    
    [GRAPHIC] [TIFF OMITTED] T8344.168
    
    [GRAPHIC] [TIFF OMITTED] T8344.169
    
    [GRAPHIC] [TIFF OMITTED] T8344.170
    
    [GRAPHIC] [TIFF OMITTED] T8344.171
    
    [GRAPHIC] [TIFF OMITTED] T8344.172
    
    [GRAPHIC] [TIFF OMITTED] T8344.173
    
    [GRAPHIC] [TIFF OMITTED] T8344.174
    
    [GRAPHIC] [TIFF OMITTED] T8344.175
    
    [GRAPHIC] [TIFF OMITTED] T8344.176
    
    [GRAPHIC] [TIFF OMITTED] T8344.177
    
    [GRAPHIC] [TIFF OMITTED] T8344.178
    
    [GRAPHIC] [TIFF OMITTED] T8344.179
    
    [GRAPHIC] [TIFF OMITTED] T8344.180
    
    [GRAPHIC] [TIFF OMITTED] T8344.181
    
    [GRAPHIC] [TIFF OMITTED] T8344.182
    
    [GRAPHIC] [TIFF OMITTED] T8344.183
    
    [GRAPHIC] [TIFF OMITTED] T8344.184
    
    [GRAPHIC] [TIFF OMITTED] T8344.185
    
    [GRAPHIC] [TIFF OMITTED] T8344.186
    
    [GRAPHIC] [TIFF OMITTED] T8344.187
    
    [GRAPHIC] [TIFF OMITTED] T8344.188
    
    [GRAPHIC] [TIFF OMITTED] T8344.189
    
    [GRAPHIC] [TIFF OMITTED] T8344.190
    
    [GRAPHIC] [TIFF OMITTED] T8344.191
    
    [GRAPHIC] [TIFF OMITTED] T8344.192
    
    [GRAPHIC] [TIFF OMITTED] T8344.193
    
    [GRAPHIC] [TIFF OMITTED] T8344.194
    
    [GRAPHIC] [TIFF OMITTED] T8344.195
    
    [GRAPHIC] [TIFF OMITTED] T8344.196
    
    [GRAPHIC] [TIFF OMITTED] T8344.197
    
    [GRAPHIC] [TIFF OMITTED] T8344.198
    
    [GRAPHIC] [TIFF OMITTED] T8344.199
    
    [GRAPHIC] [TIFF OMITTED] T8344.200
    
    [GRAPHIC] [TIFF OMITTED] T8344.201
    
    [GRAPHIC] [TIFF OMITTED] T8344.202
    
    [GRAPHIC] [TIFF OMITTED] T8344.203
    
    [GRAPHIC] [TIFF OMITTED] T8344.204
    
    [GRAPHIC] [TIFF OMITTED] T8344.205
    
    [GRAPHIC] [TIFF OMITTED] T8344.206
    
    [GRAPHIC] [TIFF OMITTED] T8344.207
    
    [GRAPHIC] [TIFF OMITTED] T8344.208
    
    [GRAPHIC] [TIFF OMITTED] T8344.209
    
    [GRAPHIC] [TIFF OMITTED] T8344.210
    
    [GRAPHIC] [TIFF OMITTED] T8344.211
    
    [GRAPHIC] [TIFF OMITTED] T8344.212
    
    [GRAPHIC] [TIFF OMITTED] T8344.213
    
    [GRAPHIC] [TIFF OMITTED] T8344.214
    
    [GRAPHIC] [TIFF OMITTED] T8344.215
    
    [GRAPHIC] [TIFF OMITTED] T8344.216
    
    [GRAPHIC] [TIFF OMITTED] T8344.217
    
    [GRAPHIC] [TIFF OMITTED] T8344.218
    
    [GRAPHIC] [TIFF OMITTED] T8344.219
    
    [GRAPHIC] [TIFF OMITTED] T8344.220
    
    [GRAPHIC] [TIFF OMITTED] T8344.221
    
    [GRAPHIC] [TIFF OMITTED] T8344.222
    
    [GRAPHIC] [TIFF OMITTED] T8344.223
    
    [GRAPHIC] [TIFF OMITTED] T8344.224
    
    [GRAPHIC] [TIFF OMITTED] T8344.225
    
    [GRAPHIC] [TIFF OMITTED] T8344.226
    
    [GRAPHIC] [TIFF OMITTED] T8344.227
    
    [GRAPHIC] [TIFF OMITTED] T8344.228
    
    [GRAPHIC] [TIFF OMITTED] T8344.229
    
    [GRAPHIC] [TIFF OMITTED] T8344.230
    
    [GRAPHIC] [TIFF OMITTED] T8344.231
    
    [GRAPHIC] [TIFF OMITTED] T8344.232
    
    [GRAPHIC] [TIFF OMITTED] T8344.233
    
    [GRAPHIC] [TIFF OMITTED] T8344.234
    
    [GRAPHIC] [TIFF OMITTED] T8344.235
    
    [GRAPHIC] [TIFF OMITTED] T8344.236
    
    [GRAPHIC] [TIFF OMITTED] T8344.237
    
    [GRAPHIC] [TIFF OMITTED] T8344.238
    
    [GRAPHIC] [TIFF OMITTED] T8344.239
    
    [GRAPHIC] [TIFF OMITTED] T8344.240
    
    [GRAPHIC] [TIFF OMITTED] T8344.241
    
    [GRAPHIC] [TIFF OMITTED] T8344.242
    
    [GRAPHIC] [TIFF OMITTED] T8344.243
    
    [GRAPHIC] [TIFF OMITTED] T8344.244
    
    [GRAPHIC] [TIFF OMITTED] T8344.245
    
    [GRAPHIC] [TIFF OMITTED] T8344.246
    
    [GRAPHIC] [TIFF OMITTED] T8344.247
    
    [GRAPHIC] [TIFF OMITTED] T8344.248
    
    [GRAPHIC] [TIFF OMITTED] T8344.249
    
    [GRAPHIC] [TIFF OMITTED] T8344.250
    
    [GRAPHIC] [TIFF OMITTED] T8344.251
    
    [GRAPHIC] [TIFF OMITTED] T8344.252
    
    [GRAPHIC] [TIFF OMITTED] T8344.253
    
    [GRAPHIC] [TIFF OMITTED] T8344.254
    
    [GRAPHIC] [TIFF OMITTED] T8344.255
    
    [GRAPHIC] [TIFF OMITTED] T8344.256
    
    [GRAPHIC] [TIFF OMITTED] T8344.257
    
    [GRAPHIC] [TIFF OMITTED] T8344.258
    
    [GRAPHIC] [TIFF OMITTED] T8344.259
    
    [GRAPHIC] [TIFF OMITTED] T8344.260
    
    [GRAPHIC] [TIFF OMITTED] T8344.261
    
    [GRAPHIC] [TIFF OMITTED] T8344.262
    
    [GRAPHIC] [TIFF OMITTED] T8344.263
    
    [GRAPHIC] [TIFF OMITTED] T8344.264
    
    [GRAPHIC] [TIFF OMITTED] T8344.265
    
    [GRAPHIC] [TIFF OMITTED] T8344.266
    
    [GRAPHIC] [TIFF OMITTED] T8344.267
    
    [GRAPHIC] [TIFF OMITTED] T8344.268
    
    [GRAPHIC] [TIFF OMITTED] T8344.269
    
    [GRAPHIC] [TIFF OMITTED] T8344.270
    
    [GRAPHIC] [TIFF OMITTED] T8344.271
    
    [GRAPHIC] [TIFF OMITTED] T8344.272
    
    [GRAPHIC] [TIFF OMITTED] T8344.273
    
    [GRAPHIC] [TIFF OMITTED] T8344.274
    
    [GRAPHIC] [TIFF OMITTED] T8344.275
    
    [GRAPHIC] [TIFF OMITTED] T8344.276
    
    [GRAPHIC] [TIFF OMITTED] T8344.277
    
    [GRAPHIC] [TIFF OMITTED] T8344.278
    
    [GRAPHIC] [TIFF OMITTED] T8344.279
    
    [GRAPHIC] [TIFF OMITTED] T8344.280
    
    [GRAPHIC] [TIFF OMITTED] T8344.281
    
    [GRAPHIC] [TIFF OMITTED] T8344.282
    
    [GRAPHIC] [TIFF OMITTED] T8344.283
    
    [GRAPHIC] [TIFF OMITTED] T8344.284
    
    [GRAPHIC] [TIFF OMITTED] T8344.285
    
    [GRAPHIC] [TIFF OMITTED] T8344.286
    
    [GRAPHIC] [TIFF OMITTED] T8344.287
    
    [GRAPHIC] [TIFF OMITTED] T8344.288
    
    [GRAPHIC] [TIFF OMITTED] T8344.289
    
    [GRAPHIC] [TIFF OMITTED] T8344.290
    
    [GRAPHIC] [TIFF OMITTED] T8344.291
    
    [GRAPHIC] [TIFF OMITTED] T8344.292
    
    [GRAPHIC] [TIFF OMITTED] T8344.293
    
    [GRAPHIC] [TIFF OMITTED] T8344.294
    
    [GRAPHIC] [TIFF OMITTED] T8344.295
    
    [GRAPHIC] [TIFF OMITTED] T8344.296
    
    [GRAPHIC] [TIFF OMITTED] T8344.297
    
    [GRAPHIC] [TIFF OMITTED] T8344.298
    
    [GRAPHIC] [TIFF OMITTED] T8344.299
    
    [GRAPHIC] [TIFF OMITTED] T8344.300
    
    [GRAPHIC] [TIFF OMITTED] T8344.301
    
    [GRAPHIC] [TIFF OMITTED] T8344.302
    
    [GRAPHIC] [TIFF OMITTED] T8344.303
    
    [GRAPHIC] [TIFF OMITTED] T8344.304
    
    [GRAPHIC] [TIFF OMITTED] T8344.305
    
    [GRAPHIC] [TIFF OMITTED] T8344.306
    
    [GRAPHIC] [TIFF OMITTED] T8344.307
    
    [GRAPHIC] [TIFF OMITTED] T8344.308
    
    [GRAPHIC] [TIFF OMITTED] T8344.309
    
    [GRAPHIC] [TIFF OMITTED] T8344.310
    
    [GRAPHIC] [TIFF OMITTED] T8344.311
    
    [GRAPHIC] [TIFF OMITTED] T8344.312
    
    [GRAPHIC] [TIFF OMITTED] T8344.313
    
    [GRAPHIC] [TIFF OMITTED] T8344.314
    
    [GRAPHIC] [TIFF OMITTED] T8344.315
    
    [GRAPHIC] [TIFF OMITTED] T8344.316
    
    [GRAPHIC] [TIFF OMITTED] T8344.317
    
    [GRAPHIC] [TIFF OMITTED] T8344.318
    
    [GRAPHIC] [TIFF OMITTED] T8344.319
    
    [GRAPHIC] [TIFF OMITTED] T8344.320
    
    [GRAPHIC] [TIFF OMITTED] T8344.321
    
    [GRAPHIC] [TIFF OMITTED] T8344.322
    
    [GRAPHIC] [TIFF OMITTED] T8344.323
    
    [GRAPHIC] [TIFF OMITTED] T8344.324
    
    [GRAPHIC] [TIFF OMITTED] T8344.325
    
    [GRAPHIC] [TIFF OMITTED] T8344.326
    
    [GRAPHIC] [TIFF OMITTED] T8344.328
    
    [GRAPHIC] [TIFF OMITTED] T8344.329
    
    [GRAPHIC] [TIFF OMITTED] T8344.330
    
    [GRAPHIC] [TIFF OMITTED] T8344.331
    
    [GRAPHIC] [TIFF OMITTED] T8344.332
    
    [GRAPHIC] [TIFF OMITTED] T8344.333
    
    [GRAPHIC] [TIFF OMITTED] T8344.334
    
    [GRAPHIC] [TIFF OMITTED] T8344.335
    
    [GRAPHIC] [TIFF OMITTED] T8344.336
    
    [GRAPHIC] [TIFF OMITTED] T8344.337
    
    [GRAPHIC] [TIFF OMITTED] T8344.338
    
    [GRAPHIC] [TIFF OMITTED] T8344.339
    
    [GRAPHIC] [TIFF OMITTED] T8344.340
    
    [GRAPHIC] [TIFF OMITTED] T8344.341
    
    [GRAPHIC] [TIFF OMITTED] T8344.342
    
    [GRAPHIC] [TIFF OMITTED] T8344.343
    
    [GRAPHIC] [TIFF OMITTED] T8344.344
    
    [GRAPHIC] [TIFF OMITTED] T8344.345
    
    [GRAPHIC] [TIFF OMITTED] T8344.346
    
    [GRAPHIC] [TIFF OMITTED] T8344.347
    
    [GRAPHIC] [TIFF OMITTED] T8344.348
    
    [GRAPHIC] [TIFF OMITTED] T8344.349
    
    [GRAPHIC] [TIFF OMITTED] T8344.350
    
    [GRAPHIC] [TIFF OMITTED] T8344.351
    
    [GRAPHIC] [TIFF OMITTED] T8344.352
    
    [GRAPHIC] [TIFF OMITTED] T8344.353
    
    [GRAPHIC] [TIFF OMITTED] T8344.354
    
    [GRAPHIC] [TIFF OMITTED] T8344.355
    
    [GRAPHIC] [TIFF OMITTED] T8344.356
    
    [GRAPHIC] [TIFF OMITTED] T8344.357
    
    [GRAPHIC] [TIFF OMITTED] T8344.358
    
    [GRAPHIC] [TIFF OMITTED] T8344.359
    
    [GRAPHIC] [TIFF OMITTED] T8344.360
    
    [GRAPHIC] [TIFF OMITTED] T8344.361
    
    [GRAPHIC] [TIFF OMITTED] T8344.362
    
    [GRAPHIC] [TIFF OMITTED] T8344.363
    
    [GRAPHIC] [TIFF OMITTED] T8344.364
    
    [GRAPHIC] [TIFF OMITTED] T8344.365
    
    [GRAPHIC] [TIFF OMITTED] T8344.366
    
    [GRAPHIC] [TIFF OMITTED] T8344.367
    
    [GRAPHIC] [TIFF OMITTED] T8344.368
    
    [GRAPHIC] [TIFF OMITTED] T8344.369
    
    [GRAPHIC] [TIFF OMITTED] T8344.370
    
    [GRAPHIC] [TIFF OMITTED] T8344.371
    
    [GRAPHIC] [TIFF OMITTED] T8344.372
    
    [GRAPHIC] [TIFF OMITTED] T8344.373
    
    [GRAPHIC] [TIFF OMITTED] T8344.374
    
    [GRAPHIC] [TIFF OMITTED] T8344.375
    
    [GRAPHIC] [TIFF OMITTED] T8344.376
    
    [GRAPHIC] [TIFF OMITTED] T8344.377
    
    [GRAPHIC] [TIFF OMITTED] T8344.378
    
    [GRAPHIC] [TIFF OMITTED] T8344.379
    
    [GRAPHIC] [TIFF OMITTED] T8344.380
    
    [GRAPHIC] [TIFF OMITTED] T8344.381
    
    [GRAPHIC] [TIFF OMITTED] T8344.382
    
    [GRAPHIC] [TIFF OMITTED] T8344.383
    
    [GRAPHIC] [TIFF OMITTED] T8344.384
    
    [GRAPHIC] [TIFF OMITTED] T8344.385
    
    [GRAPHIC] [TIFF OMITTED] T8344.386
    
    [GRAPHIC] [TIFF OMITTED] T8344.387
    
    [GRAPHIC] [TIFF OMITTED] T8344.388
    
    [GRAPHIC] [TIFF OMITTED] T8344.389
    
    [GRAPHIC] [TIFF OMITTED] T8344.390
    
    [GRAPHIC] [TIFF OMITTED] T8344.391
    
    [GRAPHIC] [TIFF OMITTED] T8344.392
    
    [GRAPHIC] [TIFF OMITTED] T8344.393
    
    [GRAPHIC] [TIFF OMITTED] T8344.394
    
    [GRAPHIC] [TIFF OMITTED] T8344.395
    
    [GRAPHIC] [TIFF OMITTED] T8344.396
    
    [GRAPHIC] [TIFF OMITTED] T8344.397
    
    [GRAPHIC] [TIFF OMITTED] T8344.398
    
    [GRAPHIC] [TIFF OMITTED] T8344.399
    
    [GRAPHIC] [TIFF OMITTED] T8344.400
    
    [GRAPHIC] [TIFF OMITTED] T8344.401
    
    [GRAPHIC] [TIFF OMITTED] T8344.402
    
    [GRAPHIC] [TIFF OMITTED] T8344.403
    
    [GRAPHIC] [TIFF OMITTED] T8344.404
    
    [GRAPHIC] [TIFF OMITTED] T8344.405
    
    [GRAPHIC] [TIFF OMITTED] T8344.406
    
    [GRAPHIC] [TIFF OMITTED] T8344.407
    
    [GRAPHIC] [TIFF OMITTED] T8344.408
    
    [GRAPHIC] [TIFF OMITTED] T8344.409
    
    [GRAPHIC] [TIFF OMITTED] T8344.410
    
    [GRAPHIC] [TIFF OMITTED] T8344.411
    
    [GRAPHIC] [TIFF OMITTED] T8344.412
    
    [GRAPHIC] [TIFF OMITTED] T8344.413
    
    [GRAPHIC] [TIFF OMITTED] T8344.414
    
    [GRAPHIC] [TIFF OMITTED] T8344.415
    
    [GRAPHIC] [TIFF OMITTED] T8344.416
    
    [GRAPHIC] [TIFF OMITTED] T8344.417
    
    [GRAPHIC] [TIFF OMITTED] T8344.418
    
    [GRAPHIC] [TIFF OMITTED] T8344.419
    
    [GRAPHIC] [TIFF OMITTED] T8344.420
    
    [GRAPHIC] [TIFF OMITTED] T8344.421
    
    [GRAPHIC] [TIFF OMITTED] T8344.422
    
    [GRAPHIC] [TIFF OMITTED] T8344.423
    
    [GRAPHIC] [TIFF OMITTED] T8344.424
    
    [GRAPHIC] [TIFF OMITTED] T8344.425
    
    [GRAPHIC] [TIFF OMITTED] T8344.426
    
    [GRAPHIC] [TIFF OMITTED] T8344.427
    
    [GRAPHIC] [TIFF OMITTED] T8344.428
    
    [GRAPHIC] [TIFF OMITTED] T8344.429
    
    [GRAPHIC] [TIFF OMITTED] T8344.430
    
    [GRAPHIC] [TIFF OMITTED] T8344.431
    
    [GRAPHIC] [TIFF OMITTED] T8344.432
    
    [GRAPHIC] [TIFF OMITTED] T8344.433
    
    [GRAPHIC] [TIFF OMITTED] T8344.434
    
    [GRAPHIC] [TIFF OMITTED] T8344.435
    
    [GRAPHIC] [TIFF OMITTED] T8344.436
    
    [GRAPHIC] [TIFF OMITTED] T8344.437
    
    [The FBI 302 of Mr. Trie, referenced throughout the 
hearing, follows:]

[GRAPHIC] [TIFF OMITTED] T6496.866

[GRAPHIC] [TIFF OMITTED] T6496.867

[GRAPHIC] [TIFF OMITTED] T6496.868

[GRAPHIC] [TIFF OMITTED] T6496.869

[GRAPHIC] [TIFF OMITTED] T6496.870

[GRAPHIC] [TIFF OMITTED] T6496.871

[GRAPHIC] [TIFF OMITTED] T6496.872

[GRAPHIC] [TIFF OMITTED] T6496.873

[GRAPHIC] [TIFF OMITTED] T6496.874

[GRAPHIC] [TIFF OMITTED] T6496.875

[GRAPHIC] [TIFF OMITTED] T6496.876

[GRAPHIC] [TIFF OMITTED] T6496.877

[GRAPHIC] [TIFF OMITTED] T6496.878

[GRAPHIC] [TIFF OMITTED] T6496.879

[GRAPHIC] [TIFF OMITTED] T6496.880

[GRAPHIC] [TIFF OMITTED] T6496.881

[GRAPHIC] [TIFF OMITTED] T6496.882

[GRAPHIC] [TIFF OMITTED] T6496.883

[GRAPHIC] [TIFF OMITTED] T6496.884

[GRAPHIC] [TIFF OMITTED] T6496.885

[GRAPHIC] [TIFF OMITTED] T6496.886

[GRAPHIC] [TIFF OMITTED] T6496.887

[GRAPHIC] [TIFF OMITTED] T6496.888

[GRAPHIC] [TIFF OMITTED] T6496.889

[GRAPHIC] [TIFF OMITTED] T6496.890

[GRAPHIC] [TIFF OMITTED] T6496.891

[GRAPHIC] [TIFF OMITTED] T6496.892

[GRAPHIC] [TIFF OMITTED] T6496.893

[GRAPHIC] [TIFF OMITTED] T6496.894

[GRAPHIC] [TIFF OMITTED] T6496.895

[GRAPHIC] [TIFF OMITTED] T6496.896

[GRAPHIC] [TIFF OMITTED] T6496.897

[GRAPHIC] [TIFF OMITTED] T6496.898

[GRAPHIC] [TIFF OMITTED] T6496.899

[GRAPHIC] [TIFF OMITTED] T6496.900

[GRAPHIC] [TIFF OMITTED] T6496.901

[GRAPHIC] [TIFF OMITTED] T6496.902

[GRAPHIC] [TIFF OMITTED] T6496.903

[GRAPHIC] [TIFF OMITTED] T6496.904

[GRAPHIC] [TIFF OMITTED] T6496.905

[GRAPHIC] [TIFF OMITTED] T6496.906

[GRAPHIC] [TIFF OMITTED] T6496.907

[GRAPHIC] [TIFF OMITTED] T6496.908

[GRAPHIC] [TIFF OMITTED] T6496.909

[GRAPHIC] [TIFF OMITTED] T6496.910

[GRAPHIC] [TIFF OMITTED] T6496.911

[GRAPHIC] [TIFF OMITTED] T6496.912

[GRAPHIC] [TIFF OMITTED] T6496.913

[GRAPHIC] [TIFF OMITTED] T6496.914

[GRAPHIC] [TIFF OMITTED] T6496.915

[GRAPHIC] [TIFF OMITTED] T6496.916

[GRAPHIC] [TIFF OMITTED] T6496.917

[GRAPHIC] [TIFF OMITTED] T6496.918

[GRAPHIC] [TIFF OMITTED] T6496.919

[GRAPHIC] [TIFF OMITTED] T6496.920

[GRAPHIC] [TIFF OMITTED] T6496.921

[GRAPHIC] [TIFF OMITTED] T6496.922

[GRAPHIC] [TIFF OMITTED] T6496.923

[GRAPHIC] [TIFF OMITTED] T6496.924

[GRAPHIC] [TIFF OMITTED] T6496.925

[GRAPHIC] [TIFF OMITTED] T6496.926

[GRAPHIC] [TIFF OMITTED] T6496.927

[GRAPHIC] [TIFF OMITTED] T6496.928

[GRAPHIC] [TIFF OMITTED] T6496.929

[GRAPHIC] [TIFF OMITTED] T6496.930

[GRAPHIC] [TIFF OMITTED] T6496.931

[GRAPHIC] [TIFF OMITTED] T6496.932

[GRAPHIC] [TIFF OMITTED] T6496.933

[GRAPHIC] [TIFF OMITTED] T6496.934

[GRAPHIC] [TIFF OMITTED] T6496.935

[GRAPHIC] [TIFF OMITTED] T6496.936

[GRAPHIC] [TIFF OMITTED] T6496.937

[GRAPHIC] [TIFF OMITTED] T6496.938

[GRAPHIC] [TIFF OMITTED] T6496.939

[GRAPHIC] [TIFF OMITTED] T6496.940

[GRAPHIC] [TIFF OMITTED] T6496.941

[GRAPHIC] [TIFF OMITTED] T6496.942

[GRAPHIC] [TIFF OMITTED] T6496.943

[GRAPHIC] [TIFF OMITTED] T6496.944

[GRAPHIC] [TIFF OMITTED] T6496.945

[GRAPHIC] [TIFF OMITTED] T6496.946

[GRAPHIC] [TIFF OMITTED] T6496.947

[GRAPHIC] [TIFF OMITTED] T6496.948

[GRAPHIC] [TIFF OMITTED] T6496.949

[GRAPHIC] [TIFF OMITTED] T6496.950

[GRAPHIC] [TIFF OMITTED] T6496.951

[GRAPHIC] [TIFF OMITTED] T6496.952

[GRAPHIC] [TIFF OMITTED] T6496.953

[GRAPHIC] [TIFF OMITTED] T6496.954

[GRAPHIC] [TIFF OMITTED] T6496.955

[GRAPHIC] [TIFF OMITTED] T6496.956

[GRAPHIC] [TIFF OMITTED] T6496.957

[GRAPHIC] [TIFF OMITTED] T6496.958

[GRAPHIC] [TIFF OMITTED] T6496.959

[GRAPHIC] [TIFF OMITTED] T6496.960

[GRAPHIC] [TIFF OMITTED] T6496.961

[GRAPHIC] [TIFF OMITTED] T6496.962

[GRAPHIC] [TIFF OMITTED] T6496.963

[GRAPHIC] [TIFF OMITTED] T6496.964

[GRAPHIC] [TIFF OMITTED] T6496.965

[GRAPHIC] [TIFF OMITTED] T6496.966

[GRAPHIC] [TIFF OMITTED] T6496.967

[GRAPHIC] [TIFF OMITTED] T6496.968

[GRAPHIC] [TIFF OMITTED] T6496.969

[GRAPHIC] [TIFF OMITTED] T6496.970

</pre></body></html>
